SEMIANNUAL REPORT TO THE


CONGRESS                                April 1, 2004 – September 30, 2004



                                                        INCLUDING
                                                         THE OIG’S
                                                  FISCAL YEAR 2004
                                                     PERFORMANCE
                                                           REPORT




OFFICE OF INSPECTOR GENERAL
FEDERAL DEPOSIT INSURANCE CORPORATION
            Working Relationship Principles
               for Agencies and Offices
                 of Inspector General
The Inspector General (IG) Act establishes for most      helpful to the Agency at
agencies an Office of Inspector General (OIG) and        the earliest possible stage.
sets out its mission, responsibilities, and authority.
                                                         Interact with professional-
The IG is under the general supervision of the agency
                                                         ism and mutual respect. Each
head. The unique nature of the IG function can pre-
                                                         party should always act in good
sent a number of challenges for establishing and
                                                         faith and presume the same from the
maintaining effective working relationships. The fol-
                                                         other. Both parties share as a common goal the suc-
lowing working relationship principles provide some
                                                         cessful accomplishment of the Agency’s mission.
guidance for agencies and OIGs.
                                                         Recognize and respect the mission and priorities of
To work most effectively together, the Agency and its
                                                         the Agency and the OIG. The Agency should recog-
OIG need to clearly define what the two consider to be
                                                         nize the OIG’s independent role in carrying out its
a productive relationship and then consciously manage
                                                         mission within the Agency, while recognizing the
toward that goal in an atmosphere of mutual respect.
                                                         responsibility of the OIG to report both to the Con-
By providing objective information to promote gov-       gress and to the Agency Head. The OIG should work
ernment management, decision-making, and account-        to carry out its functions with a minimum of disrup-
ability, the OIG contributes to the Agency’s success.    tion to the primary work of the Agency.
The OIG is an agent of positive change, focusing on
eliminating waste, fraud and abuse, and on identifying   Be thorough, objective and fair. The OIG must per-
problems and recommendations for corrective actions      form its work thoroughly, objectively and with con-
by agency leadership. The OIG provides the agency        sideration to the Agency’s point of view. When
and Congress with objective assessments of opportu-      responding, the Agency will objectively consider dif-
nities to be more successful. The OIG, although not      fering opinions and means of improving operations.
under the direct supervision of senior agency manage-    Both sides will recognize successes in addressing
ment, must keep them and the Congress fully and cur-     management challenges.
rently informed of significant OIG activities. Given     Be engaged. The OIG and Agency management will
the complexity of management and policy issues, the      work cooperatively in identifying the most important
OIG and the Agency may sometimes disagree on the         areas for OIG work, as well as the best means of
extent of a problem and the need for and scope of cor-
                                                         addressing the results of that work, while maintaining
rective action. However, such disagreements should
                                                         the OIG’s statutory independence of operation. In
not cause the relationship between the OIG and the
                                                         addition, agencies need to recognize that the OIG also
Agency to become unproductive.
                                                         will need to carry out work that is self-initiated, con-
                                                         gressionally requested, or mandated by law.
To work together most effectively, the OIG
and the Agency should strive to:                         Be knowledgeable. The OIG will continually strive to
                                                         keep abreast of agency programs and operations, and
Foster open communications at all levels. The            Agency management will be kept informed of OIG
Agency will promptly respond to OIG requests for         activities and concerns being raised in the course of
information to facilitate OIG activities and acknowl-    OIG work. Agencies will help ensure that the OIG is
edge challenges that the OIG can help address. Sur-
                                                         kept up to date on current matters and events.
prises are to be avoided. With very limited exceptions
primarily related to investigations, the OIG should      Provide feedback. The Agency and the OIG should
keep the Agency advised of its work and its findings     implement mechanisms, both formal and informal,
on a timely basis, and strive to provide information     to ensure prompt and regular feedback.
SEMIANNUAL REPORT TO THE


CONGRESS                      April 1, 2004–September 30, 2004




        OFFICE OF INSPECTOR GENERAL
        FEDERAL DEPOSIT INSURANCE CORPORATION
Federal Deposit Insurance Corporation
801 17th Street, NW, Washington, DC 20434                                          Office of Inspector General




To Members of the Congress and the
Chairman of the Federal Deposit Insurance Corporation

This is my eighteenth and final semiannual report to the Congress of
the United States. In December I plan to retire from federal service
after 401/2 years. It has been a privilege and an honor during the past
81/2 years to serve as Inspector General (IG) for the Federal Deposit
Insurance Corporation (FDIC) under both Presidents Clinton and
Bush. Since 1996, my office has undergone many changes as we
strived to be one of the best IG offices in the government. I am
extremely proud of the many contributions and accomplishments made by the professional women
and men in my office. As described in this report and in the other 17 semiannual reports that I have
issued, their work has provided value and has had a positive impact on the Corporation. I would like
to thank each of the FDIC Office of Inspector General (OIG) employees—past and present—for
their support and efforts. I especially want to thank my Executive team whose help, dedicated work,
and support made this office what it is today.

I also would like to acknowledge the four FDIC Chairmen—Ricki Helfer, Skip Hove, Donna
Tanoue, and Donald Powell—with whom I have worked during my tenure at the FDIC. Their sup-
port and understanding of the IG mission was critical to our success. In addition, I want to especially
thank Director Joe Neely (1996 -1998) and Vice Chairman John Reich (2001 to present), who served
as Audit Committee Chairmen and who were instrumental in ensuring that appropriate attention was
given to our reports. Vice Chairman Reich has been extremely supportive in helping to ensure that
my office became more effective within the Corporation, and I am extremely grateful for his efforts
on our behalf.

Finally, I want to acknowledge and thank the Office of Management and Budget, my Congres-
sional appropriators, and the House Financial Services and the Senate Banking Committees for
their support over the years. Their support has been critical to ensuring that the IG function
works as the Congress intended. I have great respect for all of my colleagues in the President’s
Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency and
their commitment to the IG mission.

I am confident that my Executive team, under the leadership of my Deputy Inspector General,
Patricia Black, will effectively carry on the mission of the OIG at the Corporation until the Presi-
dent selects my successor. It has been my privilege and pleasure to have been a public servant for
our federal government. God Bless America!



Gaston L. Gianni, Jr.
Inspector General
November 8, 2004
                                                                                        Contents

Inspector General’s Statement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Highlights. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Management and Performance Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Investigations—Making an Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
OIG Organization—Pursuing OIG Goals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
Reporting Terms and Requirements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56
Statistical Information Required by the Inspector General Act of 1978, as amended . . . . . . . . . . . . . . . 58
Congratulations to Award Winners . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64
Farewell to OIG Retirees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
FY 2004 Performance Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

Tables
Table 1: Significant OIG Achievements. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54
Table 2: Nonmonetary Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

Figures
Figure 1: Products Issued and Investigations Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
Figure 2: Questioned Costs/Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55
Figure 3: Fines, Restitution, and Monetary Recoveries Resulting from OIG Investigations . . . . . . . . . 55




                                                                                                                       Management and Performance Challenges v
                                                      Inspector General’s
                                                      Statement

United States citizens have recently cast their       work site for many FDIC employees. At the same
votes for president and for many other state and      time, the Corporation will be carrying out addi-
local government officials who will lead our          tional downsizing of up to 12 percent of its
Nation. Election Day reminds us of the many           5,300 employees through buyouts, retirements,
freedoms we enjoy and the opportunity afforded        and reductions in force; cross-training many
voters to shape the future of our country and the     others; and hoping for Congressional approval of
world. As public servants, we in the Federal          the proposed FDIC Workforce 21 Act of 2004
Deposit Insurance Corporation (FDIC) Office of        which would grant the FDIC more personnel flex-
Inspector General (OIG) also feel especially privi-   ibility. FDIC people, processes, property, and
leged to serve our country by helping to achieve      products will all be greatly impacted, and an envi-
the FDIC mission—maintaining stability and            ronment in such flux is highly vulnerable to both
public confidence in the nation’s financial system.   known and unforeseen risk. For the Corporation
                                                      to be successful during this time of critical change,
The Corporation will carry out its principal busi-    it will need to devote careful attention to ensuring
ness lines—insuring deposits, examining and           that the risks are managed and minimized.
supervising financial institutions, and managing
receiverships—in an atmosphere of constant            In that context, I believe that the OIG has a vital,
change over the coming months. The financial          independent role to play in ensuring that controls
services industry is highly dynamic, and new          are in place and operating to mitigate not only
technologies, financial services, and products are    existing risks but new ones as well. I further
introduced every day. Consolidation in the            believe that the working relationship principles
industry can result in much larger institutions       outlined by the federal Inspector General commu-
that pose unique supervisory challenges. The          nity and the Office of Management and Budget
Corporation’s operations are also marked by           and articulated on the inside front cover of this
change. The FDIC is refining its internal             report will continue to serve the FDIC and the
processes to keep pace with the industry, intro-      OIG well as we carry out our respective responsi-
ducing a New Financial Environment to better          bilities amidst this changing environment.
meet financial management and information
needs, guarding against information security          Those principles are being embraced at the FDIC.
risks, responding to Congressional legislation        The OIG and the Corporation engage in open
and concerns regarding anti-money laundering          communications at all levels and maintain per-
and terrorist financing, engaging contractors to      sonal and professional respect for one another.
provide needed services, and building a new           We understand the mission and priorities of the

                                                                           Management and Performance Challenges 1
       Corporation, align our strategic plan and goals          feedback from corporate management on various
       with those of the Corporation, and take advantage        aspects of OIG communications, processes, and
       of every opportunity to communicate the OIG              products. The feedback provided by the Corpora-
       mission and vision to FDIC management and                tion, much of which is captured in our fiscal year
       staff. Because of the nature of our audits and           2004 performance report and included in this
       investigations, we may take positions and express        semiannual report, was constructive and will help
       views that others in the Corporation do not share.       guide our efforts going forward.
       However, we duly consider the Corporation’s
                                                                While I have spoken of our office as a whole and
       point of view and are careful to ensure that our
                                                                how we espouse principles to ensure successful
       work is thorough, objective, and fair, and that our
                                                                working relationships with all others in the Cor-
       audits and evaluations meet Generally Accepted
                                                                poration, I also wish to recognize some of the
       Government Auditing Standards. We engage the             individuals in the OIG whose success has been
       Corporation in frequent dialogue. For example,           especially commended during the reporting
       during the reporting period, we coordinated with         period. Samuel Holland, our Assistant Inspector
       FDIC management as we developed our Fiscal               General for Investigations was named as a finalist
       Year 2005 Assignment Plan and the management             for the Service to America Medal in the Justice
       and performance challenges that drive much of            and Law Enforcement category. The Service to
       our work. We also participated at “Getting to            America program is sponsored by the Atlantic
       Green” meetings with management to address               Media Company and the Partnership for Public
       Federal Information Security Management Act-             Service and recognizes the outstanding accom-
       related issues and partnered with the Corporation        plishments of America’s public servants.
       on investigative activities targeting financial insti-   Mr. Holland was nominated for his pioneering
       tution fraud, concealment of assets, consumer            efforts in fighting white-collar crime in the
       protection, and employee integrity issues.               nation’s financial system. One of our Special
                                                                Agents, J. Kenneth Meyd, was also recognized by
       In line with the principles, the OIG is also very        the District of Connecticut’s U.S. Attorney’s
       focused on human capital and the knowledge and           Office for his work on a criminal restitution case
       skills the OIG needs to add utmost value to FDIC         involving an individual who concealed assets
       programs and operations. Our highly qualified            from the FDIC.
       staff meets rigorous professional training stan-
       dards, and as we hire new staff, we seek to main-        Three teams of individuals also received Awards
       tain a workforce with the proper expertise and           for Excellence at the annual awards ceremony
       skills to carry out the Inspector General mission.       of the President’s Council on Integrity and Effi-
       At an Emerging Issues in Banking symposium that          ciency and the Executive Council on Integrity
       we recently cosponsored with the Department of           and Efficiency this month. First, individuals
       the Treasury and Federal Reserve OIGs, officials         responsible for the audit of Supervisory Actions
       from several of the FDIC’s major divisions shared        Taken for Bank Secrecy Act Violations were
       their perspectives with us—a valuable source of          honored for recommending improvements to
       knowledge on corporate issues and priorities.            follow-up of Bank Secrecy Act violations at
                                                                FDIC-supervised institutions. Members of the
       Feedback is another important guiding princi-            joint investigative/prosecutorial team responsi-
       ple—both formal and informal. Such feedback              ble for investigating the failure of Hamilton
       occurs in a number of ways. We meet regularly            Bank, N.A. were also acknowledged for their
       with the Chairman, Vice Chairman, Chief Oper-            efforts leading to the indictment of those
       ating Officer, Chief Financial Officer, Chief Infor-     alleged to be responsible for the bank’s fail-
       mation Officer, Division and Office Directors,           ure. Third, an interagency OIG team led by
       and engage in dialogue at every operating level.         Robert L. McGregor, Assistant Inspector
       Meetings of the Audit Committee provide us an            General for Quality Assurance and Oversight,
       opportunity to present report findings and rec-          received recognition for updating the Quality
       ommendations and respond to Audit Committee              Standards for Offices of Inspector General,
       members’ questions about our work. We have also          known as the “Silver Book,” in honor of the
       recently completed a sixth client survey to solicit      25th anniversary of the passage of the Inspector

2 SEMIANNUAL REPORT TO THE CONGRESS
General Act of 1978. Also of note during the     ments to core competencies and identified skill
reporting period, Rex Simmons, our Assistant     gaps. We are proud of these accomplishments.
Inspector General for Management and Con-
gressional Relations, accepted a Training        In closing, the OIG is committed to continuing to
Recognition Award from the U.S. Department       promote effective working relationships with the
of Agriculture Graduate School as runner-up      FDIC and helping the Corporation accomplish
for the W. Edwards Deming Outstanding Train-     its mission in the very challenging months ahead.
ing Award. This award acknowledged the OIG’s     We appreciate and count on the support of all
enduring efforts to identify core competencies   OIG staff, the Corporation, and the Congress, as
for staff that are aligned with OIG and corpo-   we serve under the newly elected Administration
rate strategic goals and link training invest-   and work at being the best OIG in government.




                                                                                Inspector General’s Statement 3
                                                   Overview

        Management and                                        6. Management and Security of Information
                                                                 Technology Resources
        Performance Challenges
        The Management and Performance Challenges             7. Security of Critical Infrastructure
        section of our report presents OIG results of
        audits, evaluations, and other reviews carried out    8. Management of Major Projects
        during the reporting period in the context of the
        OIG’s view of the most significant management         9. Assessment of Corporate Performance
        and performance challenges currently facing the
        Corporation. We identified the following             10. Cost Containment and Procurement
        10 management and performance challenges,                Integrity
        and, in the spirit of the Reports Consolidation
        Act of 2000, we presented our assessment of          OIG work conducted to address issues in these
        them to the Chief Financial Officer of the FDIC      areas during the current reporting period
        in December 2003. The Act calls for these chal-      includes 31 audit and evaluation reviews con-
        lenges to be presented in the FDIC’s consolidated    taining questioned costs and funds put to better
        performance and accountability report. The           use of nearly $51.2 million and 86 nonmonetary
        FDIC included such reporting as part of its 2003     recommendations; comments and input to the
        Annual Report. Our work has been and contin-         Corporation’s draft policies in significant opera-
        ues to be largely designed to address these chal-    tional areas; participation at meetings, symposia,
        lenges and thereby help ensure the FDIC’s            conferences, and other forums to jointly address
        successful accomplishment of its mission.            issues of concern to the Corporation and the
                                                             OIG; and assistance provided to the Corporation
         1. Adequacy of Corporate Governance in              in such areas as concealment of assets cases and
            Insured Depository Institutions                  participation in the Federal Information Security
         2. Protection of Consumer Interests                 Management Act “Getting to Green” initiative.
                                                             (See pages 10–30.)
         3. Management and Analysis of Risks to the
            Insurance Funds
                                                             Investigations
         4. Effectiveness of Resolution and Receiver-
            ship Activities                                  In the Investigations section of our report, we
                                                             feature the results of work performed by OIG
         5. Management of Human Capital                      agents in Washington, D.C.; Atlanta; Dallas; and

4 SEMIANNUAL REPORT TO THE CONGRESS
Chicago who conduct investigations of alleged         results covering the past five reporting periods
criminal or otherwise prohibited activities           are also shown in this section. (See pages 46–55.)
impacting the FDIC and its programs. In con-
ducting investigations, the OIG works closely
with U.S. Attorneys’ Offices throughout the           Statistical Tables Required
country in attempting to bring to justice indi-
viduals who have defrauded the FDIC. The legal
                                                      Under the Inspector General Act
skills and outstanding direction provided by          The statistical tables required under the Inspec-
Assistant U.S. Attorneys with whom we work are        tor General Act, as amended, are included here.
critical to our success. The results we are report-   (See pages 58–63.)
ing for the last 6 months reflect the efforts of
U.S. Attorneys’ Offices throughout the United
States. Our write-ups also reflect our partnering     Other Material
with the Federal Bureau of Investigation, the
Internal Revenue Service, and other law enforce-      We offer congratulations to President’s Council
ment agencies in conducting investigations of         on Integrity and Efficiency and Executive Coun-
joint interest. Additionally, we acknowledge the      cil on Integrity and Efficiency award winners
invaluable assistance of the FDIC’s Divisions and     and bid farewell to several FDIC OIG retirees in
Offices with whom we work closely to bring            the back section of our report.
about successful investigations.
                                                      We also feature an Emerging Issues Symposium
Investigative work during the period led to indict-   sponsored jointly by the Department of the Trea-
ments or criminal charges against 9 individuals       sury, Federal Reserve, and FDIC Offices of Inspec-
and convictions of 15 defendants. Criminal            tor General on the inside back cover of our report.
charges remained pending against 33 individuals
as of the end of the reporting period. Fines,
restitution, and recoveries resulting from our        OIG’s Fiscal Year 2004
cases totaled about $38.6 million. This section of    Performance Report
our report also includes an update of the work
of our Electronic Crimes Team, acknowledges           We are including our performance report for fis-
special recognition given to our Assistant            cal year 2004 as a separate but integral compo-
Inspector General for Investigations and one of       nent of our Semiannual Report to the Congress.
our Special Agents, and features Special Olympic      Our performance report summarizes our
activities of some Office of Investigations staff.    progress against our 41 annual performance
(See pages 31–45.)                                    goals for the fiscal year. We met or substantially
                                                      met 31 of 41 of our goals under four categories:
                                                      OIG Products Add Value and Achieve Significant
                                                      Impact, Communication Between the OIG and
OIG Organization                                      Stakeholders Is Effective, Align Human
In the Organization section of our report, we         Resources to Support the OIG Mission, and
note many significant activities and initiatives      Resources Are Effectively Managed. We hope
that the FDIC OIG has pursued over the past           that by presenting this report along with our
6 months in furtherance of our four main strate-      semiannual report, the results of our work will
gic goals and corresponding objectives. These         be transparent, and the Congress and other
activities complement and support the audit,          readers will have a full understanding of our
evaluation, and investigative work discussed in       overall performance and accountability. (Our
the earlier sections of our semiannual report.        Performance Report directly follows the main
Activities of OIG Counsel and cumulative OIG          text of our semiannual report.)




                                                                                                            Overview 5
                                                      Highlights

        ■   The Office of Audits issues 31 reports contain-         report that we met or substantially met 31 of
            ing questioned costs of $110,915 and funds              41 goals, or 76 percent.
            put to better use of $51,084,587.
                                                                ■   A federal grand jury in Miami, Florida,
        ■   OIG reports include 86 nonmonetary recom-               returns a 42-count indictment for conspiracy,
            mendations to improve corporate operations              wire fraud, securities fraud, false filings with
            and activities. Among these are recommen-               the Securities and Exchange Commission,
            dations to improve the effectiveness of                 false statements to accountants, obstruction of
            information technology security controls,               an examination of a financial institution, and
            strengthen the supervisory information tech-            making false statements to the Office of the
            nology examination process, enhance the                 Comptroller of the Currency against three
            quality of supervision of industrial loan com-          former senior executive officers of Hamilton
            panies, improve documentation of certain                Bancorp and Hamilton Bank, N.A. The FDIC
            decisions and processes, and better allocate            OIG’s Office of Investigations, Counsel to the
            and contain costs.                                      Inspector General, members of the Treasury
                                                                    OIG, and U.S. Attorney’s Office of the South-
        ■   OIG investigations result in 9 indictments/             ern District of Florida are responsible for
            informations; 15 convictions; and approxi-              working this case. Named in the indictment
            mately $38.6 million in total fines, restitution,       are the following: the former Chairman of the
            and other monetary recoveries.                          Board and Chief Executive Officer; the former
                                                                    President and Director; and the former Senior
        ■   The OIG aggressively pursues its strategic              Vice President and Chief Financial Officer.
            goals and related objectives in furtherance of          The former Chairman of the Board and Chief
            the OIG mission. Numerous activities and ini-           Executive Officer also was charged with
            tiatives are carried out to add value and               insider trading.
            achieve impact; communicate effectively with
            the Chairman, the Congress, OIG employees           ■   Assistant Inspector General for Investigations,
            and other stakeholders; align our human capi-           Samuel Holland, is named a finalist for the Ser-
            tal with the OIG mission; and effectively man-          vice to America Medal. Mr. Holland was recog-
            age OIG resources.                                      nized in the Justice and Law Enforcement
                                                                    category of the program. This medal program
        ■   The OIG publishes its Performance Report for            is cosponsored by the Atlantic Media Company
            Fiscal Year 2004, presenting the OIG’s progress         and the Partnership for Public Service and rec-
            in accomplishing 41 goals for FY 2004. We               ognizes the outstanding accomplishments of

6 SEMIANNUAL REPORT TO THE CONGRESS
    America’s public servants. Mr. Holland was             with quality standards established by the
    nominated for his pioneering efforts in hold-          President’s Council on Integrity and Efficiency
    ing financial industry executives accountable          and provided the OIG with reasonable assur-
    and deterring fraudulent activity that under-          ance of material compliance with professional
    mines public confidence in the nation’s finan-         auditing standards in the conduct of the
    cial system.                                           FDIC OIG’s audits.

■   The OIG works closely with the Division of         ■   The OIG issues the Office of Audits Assignment
    Information Resources Management, the                  Plan—Fiscal Year 2005 presenting 53 audit and
    Division of Administration, and the Office of          evaluation assignments that the OIG plans to
    Enterprise Risk Management throughout the              pursue. Each assignment is linked to risk-based
    reporting period on a “Getting to Green” ini-          management and performance challenges that
    tiative on the OIG’s annual Federal Informa-           the OIG has identified. The OIG received a
    tion Security Management Act of 2002                   number of constructive comments and sugges-
    evaluation scorecard, designed to ensure that          tions from the Corporation that were consid-
    management’s establishment and implemen-               ered and addressed. Cooperative efforts
    tation of information technology security              resulted in a plan that provides comprehensive
    controls provide reasonable assurance that             coverage of the Corporation’s key risk areas.
    the Corporation’s information technology
    assets are protected. Meetings address various     ■   The OIG responds to questions posed by
    corporate information security issues, such as         Honorable Sue W. Kelly, Chairwoman of the
    new and emerging security requirements                 Subcommittee on Oversight and Investiga-
    being developed by the National Institute of           tions, Committee on Financial Services,
    Standards and Technology. Additional get-              U.S. House of Representatives. These ques-
    ting-to-green meetings are planned beginning           tions were sent to the OIG subsequent to
    in November 2004.                                      IG Gianni’s March 4, 2004 testimony at the
                                                           hearing on “Oversight of the Federal Deposit
■   The OIG issues its 2004 report on the Federal          Insurance Corporation.” The Chairwoman’s
    Information Security Management Act, con-              questions addressed matters related to safety
    cluding that the Corporation had established           and soundness, downsizing and human capi-
    and implemented management controls that               tal, and information security.
    provided limited assurance of adequate secu-
    rity over its information resources. As a result   ■   The Inspector General testifies at a hearing
    of focused efforts over the past several years,        on Bank Secrecy Act (BSA) Compliance and
    the FDIC has made considerable progress in             Enforcement before the Senate Committee
    improving its information security controls            on Banking, Housing, and Urban Affairs.
    and practices. Notably, this is the first annual       IG Gianni presents a historical perspective on
    security evaluation wherein the OIG identi-            the BSA, discusses the BSA-related work the
    fied no significant deficiencies as defined by         FDIC OIG has conducted over the past sev-
    the Office of Management and Budget that               eral years, and offers views on the challenges
    warrant consideration as a potential material          that the Congress and the financial regulators
    weakness. However, continued management                face going forward in anti-terrorist and anti-
    attention was needed in several key security           money laundering activities. The IG and
    control areas.                                         other OIG management representatives later
                                                           meet with Committee staff to discuss assign-
■   The Office of Audits receives an unqualified           ments planned for 2005 and ongoing and
    opinion on a peer review of the system of              completed OIG work.
    quality control for the audit function of the
    FDIC OIG. According to the Department of           ■   The OIG provides a copy of our audit report
    Energy OIG, the system of quality control for          entitled Supervisory Actions Taken for Bank
    the audit function in effect for the year ended        Secrecy Act Violations to the Honorable
    March 31, 2004 was designed in accordance              Sue Kelly, Chairwoman, Subcommittee on

                                                                                                    OIG Highlights 7
           Oversight and Investigations, Committee on           ■   The OIG reviews and comments on 2 proposed
           Financial Services, U.S. House of Representa-            formal FDIC regulations, responds to 6 requests
           tives. The OIG initiated that audit as a result of       and 1 appeal under the Freedom of Informa-
           discussions with staff of the Subcommittee. The          tion Act, and completes 29 policy analyses on
           report presents the results of an audit of the           proposed FDIC directives or proposed revi-
           process established by the Division of Super-            sions to directives and FDIC manuals.
           vision and Consumer Protection for ensuring
           that corrective actions are taken by bank man-       ■   The OIG responds in a timely manner to
           agement to address violations of BSA.                    68 Hotline allegations, issues 2 reports based
                                                                    on previous allegations, and refers 14 allega-
       ■   The OIG receives a Training Recognition                  tions for further review.
           Award as a runner-up for the W. Edwards
           Deming Outstanding Training Award from               ■   The OIG coordinates with and assists man-
           the U.S. Department of Agriculture Graduate              agement on a number of initiatives, including
           School. The OIG has worked over a 2-year                 serving in an advisory capacity on the Audit
           period to identify core competencies for its             Committee’s Information Technology Secu-
           staff that are aligned with OIG and corporate            rity Subcommittee and the Chief Information
           strategic goals and to link training invest-             Officer Council; Office of Investigations and
           ments to the core competencies and identified            Office of Audits Executives’ participation at
           skill gaps. The W. Edwards Deming Outstand-              the Division of Supervision and Consumer
           ing Training Award recognizes a federal gov-             Protection regional office and other meetings;
                                                                    Office of Investigations’ Electronic Crimes
           ernment organization or civilian branch of
                                                                    Team’s coordination with the Division of
           the military that has completed an innovative
                                                                    Information Resources Management (DIRM),
           and impressive employee development and
                                                                    Division of Resolutions and Receiverships, and
           training initiative with measurable results.
                                                                    the Legal Division; and Office of Audits’ coor-
                                                                    dination with the Corporation on “Getting to
       ■   The OIG’s proposed fiscal year 2005 budget is
                                                                    Green” on the Federal Information Security
           awaiting Congressional approval. The pro-
                                                                    Management Act of 2002 and DIRM Transfor-
           posed budget of $29.9 million was included in
                                                                    mation projects.
           the President’s budget, which was transmitted
           to the Congress in February 2004. The budget         ■   The Office of Investigations coordinates with
           will support an authorized staffing level of             DIRM and agency officials to establish appro-
           160, a further reduction of 8 authorized staff           priate processes in addressing cyber crimes,
           (5 percent) from fiscal year 2004. Fiscal year           including computer intrusion, phishing and
           2005 will become the 9th consecutive year                spoofing schemes, as well as investigations of
           OIG budgets have decreased after adjusting               computer misuse by FDIC employees and
           for inflation.                                           contractors.
       ■   The OIG completes the conduct of both an             ■   OIG Special Agent J. Kenneth Meyd is
           Employee Survey and a Client Survey and                  acknowledged by the U.S. Attorney’s Office,
           issues the results of each. These survey instru-         District of Connecticut, at an annual awards
           ments are designed to assist the FDIC OIG as             presentation in New Haven, Connecticut. The
           it works to be the best OIG in government.               ceremony recognized a select number of sig-
                                                                    nificant prosecutions adjudicated during the
       ■   OIG Counsel’s Office provides advice and                 past year and honored those who had con-
           counsel on a number of issues, including                 tributed to the success of these prosecutions.
           applicability of the Sarbanes-Oxley Act to               Special Agent Meyd was commended for his
           FDIC-insured institutions, BSA compliance,               great efforts and skillful detective work in
           and supervision of limited-charter institu-              proving that a Hartford, Connecticut, busi-
           tions. Counsel was involved in 24 litigation             nessman owed the FDIC $2.7 million in crim-
           matters, 23 of which are awaiting further                inal restitution and had hidden his assets from
           action by the parties or rulings by the court.           the U.S. Probation Office and the FDIC.

8 SEMIANNUAL REPORT TO THE CONGRESS
■   As Vice Chair of the President’s Council on        Reform, regarding Proposed Legislation Affect-
    Integrity and Efficiency, the Inspector General    ing the Inspector General Community—
    oversees a number of initiatives, including        “Improving Government Accountability Act,”
    publication of the Fiscal Year 2003 Progress       (H.R. 3457)—legislation introduced by Repre-
    Report to the President and issuance of a proto-   sentative Jim Cooper. The IG also participates
    col entitled Working Relationship Principles for   as a presenter at numerous professional con-
    Agencies and Offices of Inspector General. Along   ferences and other forums, and shares infor-
    with several colleagues in the IG community,       mation and best practices with respect to
    IG Gianni testifies before the Subcommittee        ensuring integrity and transparency with dele-
    on Government Efficiency and Financial Man-        gations of foreign visitors from Brazil, the
    agement, House Committee on Government             Russian Federation, Indonesia, and Jamaica.




                                                                                                OIG Highlights 9
                                                Management and
                                                Performance
                                                Challenges

                                                       In the spirit of the Reports Consolidation Act of
                                                       2000, and to provide useful perspective for read-
          The Federal Deposit Insurance Corpora-       ers, we present a large body of our work in the
          tion (FDIC) is an independent agency         context of “the most serious management and
          created by the Congress to maintain          performance challenges” facing the Corporation.
          stability and confidence in the nation’s
          banking system by insuring deposits,         In December 2003 we updated our assessment of
                                                       these challenges and provided them to the Cor-
          examining and supervising financial
                                                       poration. The 10 challenges we have identified
          institutions, and managing receiver-         are listed below in priority order and fall under
          ships. Approximately 5,300 individuals       two categories. The first category, which includes
          within seven specialized operating divi-     challenges 1 through 4, relates to rather broad
          sions and other offices carry out the        corporate and industry issues, and the second
          FDIC mission throughout the country.         category, which includes challenges 5 through
          According to the Corporation’s Letter to     10, relates to more specific operational issues at
                                                       the FDIC.
          Stakeholders, issued for the 3rd Quarter
          2004, the FDIC insured $3.533 trillion in
                                                       We identified the following challenges, and the
          deposits for 9,092 institutions, of which    Corporation included them in its 2003 Annual
          the FDIC supervised 5,284. The Corpora-      Report:
          tion held insurance funds of $46.5 billion
          to ensure depositors are safeguarded.         1. Adequacy of Corporate Governance in
          The FDIC had $603 million in assets in           Insured Depository Institutions
          liquidation in 35 Bank Insurance Fund
                                                        2. Protection of Consumer Interests
          and Savings Association Insurance
          Fund receiverships.
                                                        3. Management and Analysis of Risks to the
                                                           Insurance Funds

                                                        4. Effectiveness of Resolution and Receiver-
                                                           ship Activities

                                                        5. Management of Human Capital

10 SEMIANNUAL REPORT TO THE CONGRESS
 6. Management and Security of Information             maintain adequate loan policies and procedures,
    Technology Resources                               and circumvented or disregarded various laws
                                                       and banking regulations. In other cases, inde-
 7. Security of Critical Infrastructure                pendent public accounting firms rendered clean
                                                       opinions on the institutions’ financial statements
 8. Management of Major Projects                       when, in fact, the statements were materially
                                                       misstated.
 9. Assessment of Corporate Performance
                                                       To the extent that financial reporting is not reli-
10. Cost Containment and Procurement                   able, the regulatory processes and FDIC mission
    Integrity                                          achievement (that is, ensuring the safety and
                                                       soundness of the nation’s financial system) can
We will continue to pursue audits, evaluations,        be adversely affected. For example, essential
investigations, and other reviews that address the     research and analysis used to achieve the super-
management and performance challenges we               vision and insurance missions of the Corpora-
identified. Our work during the reporting period       tion can be complicated and potentially
can be linked directly to these challenges and is      compromised by poor quality financial reports
presented as such in the sections that follow. We      and audits. The insurance funds could be
will be updating our identification of the man-        affected by financial institution and other busi-
agement and performance challenges by year-end         ness failures involving financial reporting prob-
2004 and will continue to work with corporate          lems. In the worst case, illegal and otherwise
officials to successfully address all challenges       improper activity by management of financial
identified.                                            institutions or their boards of directors can be
                                                       concealed, resulting in potential significant
                                                       losses to the FDIC insurance funds.
1. Adequacy of Corporate
                                                       The FDIC has initiated various measures
   Governance in Insured                               designed to mitigate the risk posed by these
   Depository Institutions                             concerns, such as reviewing the bank’s board
                                                       activities and ethics policies and practices and
Corporate governance is generally defined as the       reviewing auditor independence requirements.
fulfillment of the broad stewardship responsibil-      In addition, the FDIC reviews the financial dis-
ities entrusted to the Board of Directors, Officers,   closure and reporting obligations of publicly
and external and internal auditors of a corpora-       traded state non-member institutions. The FDIC
tion. A number of well-publicized announce-            also reviews their compliance with Securities
ments of business failures, including financial        and Exchange Commission regulations and the
institution failures, have raised questions about      Federal Financial Institutions Examination
the credibility of accounting practices and over-      Council-approved and recommended policies to
sight in the United States. Such events have           help ensure accurate and reliable financial
increased public concern regarding the adequacy        reporting through an effective external auditing
of corporate governance and, in part, prompted         program and on-site FDIC examination.
passage of the Sarbanes-Oxley Act of 2002. The
public’s confidence in the nation’s financial sys-     The Corporation issued comprehensive guid-
tem can be shaken by deficiencies in the adequacy      ance in March 2003, describing significant pro-
of corporate governance in insured depository          visions of the Sarbanes-Oxley Act and related
institutions. For example, the failure of senior       rules of implementation adopted by the Securi-
management, boards of directors, and auditors          ties and Exchange Commission. Other corporate
to effectively conduct their duties has con-           governance initiatives include the FDIC’s issuing
tributed to certain financial institution failures.    Financial Institution Letters, allowing bank
In some cases, board members and senior man-           directors to participate in regular meetings
agement engaged in high-risk activities without        between examiners and bank officers, maintain-
proper risk management processes, did not              ing a “Directors’ Corner” on the FDIC Web site,

                                                                          Management and Performance Challenges 11
       and the expansion of the Corporation’s “Direc-       We concluded that within the framework of the
       tors’ College” program. While the FDIC has           existing examination procedures, the risks of a
       taken significant strides, corporate governance      dominant official should be considered as a part
       issues remain a key concern.                         of the pre-examination planning process to the
                                                            extent that this risk is observed at the senior cor-
       Also, pursuant to the Economic Growth and            porate level. Due to the complexity of corporate
       Regulatory Paperwork Reduction Act of 1996,          governance oversight and the increased level of
       the FDIC, along with the other members of the        inherent risk at financial institutions dominated
       Federal Financial Institutions Examination           by one official, a comprehensive and consoli-
       Council, is engaged in reviewing regulations in      dated set of instructions is needed to facilitate
       order to identify outdated or otherwise unneces-     the supervisory review process regarding a domi-
       sary regulatory requirements imposed on              nant official. We made two recommendations
       insured depository institutions. The OIG sup-        to address these concerns, and the corrective
       ports prudent opportunities to reduce regulatory     actions that management proposed were respon-
       burdens on insured depository institutions along     sive. (Report No. 04-033, September 8, 2004.)
       with consideration to the impact on the FDIC’s
       ability to adequately supervise the institutions.
                                                            FDIC’s Implementation of the
                                                            Sarbanes-Oxley Act of 2002
                                                            We also conducted an audit to examine the
       OIG Audit and Investigative                          FDIC’s issuance of implementing guidance to
       Work Addresses Corporate                             financial institutions and examiners for applica-
       Governance Issues                                    ble provisions of the Sarbanes-Oxley Act. We con-
                                                            cluded that the FDIC took adequate steps to issue
       Division of Supervision and Consumer                 implementing guidance for applicable provisions
       Protection’s Assessment of Bank                      of the Act both to FDIC-supervised institutions
       Management                                           and to FDIC examiners. In addition, the Act did
       The Division of Supervision and Consumer Pro-        not have a major impact on FDIC-supervised
       tection (DSC) examiners’ assessment of manage-       financial institutions because of pre-existing audit
       ment is a key factor in determining an               committee and internal control reporting require-
       institution’s safety and soundness composite rat-    ments imposed by the Federal Deposit Insurance
       ing. During the reporting period, we conducted       Corporation Improvement Act of 1991.
       an audit of the process that the FDIC uses to
       assess bank management and controls during           We did not make recommendations in this
       examinations of FDIC-supervised financial insti-     report. We may conduct further work related to
       tutions. We concluded that the process is ade-       examiner assessment of institution compliance
       quate. However, based on our review of six open      with the Sarbanes-Oxley Act in a subsequent
       banks with high-risk composite ratings, we           audit. (Report No. 04-042, September 29, 2004.)
       found opportunities for improvement pertaining
       to banks that have a dominant official with sig-     Our investigative work also addresses corporate
       nificant influence in bank operations.               governance issues. In a number of cases, financial
                                                            institution fraud is a principal contributing fac-
       Specifically, examiner guidance could be strength-   tor to an institution’s failure. Unfortunately, the
       ened with respect to evaluating the risks posed by   principals of some of these institutions—that is,
       dominant officials and for assessing and recom-      those most expected to ensure safe and sound
       mending mitigating controls when that type of        corporate governance—are at times the parties
       corporate structure exists at a financial institu-   perpetrating the fraud. Our Office of Investiga-
       tion. Failure to appropriately evaluate and assess   tions plays a critical role in investigating such
       such risks increases the opportunity for fraud or    activity. (See pages 33 to 40 in the Investigations
       mismanagement to go undetected and uncor-            section of this report for specific examples of
       rected and could, as evidenced by prior OIG          bank fraud cases involving corporate governance
       reports, ultimately cause an institution to fail.    weaknesses.)

12 SEMIANNUAL REPORT TO THE CONGRESS
                          Strategies for Enhancing Corporate Governance
  While several of our audits this reporting period focused on issues relating to external
  governance, we also completed an audit to present information to the Corporation on
  strategies for enhancing its internal corporate governance. Reforms such as the Sarbanes-
  Oxley Act of 2002 are challenging the way organizations conduct business. For example,
  audit committees representing an organization’s board of directors and shareholders are
  expected to be more involved than before in understanding the entity’s business, monitor-
  ing financial reporting issues, and being aware of financial risks. Also, as a result of the
  Sarbanes-Oxley Act, management must evaluate its internal control structure over finan-
  cial reporting and report on its effectiveness.
  Several practices have emerged to assist organizations in meeting these challenges. One
  practice that has emerged in managing risk is enterprise risk management (ERM). ERM
  enables management to evaluate risk from a corporate-wide perspective. Also, regarding
  internal control over financial reporting, an internal control maturity framework has been
  developed to assist organizations in evaluating their internal control over financial reporting.
  The FDIC currently has structures either in place or in development that address these
  emerging business practices. For example, the FDIC has a Board of Directors with an Audit
  Committee that monitors the Corporation’s financial reporting responsibilities and internal
  control programs and an Office of Enterprise Risk Management that monitors risks.
  The intent of our work was to synthesize information and provide a prospective focus that
  may be useful in further enhancing key elements of the FDIC’s corporate governance
  structure – the Audit Committee, risk management, and internal control over financial
  reporting. Our report presents strategies for enhancing corporate governance and dis-
  cusses challenges faced by other organizations and the ways in which they have resolved
  challenges while implementing an ERM program. (Strategies for Enhancing Corporate
  Governance, Report No. 04-032, September 3, 2004)




2. Protection of Consumer                             Act, Home Mortgage Disclosure Act, Equal
                                                      Credit Opportunity Act, Community Reinvest-
   Interests                                          ment Act, and Gramm-Leach-Bliley Act. In
                                                      December 2003, the President signed the Fair
The FDIC’s mission is to maintain public confi-       and Accurate Credit and Transactions Act of
dence in the nation’s financial system. The avail-    2003 to expand access to credit and other finan-
ability of deposit insurance to protect consumer      cial services for all citizens, enhance the accuracy
interests is a very visible way in which the FDIC     of consumers’ financial information, and help
accomplishes this mission. Additionally, as a reg-    fight identity theft.
ulator, the FDIC oversees a variety of statutory
and regulatory requirements aimed at protecting       The Corporation accomplishes its mission
consumers from unfair and unscrupulous bank-          related to fair lending and other consumer pro-
ing practices. The FDIC, together with other pri-     tection laws and regulations by conducting com-
mary federal regulators, has responsibility to help   pliance examinations, taking enforcement
ensure bank compliance with statutory and regu-       actions to address compliance violations, encour-
latory requirements related to consumer protec-       aging public involvement in the community
tion, civil rights, and community reinvestment.       reinvestment process, assisting financial institu-
Some of the more prominent laws and regula-           tions with fair lending and consumer compliance
tions related to this area include the Truth in       through education and guidance, and providing
Lending Act, Fair Credit Reporting Act, Real          assistance to various parties within and outside
Estate Settlement Procedures Act, Fair Housing        of the FDIC.

                                                                         Management and Performance Challenges 13
       The FDIC’s examination and evaluation programs          OIG Efforts to Address
       must assess how well the institutions under its
       supervision manage compliance with consumer             Consumer Protection Issues
       protection and fair lending laws and regulations        Supervision Appeals Review Committee
       and meet the credit needs of their communities,         Decision Regarding the Appeal of a Fair
       including low- and moderate-income neighbor-            Lending Violation
       hoods. A challenge for the Corporation is risk          One of our audits during the reporting period
       focusing compliance examinations while still            resulted from a Hotline complaint and examined
       protecting consumers’ interests. The FDIC must          the FDIC’s Supervision Appeals Review Com-
       also work to issue regulations that implement           mittee’s (SARC) decision regarding a financial
       federal consumer protection statutes both on its        institution’s appeal of a fair lending violation.
       own initiative and together with the other federal      Appeals denied at the FDIC division level are
       financial institution regulatory agencies. A chal-      reviewed by the SARC, which, at the time of the
       lenge in this area is ensuring compliance with          audit, consisted of the FDIC’s Vice Chairman,
       out undue regulatory burden.                            Ombudsman, General Counsel, the Director of
                                                               DSC, and the Director of the Division of Insur-
       The Corporation’s community affairs program             ance and Research.
       provides technical assistance to help banks meet
       their responsibilities under the Community Rein-        We found no evidence that the SARC acted out-
       vestment Act. One of the FDIC’s principal areas         side of its delegated authority. We also found that
       of emphasis is financial literacy, aimed specifically   the SARC considered all relevant facts and that
       at low- and moderate-income individuals who             the SARC and DSC followed applicable require-
       may not have had previous banking relationships.        ments and procedures in the appeal case. We did
       The Corporation’s “Money Smart” initiative has          not make recommendations in our report and
       been a key outreach effort. The FDIC must also          received no comments from the SARC chairman
       continue efforts to maintain a Consumer Affairs         or other members of the committee. (Report No.
       program by investigating consumer complaints            04-036, September 20, 2004.)
       about FDIC-supervised institutions, answering
                                                               The OIG’s involvement with consumer protection
       consumer inquiries regarding consumer protec-
                                                               matters includes our investigative cases regarding
       tion laws and banking practices, and providing
                                                               misrepresentations of FDIC insurance or affilia-
       data to assist the examination function.
                                                               tion to unsuspecting consumers. Additionally,
                                                               our Office of Investigations’ Electronic Crimes
       The continued expansion of electronic banking           Team has been involved in investigating emerging
       presents a challenge for ensuring consumers are         e-mail “phishing” identity theft schemes that have
       protected. The number of reported instances of          used the FDIC’s name in an attempt to obtain
       identity theft has also ballooned in recent years.      personal data from unsuspecting consumers who
       The Corporation will need to remain vigilant in         receive the e-mails. Our investigations have also
       conducting comprehensive, risk-based compli-            uncovered multiple schemes to defraud deposi-
       ance examinations, analyzing and responding             tors by offering them misleading rates of returns
       appropriately to consumer complaints, and edu-          on deposits. These abuses are effected through the
       cating individuals on money management topics,          misuse of the FDIC’s name, logo, abbreviation, or
       including identity protection.                          other indicators suggesting that the products are
                                                               fully insured deposits. Such misrepresentations
       The Corporation’s deposit insurance program             induce the targets of schemes to invest on the
       promotes public understanding of the federal            strength of FDIC insurance while misleading
       deposit insurance system and seeks to ensure that       them as to the true nature of the investments
       depositors and bankers have ready access to infor-      being offered. (See pages 40 to 41 in the Investiga-
       mation about the rules for FDIC insurance cover-        tions section of this semiannual report.)
       age. Informing bankers and depositors about the
       rules for deposit insurance coverage helps foster       Our experience with such cases prompted us on
       public confidence in the banking system.                March 4, 2003, to submit to the House Financial

14 SEMIANNUAL REPORT TO THE CONGRESS
Services Committee Chairman, Michael Oxley, a         preponderance of insured institution assets are
legislative proposal to prevent misuse of the Cor-    in institutions supervised by other federal regu-
poration’s guarantee of insurance. This proposal      lators. Therefore, the FDIC has established
was incorporated in H.R. 1375: Financial Services     strategic relationships with the other regulators
Regulatory Relief Act of 2003. On March 24, 2004,     surrounding their shared responsibility of help-
H.R. 1375 was passed by the House of Represen-        ing to ensure the safety and soundness of the
tatives and referred to the U.S. Senate. Section      nation’s financial system. The FDIC engages in
615 of H.R. 1375, as we suggested, would provide      an ongoing process of proactively identifying
the FDIC with enforcement tools to limit mis-         risks to the deposit insurance funds and adjust-
representations regarding FDIC deposit insur-         ing the risk-based deposit insurance premiums
ance coverage. We appreciate Congressional            charged to the institutions. One of the key tools
support of this proposal.                             used by the FDIC is its safety and soundness
                                                      examination process which, when combined
                                                      with off-site monitoring and extensive industry
3. Management and                                     risk analysis, generally provides an early warning
                                                      and corrective action process for emerging risks
   Analysis of Risks to the                           to the funds. The Risk Analysis Center, managed
   Insurance Funds                                    and staffed by the DSC, Division of Insurance
                                                      and Research, and Division of Resolutions and
The FDIC seeks to ensure that failed financial        Receiverships, facilitates and coordinates risk
institutions are and continue to be resolved          analysis at the FDIC.
within the amounts available in the insurance
funds and without recourse to the U.S. Treasury       Recent trends and events continue to pose risks
for additional funds. Achieving this goal is a        to the funds. From January 1, 2002 to Septem-
significant challenge because the insurance           ber 30, 2004, 18 insured financial institutions
funds generally average just over 1.25 percent of     failed, and the potential exists for additional
insured deposits, and the FDIC supervises only a      failures. While some failures may be attributable
portion of the insured institutions. In fact, the     primarily or in part to economic factors, as




                   Risks Related to Money Laundering and Terrorist Financing
  Emphasis on anti-terrorism efforts has risen significantly in recent years, especially since
  the events of September 11, 2001. In response to those events, the Congress enacted the
  United and Strengthening America by Providing Appropriate Tools Required to Intercept
  and Obstruct Terrorism Act of 2001 (USA PATRIOT Act), which expands the Department of
  the Treasury’s authority initially established under the Bank Secrecy Act of 1970 (BSA) to
  regulate the activities of U.S. financial institutions, particularly their relations with individ-
  uals and entities with foreign ties. In turn, this expansion has increased the responsibilities
  of the bank regulatory agencies for assessing the adequacy of financial institution BSA
  programs. Specifically, the USA PATRIOT Act expands the BSA beyond its original pur-
  pose of deterring and detecting money laundering to also address terrorist financing
  activities. The reality today is that all institutions are at risk of being used to facilitate crim-
  inal activities, including money laundering and terrorist financing.
  The OIG has previously reported on several assignments related to the USA PATRIOT Act
  and BSA. We intend to add the challenge of risks related to money laundering and terror-
  ist financing to our assessment of the management and performance challenges facing
  the Corporation in our upcoming submission of those challenges to the Corporation in
  December. Future semiannual reports will report the results of OIG work in this area in the
  context of this new challenge.


                                                                         Management and Performance Challenges 15
       previously mentioned, bank mismanagement               Maximum Efficiency, Risk-focused, Institution
       and apparent fraud have also been factors in the       Targeted (MERIT) Examinations Program:
       most recent failures. The environment in which         This program was introduced in March 2002 and
       financial institutions operate is evolving rapidly,    is designed to improve the efficiency and effective-
       particularly with the acceleration of interstate       ness of bank examinations by maximizing the use
       banking, new banking products and complex              of risk-focused examination procedures in well-
       asset structures, and electronic banking. The          managed banks in sound financial condition. As
       industry’s growing reliance on technologies, par-      of September 30, 2004, over 4,600 of approxi-
       ticularly the Internet, has changed the risk profile   mately 5,300 FDIC-supervised institutions were
       of banking. Continuing threats to the U.S. finan-      MERIT-eligible based on asset size (less than
       cial infrastructure have made business continuity      $1 billion) and composite rating (of 1 or 2). DSC
       planning an essential ingredient to sound risk         has reported that the MERIT program has
       management programs. The consolidations that           reduced the average time spent conducting safety
       may occur among banks, securities firms, insur-        and soundness examinations of small, low-risk
       ance companies, and other financial services           institutions by well over the 20 percent target in
       providers resulting from the Gramm-Leach-Bliley        qualifying institutions.
       Act pose additional risks to the FDIC’s insurance
       funds. Limited charter depository institutions         Relationship Manager Program: Still in its
       may also pose unique risks, as discussed later in      early stages, under this approach, commissioned
       this section. Also, institutions face challenges in    examiners are assigned a portfolio of banks and
       managing interest rate risks in an environment of      are designated the “Relationship Manager” or
       historically low interest rates. The Corporation’s     primary point of contact for these banks. As
       supervisory approach, including risk-focused           such, relationship managers will conduct com-
       examinations, must operate to identify and miti-       prehensive risk assessments of the banks in
       gate these risks and their real or potential impact    their portfolios and in consultation with other
       on financial institutions to preclude adverse con-     experts prepare a risk-focused supervisory
       sequences to the insurance funds.                      plan. Off-site and on-site activities will be con-
                                                              ducted as needed throughout the examination
                                                              cycle rather than the current “point-in-time”
       The FDIC employs a number of supervisory
                                                              approach. The emphasis is on scheduling off-
       approaches, several of which are described below,
                                                              site and on-site reviews during the examination
       to identify and mitigate institution risk and
                                                              cycle to better leverage external sources of
       faces challenges in ensuring that each meets its
                                                              information.
       intended purpose.
                                                              Many other challenges also exist as the Cor-
       Supervisory Strategies for Large Banks: In             poration seeks to protect and ensure the con-
       2002, the FDIC initiated the Dedicated Examiner        tinued strength of the insurance funds, as
       Program for the eight largest banks in the United      discussed below:
       States. The FDIC is the insurer but not the pri-
       mary federal regulator for these institutions.         Merging the Insurance Funds: Because of
       Examiners are dedicated to those institutions to       bank mergers and acquisitions, many institu-
       participate in targeted reviews and attend man-        tions hold deposits insured by both the Bank
       agement meetings. Also, case managers closely          Insurance Fund (BIF) and Savings Association
       monitor such institutions through the Large            Insurance Fund (SAIF), obscuring the differ-
       Insured Depository Institutions Program’s quar-        ence between the funds. There is ongoing con-
       terly analysis and executive summaries. Addi-          sideration of merging the two insurance funds
       tionally, case managers consistently remain in         with the perceived outcome being that the
       communication with their counterparts at the           merged fund would not only be stronger and
       other regulatory agencies, frequently attending        better diversified but would also eliminate the
       pre-examination meetings, post-examination             concern about a deposit insurance premium
       meetings, and exit board meetings.                     disparity between the BIF and the SAIF. The


16 SEMIANNUAL REPORT TO THE CONGRESS
                           Inspector General Testifies on Bank Secrecy Act
  On June 3, 2004, the Inspector General (IG) testified before the Senate Committee on
  Banking, Housing, and Urban Affairs, on Bank Secrecy Act (BSA) Compliance and Enforce-
  ment. The IG gave some historical perspective, discussed BSA-related work that the FDIC
  OIG has done over the past several years, and offered views on the challenges that the
  Congress and the financial regulators face going forward in this critical area.
  The FDIC Chairman’s testimony on that day indicated that the FDIC had conducted almost
  11,000 BSA examinations since 2000. Over the past several years, in line with responsibili-
  ties under the Inspector General Act, the FDIC OIG conducted three audits that address the
  FDIC’s efforts to design and implement a supervisory program to examine institutions’
  compliance with provisions of the BSA and the more recently enacted USA PATRIOT Act.
  Overall, these audits identified that the Corporation had taken steps to implement a risk-
  focused examination program for BSA. However, improvements were needed to ensure
  that institutions were fully complying with, and the FDIC was effectively enforcing provi-
  sions of, the Act. The IG reported that the Corporation had corrective action completed or
  ongoing to address all of the OIG’s recommended improvements.
  Of particular importance, the audit results in our report entitled Supervisory Actions Taken
  for Bank Secrecy Act Violations raised concerns related to four general areas:
      1.   Extent of Regulatory Action on Significant and Repeat Violations
      2.   Consistency of Reporting of Deficiencies and Violations
      3.   Timing of FDIC Follow-up and Corrective Actions on BSA Violations
      4.   Handling of Referrals to the Treasury
  The IG closed his testimony by suggesting that in light of the knowledge we have gained
  since 9/11 and more recent terrorist threats, there are key questions that the FDIC should
  consider, in conjunction with the Treasury Department and the other financial regulators,
  as it looks to improve its BSA program.
      ■ Is risk-scoping BSA examinations and follow-up still the most effective approach to
           deterring money laundering and terrorist financing?
      ■ Are the policies and procedures for reporting certain cash transactions and BSA vio-
           lations to the Treasury Department, some of which date to the early 1990s, currently
           effective?
      ■ Is the information reported to the Financial Crimes Enforcement Network by finan-
           cial institutions and regulators effectively evaluated and does it ultimately result in
           timely preventive actions?
  The OIG is prepared to assist in addressing these issues and has additional audits under-
  way and planned in this area to help ensure that financial institutions, through efficient
  and effective supervision by the FDIC, will remain vigilant in implementing BSA programs
  that assist in preventing money laundering and terrorism.
  (Hearing on Bank Secrecy Act Compliance and Enforcement, Statement of Gaston L. Gianni, Jr., June 3, 2004)




prospect of different premium rates for identi-            would be based on the risk that institutions
cal deposit insurance coverage would be elimi-             pose to that fund.
nated. Also, insured institutions would no
longer have to track their BIF and SAIF deposits           The Corporation has worked hard to bring about
separately, resulting in cost savings for the              deposit insurance reform, and the OIG supports
industry. Assessments in the merged fund                   the FDIC’s continued work with the banking


                                                                               Management and Performance Challenges 17
       community and the Congress in the interest of            forms of risk, including operational risk. Banks
       eventual passage of reform legislation.                  will have to make capital provisions to effectively
                                                                act as a contingency fund, to cover the direct and
       The Designated Reserve Ratio: If the BIF ratio           indirect losses that emergent operational risks
       is below 1.25 percent, in accordance with the            could cause. The failure of at-risk institutions to
       Federal Deposit Insurance Act, the FDIC Board            fully adhere to this proposed contingency fund-
       of Directors must charge the banks premiums              ing mechanism in place of higher minimum cap-
       that are sufficient to restore the ratio to the statu-   ital requirements constitutes a threat of increased
       torily mandated designated reserve ratio within          insurance losses to the funds. Adoption of the
       1 year. As of March 31, 2002, the BIF reserve ratio      accord may pose challenges for the Corporation
       was at 1.23 percent, the first time since 1995 that      by requiring new skill sets to address Basel II
       the ratio had fallen below 1.25 percent. By June         issues.
       30, 2002, the BIF reserve ratio was at 1.25 per-
       cent, precisely at the minimum mandated level.
       According to the Corporation’s Letter to Stake-          FDIC’s Information Technology
       holders, the BIF ratio reported for 2nd Quarter          Examinations
       2004 was 1.31 percent. The Corporation must              One of our audits during the reporting period
       maintain or exceed the designated reserve ratio,         examined whether the FDIC’s information tech-
       as required by statute.                                  nology (IT) examinations provide reasonable
                                                                assurance that IT risks are being addressed by the
       Setting Deposit Insurance Premiums: Insur-               risk management programs in FDIC-supervised
       ance premiums are generally assessed based on            financial institutions. We focused our audit work
       the funding requirements of the insurance funds.         primarily on institutions with more than $1 bil-
       Because the reserve ratio may not fall below the         lion in assets which generally had more complex
       statutory designated reserve ratio of 1.25 percent,      IT architectures.
       this approach has the impact of assessing premi-
       ums during economic downturns when banks                 We concluded that the Corporation’s IT examina-
       are failing and are likely not in the best position      tion program does provide such assurance. We
       to afford the premiums. Also, numerous institu-          did, however, identify opportunities for improv-
       tions have benefited from being able to sharply          ing the quality of the IT examination process.
       increase insured deposits without contributions          Specifically, the FDIC did not have a review
       to the insurance funds commensurate with this            process in place to determine whether appropriate
       increased risk. This situation can occur because         examination procedures are applied and that find-
       the designated reserve ratio is not breached,            ings and conclusions are adequately supported.
       thereby triggering across-the-board premiums.            The FDIC has a quality review process in place for
       Current deposit insurance reform proposals               its safety and soundness examinations but gener-
       include provisions for risk-based premiums to be         ally has not conducted similar quality reviews for
       assessed on a more frequently scheduled basis            IT examinations. We recommended that the FDIC
       than would occur using the existing approach.            improve the quality, efficiency, and effectiveness of
       Risk-based premiums can provide the ability to           its IT examinations by instituting a standardized
       better match premiums charged to institutions            quality review of all phases of the IT examination
       with related risk to the insurance funds.                process and supporting documentation prior to
                                                                issuance of IT examination results.
       Adoption of the Proposed Basel Committee II
       Capital Accord: Adoption of the accord poses a           DSC generally concurred with the report’s find-
       potential major impact to the insurance funds            ings and agreed that the IT review process could
       due to the prospect of lower minimum capital             be enhanced. DSC provided an action plan that
       requirements for some of the largest, most com-          would enhance DSC’s quality review process
       plex institutions. The initial Basel Capital Accord      from the field office and field territory levels. We
       only took credit risks into account; Basel II will       consider the recommendation resolved. (Report
       require that banks evaluate and measure other            No. 04-022, June 15, 2004.)

18 SEMIANNUAL REPORT TO THE CONGRESS
The Division of Supervision and Consumer                nies that generally relies on the primary federal
Protection’s Approach for Supervising                   regulator when applicable and addresses those
Limited-Charter Depository Institutions                 parent companies that are not supervised by a fed-
We completed an evaluation of the FDIC’s super-         eral regulator.
visory approach for examining limited-charter
depository institutions, which include industrial       Our report contained eight recommendations
loan companies (ILCs). ILCs are state-chartered,        for strengthening the quality of DSC’s program
FDIC-supervised financial institutions that may         for supervising ILCs. The Corporation generally
be owned by commercial firms that are not regu-         agreed with our recommendations, which we
lated by a federal banking agency. We performed         consider resolved. (Report No. EVAL-04-048,
this evaluation because there has been much             September 30, 2004.)
debate among the banking regulators and with
the Congress regarding whether ILCs pose safety         Division of Supervision and Consumer
and soundness risks. The objectives of our review       Protection’s Regional Office Structure
were to evaluate: (1) whether ILCs pose greater         We conducted an audit of DSC’s regional office
risks to the insurance fund than other financial        structure to assess the structure in light of
institutions, and (2) DSC’s supervisory approach        changes that have occurred since the 1980s at the
in determining and mitigating material risks            FDIC and in the banking industry it regulates.
posed to ILCs by parent companies.
                                                        In our view, industry, technology, and security
The Corporation contends that ILCs are no riskier       changes along with changes in DSC’s approach to
than traditional banks and the risks lie within busi-   its supervisory responsibilities warrant reconsid-
ness line, not the charter type. Most ILC parent        eration of the current geographic and organiza-
companies are subject to varying degrees of federal     tional structure of the regional offices. We
regulation. Many are subject to consolidated            therefore recommended that the Director, DSC,
supervision by the Office of Thrift Supervision         initiate an independent analysis of DSC’s
(OTS), the Securities and Exchange Commission,          regional office structure to determine the opti-
or the Federal Reserve Board. The FDIC has stated       mal means to effectively manage the division’s
it has sufficient legislative authority to supervise    organizational structure and its resources.
ILCs and their parents. However, differences exist
in the scope of authority granted to the FDIC, the      DSC agreed to evaluate its regional structure as
Federal Reserve Board, and OTS relating to hold-        part of its annual workforce planning and budg-
ing company supervision. We concluded that ILCs         eting efforts. This corrective action is responsive
may pose additional risks to the deposit insurance      to our recommendation. (Report No. 04-040,
fund because ILC parent holding companies are           September 28, 2004.)
not always subject to the scope of consolidated
supervision, consolidated capital requirements, or
enforcement actions imposed on parent organiza-
                                                        4. Effectiveness of Resolution
tions subject to the Bank Holding Company Act or           and Receivership Activities
the Home Owners’ Loan Act. However, the FDIC
has established controls to help mitigate these         One of the FDIC’s corporate responsibilities is
added risks through its deposit insurance applica-      planning and efficiently handling the franchise
tion process, routine examination of ILCs and           marketing of failing FDIC-insured institutions
affiliates, and offsite monitoring program.             and providing prompt, responsive, and efficient
                                                        resolution of failed financial institutions. These
Nevertheless, we identified opportunities to:           activities maintain confidence and stability in
strengthen DSC’s insurance application process;         our financial system. Notably, since the FDIC’s
better define and clarify guidance for determining      inception over 70 years ago, no depositor has
the parent company’s source of financial and man-       ever experienced a loss of insured deposits at an
agerial strength to the ILC; enhance examination        FDIC-insured institution due to a failure. Accord-
policies and procedures for assessing the impact of     ing to the Corporation’s Letter to Stakeholders for
ILC-parent relationships; and develop a more for-       the 3rd Quarter 2004, the FDIC is managing over
mal examination program for ILC parent compa-           $603 million in assets in liquidation in 35 BIF

                                                                           Management and Performance Challenges 19
       and SAIF receiverships. The Asset Servicing            Receiverships’ (DRR) decisions for retaining and
       Technology Enhancement Project is a key initia-        paying former institution employees to assist in
       tive to implement an integrated solution to meet       the process of liquidating receiverships were rea-
       the FDIC’s current and future asset servicing          sonable and adequately supported.
       responsibilities based on industry standards, best
       practices, and available technology.                   DRR’s decisions to retain and pay former institu-
                                                              tion employees to assist in the operations of its
       The FDIC has outlined primary goals for three          receiverships appeared justified given the specific
       business lines that are relevant to the three major    circumstances of the closed institutions. Also,
       phases of its work: Pre-Closing, Closing, and          retention decisions were adequately communi-
       Post-Closing of failing or failed institutions. Each   cated to, and approved by, appropriate FDIC
       is accompanied by significant challenges:              management officials. However, DRR could have
                                                              better documented the basis for the retention
       Deposit Insurance. The FDIC must provide               decisions. We also concluded that the FDIC can
       customers of failed financial institutions with        better protect against the misuse of sensitive
       timely access to their insured funds and financial     financial and customer information by former
       services. A significant challenge in this area is to   institution employees retained to assist in liqui-
       ensure that FDIC deposit insurance claims and          dating receiverships.
       payment processes are prepared to handle large
       institution failures.                                  We made four recommendations to address our
                                                              concerns with documenting decisions, securing
       Resolutions. As the FDIC seeks to resolve failed       sensitive financial and customer information,
       institutions in the least costly manner, its chal-     and conducting background checks of retained
       lenges include ensuring the efficiency of contin-      employees. The Director, DRR, agreed with
       gency planning for institution failures and            our recommendations and expects significant
       effective internal FDIC communication and              progress and results in the areas discussed in the
       coordination as well as communication with the         report by the end of 2004. (Report No. 04-030,
       other primary federal regulators. Such steps help      August 20, 2004.)
       ensure timely access to records and optimal reso-
       lution strategies.
                                                              Proceeds from Terminated Securitizations
       Receivership Management. The FDIC’s goal is            Securitization is the process by which assets with
       to manage receiverships to maximize net return         generally predictable cash flows are packaged into
       toward an orderly and timely termination and           interest-bearing securities with marketable invest-
       provide customers of failed institutions and the       ment characteristics. The most common securi-
       public with timely and responsive information.         tized product is the mortgage-backed security.
       Related challenges include ensuring the efficiency
                                                              We conducted an audit to determine whether
       of the receivership termination process, effective
                                                              funds from terminated securitization trans-
       claims processing, continual assessment of
                                                              actions had been properly reported and credited
       recovery strategies, sound investigative activities,
                                                              to the FDIC by third parties, which include the
       collection of restitution orders, and accurate
                                                              mortgage-backed securities master servicer and a
       charging of receiverships for services performed
                                                              trustee appointed to the trust created for each
       under the Receivership Management Program.
                                                              securitization. The reserve fund releases and
                                                              residual distributions from the four terminated
       Our work in the receiverships and resolutions
                                                              securitization transactions we reviewed totaled
       area included the following reports:
                                                              $341,578,536 and $241,120,162, respectively. We
                                                              concluded that DRR had an adequate manage-
       Retention Strategies for Failed Insured                ment control process to ensure that all proceeds
       Depository Institution Employees                       from the terminated securitizations were prop-
       The objective of this audit was to determine           erly reported and credited to the FDIC by third
       whether the Division of Resolutions and                parties. (Report No. 04-034, September 13, 2004.)

20 SEMIANNUAL REPORT TO THE CONGRESS
Cases Involving Concealment of Assets                 FDIC executives announced initiatives focused
As referenced earlier, the OIG’s Office of Investi-   on workforce planning, human resources flexi-
gations coordinates closely with the FDIC’s DRR       bilities, and the establishment of a Corporate
and with the Legal Division regarding ongoing         Employee Program.
investigations involving fraud at failed institu-
tions, fraud by FDIC debtors, and fraud in the        In August 2004, the FDIC’s Chief Operating Offi-
sale or management of FDIC assets. In particular,     cer announced a Workforce Planning for the
investigators coordinate closely with the Corpo-      Future initiative that requires the FDIC’s three
ration to address issues arising in connection        business line divisions to: (1) review future
with the prosecution of individuals who have          workload assumptions; (2) analyze existing skill
illegally concealed assets in an attempt to avoid     sets, identify needed skill sets, and design strate-
payment of criminal restitution to the FDIC. As       gies for closing any gaps; and (3) develop succes-
of September 30, 2004, the FDIC was owed              sion management plans. The initiative also
approximately $1.7 billion in criminal restitu-       established vacancy management goals for care-
tion. In most cases, the individuals subject to       fully reviewing each vacancy within the Corpora-
restitution orders do not have the means to pay.      tion to determine whether and how vacancies
We focus our investigations on those individuals      should be filled.
who do have the means to pay but hide their
assets from and/or lie about their ability to pay.    On September 1, 2004, the FDIC sent a legislative
Page 44 in the Investigations Section of this         proposal, known as the FDIC Workforce 21 Act
report highlights the efforts of one of our Special   of 2004, to the Congress that would provide the
Agents working on asset concealment cases.            Corporation with greater flexibility in the human
                                                      resources area. The proposal seeks to build upon
                                                      human capital flexibilities related to streamlined
5. Management of                                      hiring authority, term appointments, reemploy-
                                                      ment of retired annuitants in exigent circum-
   Human Capital                                      stances, employment of experts and consultants,
                                                      and reduction-in-force and early retirement
Human capital issues pose significant elements        authority.
of risk that interweave all the management and
performance challenges facing the FDIC. Human         The Chief Operating Officer has also announced
capital management requires committed, sus-           a Corporate Employee Program. The Program’s
tained, and inspired leadership and persistent        objectives address risks related to industry con-
attention. In the last 15 years, the FDIC has dealt   solidation and complexity and will position the
with dramatic swings in its staffing levels in        Corporation to more successfully respond to
response to the banking and thrift crisis of the      rapid changes in individual institutions or the
late 1980s and early 1990s and subsequent period      entire financial industry. The program will pro-
of recovery. The FDIC, like other organizations,      vide cross-training programs and cross-divisional
continues to be affected by changing technology,      mobility to provide individual job enhancement
market conditions, initiatives designed to            and to serve organizational needs as events
improve its business processes, an aging work-        require. Amid these initiatives, the Corporation
force, and by the unknown. Such events impact         will need to confer with the National Treasury
staffing levels and required skills mix going for-    Employees Union, when appropriate, in negotiat-
ward just as they would any other organization.       ing matters affecting bargaining unit employees.

Since 2002, the FDIC has been working to create       The FDIC has stated that over the next 10 years, it
a flexible permanent workforce that is poised to      is likely that almost 1,600 employees or 30 percent
respond to sudden changes in the financial sec-       of the FDIC’s current workforce will retire. Other
tor. As part of the 2005 corporate planning and       employees will leave the FDIC for non-retirement
budget process, senior executives concluded that      reasons. The Corporation must carefully plan its
the FDIC’s future workforce will be smaller with      Corporate University training programs, con-
a somewhat different mix of skills. Recently,         tinue to work to identify an appropriate skills

                                                                         Management and Performance Challenges 21
       mix, correct any existing skills imbalances, fill      logical advances to ensure that its operations
       key vacancies in a timely manner, engage in care-      continue to be efficient and cost-effective and
       ful succession planning, and continue to con-          that it is properly positioned to carry out its
       serve and replenish the institutional knowledge        mission, particularly in light of ongoing down-
       and expertise that has guided the organization         sizing. While doing so, the Corporation must
       over the past years. A need for additional out-        continue to respond to the impact of laws and
       sourcing may arise. Hiring and retaining new tal-      regulations on its operations. The Corporation’s
       ent will be important and hiring and retention         Transformation Project is bringing about signifi-
       policies that are fair and inclusive must remain a     cant change in the Division of Information
       significant component of the corporate diversity       Resources Management (DIRM). Management
       plan. Designing, implementing, and maintaining         of IT resources and IT security have been the
       effective human capital strategies—including           focus of several laws, such as the Paperwork
       developing a coherent human capital blueprint          Reduction Act, the Government Information
       that comprehensively describes the FDIC’s              Security Reform Act, and the Federal Informa-
       human capital framework and establishes a              tion Security Management Act of 2002 (FISMA).
       process for agency leaders to systematically mon-      Under FISMA, each agency is required to report
       itor the alignment and success of human                on the adequacy and effectiveness of informa-
       resources-related initiatives—are critical priori-     tion security policies, procedures, and practices
       ties and must continue to be the focus of central-     and compliance with information security
       ized, sustained corporate attention. Our ongoing       requirements.
       work in this area includes an evaluation of the
       effectiveness of DSC’s workforce planning. We          The FDIC has recognized that improvements in
       are also initiating an evaluation of the Corporate     its information security program and practices
       University.                                            are needed. In its 2003 annual report to the Con-
                                                              gress, the FDIC identified information security
                                                              as a high vulnerability issue within the Corpora-
       6. Management and                                      tion. The FDIC also identified improvements in
          Security of Information                             its information security program as a major cor-
                                                              porate priority in its 2004 Annual Performance
          Technology Resources                                Plan. Senior FDIC managers, including the Vice
                                                              Chairman of the Board of Directors and the
       Information technology continues to play an            FDIC Audit Committee, have played an active
       increasingly greater role in every aspect of the       role in strengthening the FDIC’s information
       FDIC mission. As corporate employees carry out         security program through oversight of informa-
       the FDIC’s principal business lines of insuring        tion security initiatives and monitoring of cor-
       deposits, examining and supervising financial          porate efforts to address security weaknesses. As
       institutions, and managing receiverships, the          discussed below in this section, representatives
       employees rely on information and correspon-           of DIRM, the Division of Administration, and
       ding technology as an essential resource. Infor-       the Office of Enterprise Risk Management have
       mation and analysis on banking, financial              also been working with our office as part of
       services, and the economy form the basis for the       a “Getting to Green” initiative on the OIG’s
       development of public policies and promote             annual FISMA evaluation scorecard.
       public understanding and confidence in the
       nation’s financial system. IT is a critical resource
       that must be safeguarded.                              Federal Information Security Management
                                                              Act Evaluation
       Accomplishing IT goals efficiently and effec-          As required by FISMA, we completed an inde-
       tively requires sound IT planning and invest-          pendent evaluation of the FDIC information
       ment control processes. The Corporation’s 2004         security program and practices. FISMA directs
       IT budget is approximately $233 million. The           federal agencies to have an annual independent
       Corporation must constantly evaluate techno-           evaluation performed of their information secu-


22 SEMIANNUAL REPORT TO THE CONGRESS
                                           Getting to Green
  The OIG is working closely with representatives of the FDIC’s Division of Information
  Resources Management (DIRM), Division of Administration (DOA), and Office of Enterprise
  Risk Management (OERM) as part of a “Getting to Green”initiative on the OIG’s annual
  FISMA evaluation scorecard. The OIG assigns one of three assurance levels (reasonable
  assurance—green, limited assurance—yellow, and minimal/no assurance—red) when
  assessing the adequacy of security for each management control area that the OIG considers
  when conducting its FISMA evaluation of the Corporation’s information security program.
  Representatives of DIRM, DOA, OERM, and the OIG held periodic meetings from November
  2003 through April 2004 on various corporate information security issues, such as new and
  emerging security requirements being developed by the National Institute of Standards and
  Technology, the Corporation’s progress in addressing reported weaknesses, and next steps
  and targets. Additional getting-to-green meetings are planned beginning in November 2004,
  and the OIG is committed to continuing this highly successful working relationship.




rity program and practices and for agencies to       place to secure the FDIC’s information resources
report the results of the evaluation to the Office   and further the Corporation’s security goals and
of Management and Budget (OMB). FISMA                objectives.
states that the independent evaluation is to be
performed by the agency IG or an independent         We also issued a separate audit report containing
external auditor as determined by the IG. This is    responses to specific questions raised by OMB in
the fourth annual security evaluation that our       its August 23, 2004 memorandum, FY 2004
office has performed pursuant to FISMA and its       Reporting Instructions for the Federal Information
predecessor legislation, the Government Infor-       Security Management Act.
mation Security Reform Act, which expired in
November 2002.                                       Our responses to the OMB questions, together
                                                     with the independent security evaluation report,
The objective of the evaluation was to determine     satisfy our 2004 FISMA reporting requirements.
the effectiveness of the FDIC’s information secu-
rity program and practices, including its compli-    Similar to our prior year security evaluations,
ance with the requirements of FISMA and              our FISMA report identified 10 steps that the
related information security policies, procedures,   Corporation can take in the near term to
standards, and guidelines. In summary, we con-
                                                     improve its information security program and
cluded that the Corporation had established and
                                                     operations. Generally, the steps focused more on
implemented management controls that pro-
                                                     the implementation of the FDIC’s security man-
vided limited assurance of adequate security over
                                                     agement controls, whereas the steps contained in
its information resources. As a result of focused
efforts over the past several years, the FDIC has    our prior year evaluation focused primarily on
made considerable progress in improving its          the establishment of security management con-
information security controls and practices.         trols. In many cases, the FDIC had already begun
Notably, this is the first annual security evalua-   to address these steps during our evaluation field
tion wherein we identified no significant defi-      work. We will continue to work with the Corpo-
ciencies as defined by OMB that warrant              ration throughout the coming year to ensure that
consideration as a potential material weakness.      appropriate risk-based and cost-effective IT
However, continued management attention was          security controls are in place to secure corporate
needed in several key security control areas to      information resources and further corporate
ensure that appropriate risk-based and cost-         security goals and objectives. (Report No. 04-046,
effective security controls are designed and in      September 30, 2004.)


                                                                       Management and Performance Challenges 23
       We also conducted specific work in the following    financial, examination, and other data on finan-
       IT areas, much of which contributed to our over-    cial institutions.
       all FISMA evaluation:
                                                           We recommended that the Corporation
                                                           develop, update, and implement key manage-
       Enhancements to the FDIC System
                                                           ment and operational controls to protect the
       Development Life Cycle Methodology                  confidentiality, integrity, and availability of the
       We concluded that the FDIC had recently chosen      information contained in the ViSION applica-
       a new system development life cycle methodol-       tion. The Corporation’s response adequately
       ogy that was both risk-based and reflected indus-   addressed our recommendations. (Report No.
       try and federal government best practices. We       04-027, July 30, 2004.)
       also found that the FDIC had not developed an
       adequate control framework for system develop-
       ment to ensure that project management prac-        FDIC’s Capital Investment Management
       tices, performance assessment results, enterprise   Review Process for Information Technology
       architecture alignment, funding decisions and       Investments
       cost-benefit analyses, and certification and        One of our evaluations this reporting period
       accreditation guidance for security requirements    focused on the FDIC’s capital planning and
       were incorporated into development efforts. The     investment management (CPIM) process. Our
       report contains four recommendations to             objective was to determine whether the FDIC’s
       improve the system development control frame-       Capital Investment Review Committee (CIRC) is
       work. The Corporation’s response to this audit      implementing an efficient and effective review
       addressed the concerns we identified. (Report       process that supports budgeting for the FDIC’s
                                                           IT capital investments and ensures the regular
       No. 04-019, April 30, 2004.)
                                                           monitoring and proper management of these
                                                           investments once they are funded.
       FDIC’s Software Management Program
       We concluded that DIRM has implemented              The CIRC was established in September 2002;
       several effective controls over its software man-   therefore, measuring the overall effectiveness of
       agement program. However, DIRM could                the CIRC was difficult. Nonetheless, we found
       strengthen the program by completing efforts        that the program activities the FDIC has under-
       underway to develop policies and procedures,        taken since 2002 aligned with the processes the
       designate program responsibility, and establish a   U.S. Government Accountability Office (GAO)
       consolidated inventory system. Our report made      considers necessary to build a successful IT capi-
       three recommendations to address control weak-      tal investment process. Specifically, the FDIC’s
       nesses. The Corporation’s response addressed the    efforts have encompassed a broad range of activi-
       concerns discussed in our report. (Report No.       ties, including ongoing work to develop:
       EVAL-04-020, June 8, 2004.)
                                                           ■   an IT governance structure, including the
                                                               establishment of the Chief Information Offi-
       FDIC’s Virtual Supervisory Information on               cer Council in February 2004;
       the Net Application
       We conducted an audit of the FDIC’s Virtual         ■   a systematic, quarterly management oversight
       Supervisory Information on the Net (ViSION)             process for individual capital investment proj-
       application to determine whether the application        ects and the overall portfolio; and
       controls over operational components were ade-
       quate. ViSION was designed to accept and pro-       ■   corporate tools and guidance for project
       vide information from and for the FDIC and              managers.
       other federal and state regulators in support of
       day-to-day operations. ViSION contains infor-       These activities align with the processes associ-
       mation on all insured depository institutions.      ated with the second and third stages of maturity
       Users rely on ViSION as a central repository for    in GAO’s five-tiered model. However, work
       compiling, reviewing, analyzing, and managing       remains to achieve a mature, repeatable process,

24 SEMIANNUAL REPORT TO THE CONGRESS
and the FDIC has many efforts underway or             strengthen mainframe security, update security
planned to reach that goal.                           policies and procedures, and increase employee
                                                      security awareness.
We made 11 recommendations to the Chief
Financial Officer and Chief Information Offi-         Further, DIRM has completed the required certi-
cer, the CIRC Co-Chairs, to take actions in           fication activities in preparation for system
3 general areas to help ensure continued matu-        accreditation. These activities include completing
ration of the CPIM process: (1) Strengthen the        a mainframe security plan; conducting a risk
IT investment management governance struc-            assessment and preparing the final risk assess-
ture, (2) Strengthen CPIM-related procedures,         ment report; performing a self-assessment of
and (3) Create a CPIM plan.                           mainframe management, operational, and tech-
                                                      nical controls; and completing a Plan of Actions
Management did not concur with 2 of our               and Milestones.
11 recommendations. With respect to one of those
recommendations, we requested that manage-            IBM did find one aspect of mainframe security
ment reconsider its position and clarify require-     that could be improved. DIRM management
ments for validating quarterly project assessments    concurred with IBM’s related recommendation.
by independent qualified personnel when man-          (Report No. 04-037, September 30, 2004.)
agement updates the FDIC Capital Investment
Policy in June 2005. For the other outstanding rec-
                                                      FDIC’s IT Contingency Planning: IBM’s audit
ommendation, we agreed with management that
                                                      focused on the adequacy of the FDIC’s policies,
further action was not required. (Report No.
                                                      procedures, and tools for contingency planning.
04-039, September 23, 2004.)
                                                      IBM concluded that the FDIC had made progress
                                                      since the OIG’s 2003 FISMA evaluation. How-
Audits by IBM                                         ever, improvements are needed to ensure that
We engaged International Business Machines            FDIC data can be restored in a timely manner.
Business Consulting Services (IBM), an inde-
pendent professional services firm, to support        IBM made three recommendations to improve
our efforts to satisfy reporting requirements         the FDIC’s contingency planning program.
related to FISMA. IBM issued the following three      DIRM agreed to take corrective actions that ade-
reports during the reporting period:                  quately address the three recommendations.
                                                      (Report No. 04-038, September 22, 2004.)
FDIC’s IT Security Risk Management
Program—Overall Program Policies and
Procedures and the Risk Assessment Process:           7. Security of Critical
IBM concluded that the FDIC had made progress
since August 2003 in implementing the risk man-          Infrastructure
agement program. However, policies and proce-
dures for the overall program and the risk            The adequate security of our nation’s critical
assessment process could be strengthened.             infrastructures has been at the forefront of the
                                                      federal government’s agenda for many years.
IBM made three recommendations to the Direc-          Specifically, the President’s Commission on Crit-
tor, DIRM, to improve the policies and procedures     ical Infrastructure Protection (established in July
for managing IT risk and the Director agreed.         1996) was tasked to formulate a comprehensive
(Report No. 04-028, July 30, 2004.)                   national strategy for protecting the nation’s criti-
                                                      cal infrastructure from physical and “cyber”
FDIC’s Mainframe Security: IBM concluded              threats. Included among the limited number of
that the FDIC has established and implemented         systems whose incapacity or destruction were
management, operational, and technical controls       deemed to have a debilitating impact on the
that provide reasonable assurance of adequate         defense or economic security of the nation was
mainframe security. IBM also found that the           the banking and finance system. With the
FDIC has made progress in its efforts to              increased consolidation and connectivity of the

                                                                         Management and Performance Challenges 25
       banking industry in the years since 1996, and          Security and the Finance and Banking Informa-
       with the new awareness of the nation’s vulnerabil-     tion Infrastructure Committee, created by Exec-
       ities to terrorist attacks since September 11, 2001,   utive Order 23231 and chaired by the
       the security of the critical infrastructure in the     Department of the Treasury, on efforts to
       banking industry is even more important.               improve security of the critical infrastructure of
                                                              the nation’s financial system. To address this risk,
       On December 17, 2003, the President signed             the FDIC is sponsoring 24 outreach conferences
       Homeland Security Presidential Directive               for the Financial and Banking Information Infra-
       (HSPD) 7, Critical Infrastructure Identification,      structure Committee and Financial Services Sec-
       Prioritization and Protection. HSPD–7 established      tor Coordinating Council through 2005, which
       a national policy for federal departments and          will address protecting the financial sector. The
       agencies to identify and prioritize United States      Corporation will also need to be attentive to the
       critical infrastructure and key resources and to       new requirements of HSPD-7.
       protect them from terrorist acts. On June 17, 2004,
       OMB issued Memorandum M04-15, Development
                                                              Implementation of Physical Security
       of the HSPD-7 Critical Infrastructure Protection
                                                              Policies
       Plans to Protect Federal Critical Infrastructures
                                                              During the reporting period we performed a
       and Key Resources. The memorandum provides
                                                              follow-up to two prior OIG evaluations to assess
       guidance regarding the format and content of
                                                              the FDIC physical security program and imple-
       critical infrastructure protection plans that fed-
                                                              mentation of physical security at the FDIC’s
       eral agencies are required to submit to the OMB.
                                                              Washington, D.C., metropolitan area facilities
       Although the FDIC has determined that it does
                                                              and regional and field offices.
       not maintain critical infrastructure or key
       resources as intended by HSPD–7, the FDIC is
                                                              We concluded that the FDIC had implemented
       required to report to OMB on its ability to
                                                              the OIG-recommended improvements to secu-
       ensure the continuity of its business operations
                                                              rity policies for FDIC-owned and leased space
       in the event of a physical or cyber attack.
                                                              in the Washington, D.C., and Virginia Square
                                                              locations and in the regional and field offices.
       The intent of HSPD–7 is to ensure that the fed-
                                                              However, we also found that the Division of
       eral government maintains the capability to
                                                              Administration (DOA) could further improve
       deliver services essential to the nation’s security
                                                              the vulnerability assessment process for some of
       and economy and to the health and safety of its
                                                              its offices, and we made a recommendation to
       citizens in the event of a cyber- or physical-
                                                              that effect. The Director, DOA, concurred with
       based disruption. Much of the nation’s critical
                                                              our recommendation and agreed to take respon-
       infrastructure historically has been physically
                                                              sive action. (Report No. 04-021, June 15, 2004.)
       and logically separate systems that had little
       interdependence. However, as a result of tech-
       nology, the infrastructure has increasingly            FDIC’s Business Continuity Plan
       become automated and interconnected. These             We completed an evaluation of the FDIC’s Busi-
       same advances have created new vulnerabilities         ness Continuity Plan (BCP) during the reporting
       to equipment failures, human error, natural dis-       period to determine whether the FDIC’s plan
       asters, terrorism, and cyber attacks.                  addresses key elements of business continuity
                                                              planning. An FDIC Audit Committee member
       To effectively protect critical infrastructure, the    had asked our office to assess the FDIC’s BCP
       FDIC’s challenge is to implement measures to           against the key elements.
       mitigate risks, plan for and manage emergencies
       through effective contingency and continuity           We found that the FDIC’s BCP addresses the crit-
       planning, coordinate protective measures with          ical business functions of key FDIC divisions and
       other agencies, determine resource and organiza-       offices. Also, actions are underway to review and
       tion requirements, and engage in education and         update a business impact analysis and to identify
       awareness activities. The FDIC will need to con-       the resources necessary to sustain essential func-
       tinue to work with the Department of Homeland          tions in the event of disruptions. However, the

26 SEMIANNUAL REPORT TO THE CONGRESS
FDIC could improve the quality of its BCP in a        NFE. We have reported on several NFE matters
number of key areas to help ensure its success.       in the past and are currently auditing the Corpo-
As a result, we made 10 recommendations to            ration’s ongoing NFE efforts.
strengthen the quality of the FDIC’s BCP, with
which the Corporation agreed. (Report No.             The Call Report Processing Modernization proj-
EVAL-04-029, August 9, 2004.)                         ect is a collaborative effort by the FDIC, the
                                                      Federal Reserve Board, and the Office of the
                                                      Comptroller of the Currency to improve the
8. Management of                                      processes and systems used to collect, validate,
   Major Projects                                     store, and distribute Call Report information.
                                                      The project resulted in a Central Data Repository
Project management is the defining, planning,         approach to managing bank Call Report Infor-
scheduling, and controlling of the tasks that         mation. We are monitoring the Corporation’s
must be completed to reach a goal and the allo-       progress on this project.
cation of the resources to perform those tasks.
The FDIC has engaged in several multi-million         In March 2002, the Board of Directors approved
dollar projects, such as the New Financial Envi-      construction of a new nine-story building at the
ronment (NFE), Central Data Repository, and           FDIC’s Virginia Square in Northern Virginia.
Virginia Square Phase II Construction. Without        Known as Virginia Square Phase II, the building
effective project management, the FDIC runs the       will house FDIC staffers (about 1,100) for the
risk that corporate requirements and user needs       most part now working in leased space. The
may not be met in a timely, cost-effective manner.    expansion will cost approximately $111 million.
We have done several reviews of these projects        The building is expected to be finished by early
and identified the need for improved defining,        2006. Completing construction activities and
planning, scheduling, and controlling of              moving staff from leased to owned space within
resources and tasks to reach goals and milestones.    the planned time and cost budgets presents con-
The Corporation included a project management         siderable challenges for FDIC management.
initiative in its 2004 performance goals and
established a Program Management Office to            The Corporation must ensure that employees
address the risks and challenges that these kinds     from all divisions and offices properly safeguard
of projects pose.                                     the BIF and SAIF. It is critically important that
                                                      budgets for the major projects discussed above
In September 2002, the FDIC executed a multi-         and all others be established and closely moni-
year contract to replace its core financial systems   tored to prevent significant cost overruns.
and applications with a commercial-off-the-shelf
software package. NFE is a major corporate ini-       Control Framework for the
tiative to enhance the FDIC’s ability to meet cur-    Virginia Square Phase II Project
rent and future financial management and              We continued our audit coverage of the Virginia
information needs. At the time the Board case         Square Phase II project for the construction of a
was approved, the FDIC estimated the total life-      second office building and a special-purpose
cycle cost of NFE, including FDIC staff time, to      facility to be completed at Virginia Square. Our
be approximately $62.5 million over 8 years. NFE      audit objective was to determine whether the
offers the FDIC significant benefits and presents     control framework for the project was adequate
significant challenges. These challenges will test    to minimize the risk that financial and time
the Corporation’s ability to (1) maintain unqual-     budgets may not be met.
ified opinions on the FDIC’s annual financial
statements through the system implementation          We concluded that the FDIC established an ade-
and associated business process reengineering;        quate control framework for the Virginia Square
(2) manage contractor resources, schedules, and       Phase II construction project that, if consistently
costs; and (3) coordinate with planned and            and effectively implemented, should ensure that
ongoing system development projects related to        the project will be completed on time and within

                                                                         Management and Performance Challenges 27
       budget. However, we also found that the FDIC          and achieving its strategic goals. In addition to
       withheld less than the contract entitled the FDIC     the Corporation’s strategic and annual goals and
       to retain on progress payments to the general         objectives established under the Results Act, the
       contractor. We recommended that the Director,         Chairman maintains a comprehensive set of
       DOA, emphasize that contractor invoices be            objectives used for internal management which
       reviewed for compliance with all contract terms,      are summarized in terms of Stability, Sound Pol-
       including retainage provisions, and that discrep-     icy, and Stewardship.
       ancies be documented and resolved before pay-
       ment. The Corporation took prompt action in           The Corporation has made significant progress
       response to our recommendation. (Report No.           in implementing the Results Act. Over the years,
       04-018, April 22, 2004.)                              it has developed more outcome-oriented per-
                                                             formance measures, better linked performance
                                                             goals and budgetary resources, and improved
       9. Assessment of Corporate                            processes for verifying and validating reported
          Performance                                        performance. While the FDIC is not included on
                                                             the Management Scorecard nor required to sub-
                                                             mit a Program Assessment Rating Tool to the
       Assessing corporate performance is a key chal-
                                                             OMB, some of the Corporation’s divisions have
       lenge because good intentions and good begin-
                                                             begun using a “scorecard” approach to monitor-
       nings are not the measure of success. What
                                                             ing and evaluating performance, and we support
       matters in the end is completion: performance
                                                             the use of these tools.
       and results. To that end, the Government Perfor-
       mance and Results Act (Results Act) of 1993 was
                                                             The OIG has played an active role in evaluating
       enacted. This Act requires most federal agencies,
                                                             the Corporation’s efforts in this area. We have
       including the FDIC, to prepare a strategic plan
                                                             conducted reviews of the processes used for veri-
       that broadly defines each agency’s mission,           fying and validating data and evaluated the Cor-
       vision, and strategic goals and objectives; an        poration’s budget and planning process. As part
       annual performance plan that translates the           of the Corporation’s overall planning process, we
       vision and goals of the strategic plan into meas-     provide input and our perspective annually on
       urable annual goals; and an annual performance        the FDIC’s strategic goals and objectives. In
       report that compares actual results against           doing so, we have pointed to the need to better
       planned goals.                                        align the strategic and annual planning process
                                                             under the Results Act with the separate process
       The current Administration has raised the bar         used to develop detailed annual corporate per-
       further in this area. Specifically, OMB is using an   formance objectives and initiatives designed to
       Executive Branch Management Scorecard to track        accomplish the Chairman’s priorities.
       how well departments and agencies are executing
       the management initiatives, and where they stand      During the reporting period, we updated an ear-
       at a given point in time against the overall stan-    lier analysis of the linkage between the Corpora-
       dards for success. OMB has also introduced the        tion’s two separate performance measurement
       Program Assessment Rating Tool to evaluate pro-       processes. We compared (1) the FDIC’s 2004 Cor-
       gram performance, determine the causes for            porate Performance Objectives (i.e., Chairman’s)
       strong or weak performance, and take action to        to (2) the 2004 Results Act Annual Performance
       remedy deficiencies and achieve better results.       Plan. The analysis continues to reflect that the
                                                             two separate plans are not well integrated. OIG
       The Corporation’s strategic plan and annual per-      advisory comments on the Corporation’s 2002,
       formance plan lay out the agency’s mission and        2003, and 2004 Results Act plans have suggested
       vision and articulate goals and objectives for the    that the Corporation take additional steps to bet-
       FDIC’s three major program areas: Insurance,          ter link the two systems.
       Supervision, and Receivership Management.
       Through its annual performance report, the FDIC       Strong internal control and risk management
       is accountable for reporting actual performance       practices can help an organization achieve strate-

28 SEMIANNUAL REPORT TO THE CONGRESS
gic and annual goals. Internally, the Corporation     However, as the Corporation downsizes and con-
is currently operating under an internal control      tinues to contract for services, it needs to remain
policy that predates many developments toward         vigilant. We have a contract audit program that
proactive risk management. Since the Corpora-         looks at the reasonableness and support for
tion issued its internal control policy in February   billings on significant Corporation contracts
1998, GAO has issued Standards for Internal Con-      and, as needed, evaluates contract award
trol in the Federal Government (GAO/AIMD-             processes. Our work in the cost containment and
00-21.3.1, November 1999), which discusses five       procurement integrity area during the reporting
components of internal control and provides an        period included the following:
overall framework for identifying and address-
ing major performance challenges and areas of
greatest risk for fraud, waste, abuse, and mis-
                                                      Acquisition Planning and Execution
management. Also, as mentioned earlier in this
                                                      Strategy
                                                      We concluded that the FDIC’s acquisition plan-
semiannual report, many organizations in the
                                                      ning process did not always result in efficient,
insurance industry and other organizations are
                                                      effective, economical, and timely procurements.
using an Enterprise Risk Management approach
to managing not only financial risks, but all busi-
                                                      We made seven recommendations to the Director,
ness and compliance risks. The Committee of
                                                      DOA, to revise certain aspects of the Acquisition
Sponsoring Organizations of the Treadway Com-
                                                      Policy Manual, establish additional procedures to
mission has issued a document that explains
                                                      document the disposition of Legal Division com-
essential concepts and the interrelationship
                                                      ments, modify certain contracts, and enhance cer-
between enterprise risk management and inter-
                                                      tain oversight activities of contracting officers.
nal control. The Corporation’s Office of Enter-
                                                      The Director, DOA, provided a written response
prise Risk Management can play a role in risk
                                                      to the draft report, and through subsequent dis-
management activities that help the Corporation
                                                      cussions, all recommendations are now resolved.
achieve its goals.
                                                      (Report No. 04-043, September 29, 2004.)


10. Cost Containment and                              FDIC’s Allocation of Records Storage Costs
                                                      We conducted an audit of the FDIC’s allocation
    Procurement Integrity                             of records storage costs and determined that
                                                      records storage costs were not correctly charged
Stewardship of resources has been a focus of the      to the appropriate insurance and resolution
FDIC’s current Chairman. As steward for the           funds. Specifically, from January 1996 through
insurance funds, the Chairman has embarked on         July 2004, the FDIC charged about $35 million in
a campaign to identify and implement measures         records storage costs to the BIF and SAIF that
to contain and reduce costs, either through more      should have been charged to the Federal Savings
careful spending or assessing and making changes      and Loan Insurance Corporation Resolution
to business processes to increase efficiency.         Fund (FRF). Although the records stored by the
                                                      FDIC are associated with activities that can be
A key challenge to containing costs relates to the    attributed directly to a specific fund, the FDIC
contracting area. To achieve success in this area,    allocates the expenses indirectly to the funds as
the FDIC must ensure that its acquisition frame-      corporate common services costs. As a result, the
work—that is, its policies, procedures, and inter-    BIF and SAIF have been charged $35 million in
nal controls—is marked by sound planning;             incorrect records storage costs and could absorb
consistent use of competition; fairness; well-        an additional $11 million over the next 3 years.
structured contracts designed to produce cost-        We identified the $46 million related to inappro-
effective, quality performance from contractors;      priate allocation of storage costs as funds put to
and vigilant contract management to ensure suc-       better use.
cessful oversight management activities. The
Corporation has taken a number of steps to            We recommended that the Director, Division of
strengthen controls and oversight of contracts.       Finance (DOF), adjust the fund balances for the

                                                                         Management and Performance Challenges 29
       BIF, SAIF, and FRF; charge the funds appropri-       the General Counsel and DOA expedite efforts
       ately for future records storage costs; and deter-   related to the destruction of records for thrifts
       mine whether prior-year adjustments should be        not involved in the goodwill litigation.
       made to the funds’ financial statements due to
       the magnitude of the reallocation of records stor-   The Director, DOA, did not agree with four of
       age costs to the FRF.                                our recommendations, and we asked DOA to
                                                            reconsider its responses and provide additional
       The Corporation disagreed with our finding           comments. DOA also disagreed with all but
       and recommendations. The Director, DOF,              $602,438 of our identified cost avoidances. The
       stated that the current allocation methodology       General Counsel agreed to take responsive action.
       provides a reasonable, efficient, and consistent
       basis for allocating costs to the funds. We          Based on our review, we are reporting a range of
       requested DOF to reconsider its position and         $5,151,822 to $5,573,881 for funds put to better
       provide a subsequent response. (Report No.           use in this Semiannual Report to the Congress.
       04-044, September 29, 2004.)                         This range has been adjusted to reflect our
                                                            acceptance of DOA’s lower estimate of savings for
                                                            moving microforms to general storage space.
       Records Management and Storage
                                                            (Report No. 04-045, September 30, 2004.)
       We concluded that the FDIC’s contract with Iron
       Mountain Records Management, Inc. for records
       storage could be more cost-effective. We reported    Pre-award and Post-award Contract Audits
       that the FDIC could avoid costs of $5.6 to $6 mil-   We issued the results of one pre-award audit
       lion by moving records from climate-controlled       during the reporting period, in which we
       storage, renegotiating certain contract terms, and   reported that two proposals related to an asset
       obtaining permission to destroy thrift records not   servicing strategy were reasonable and ade-
       associated with goodwill litigation. Additionally,   quately supported.
       the FDIC could improve oversight of the contrac-
       tor by verifying the application of rounding fac-    We also issued one post-award contract audit
       tors used to determine billable container size and   report during the reporting period. The objectives
       reconciling actual and recorded container dis-       of post-award audits are to determine whether
       placement during quarterly physical inspections.     amounts charged to FDIC contracts are allowable,
                                                            allocable, and reasonable. We reported a total of
       We made nine recommendations to the Director,        $110,915 in questioned costs as a result of the
       DOA, to make the FDIC’s contract with Iron           post-award audit. As of the end of the reporting
       Mountain more cost-effective and to improve          period, a management decision was pending for
       contract oversight. We also recommended that         the amount identified as a monetary benefit.




30 SEMIANNUAL REPORT TO THE CONGRESS
                                                     Investigations—
                                                     Making an Impact

The Office of Investigations (OI) is responsible
for carrying out the investigative mission of the
OIG. Staffed with agents in Washington, D.C.;                           Investigative Statistics
Atlanta; Dallas; and Chicago; OI conducts                         April 1, 2004—September 30, 2004
investigations of alleged criminal or otherwise        Judicial Actions:
prohibited activities that may harm or threaten          Indictments/Informations . . . . . . . . . . . . . . . . . . . 9
to harm the operations or integrity of the FDIC          Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
and its programs. In addition to its headquarters      OIG Investigations Resulted in:
and field sites, OI operates an Electronic Crimes        Fines of . . . . . . . . . . . . . . . . . . . . . . . . . . . . $25,000
Team and laboratory in Washington, D.C.                  Restitution of . . . . . . . . . . . . . . . . . . . . $34,141,638
The Electronic Crimes Team is responsible for            Other Monetary Recoveries of . . . . . . $4,388,304
conducting computer-related investigations               Total . . . . . . . . . . . . . . . . . . . . . . . . . . . $38,554,942
impacting the FDIC, including employee cases           Cases Referred to the Department of
involving computer abusers and providing               Justice (U.S. Attorney) . . . . . . . . . . . . . . . . . . . . . . 15
computer forensic support to OI investigations
                                                       Referrals to FDIC Management . . . . . . . . . . . . . . . . 4
nationwide. OI also manages the OIG Hotline
for employees, contractors, and others to report       OIG Cases Conducted Jointly with
allegations of fraud, waste, abuse, and mis-           Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
management via a toll-free number or email.
During the reporting period, the Hotline
received 68 allegations, a number of which           to bring a halt to the fraudulent conduct under
included reports of “phishing” schemes as            investigation, protect the FDIC and other victims
discussed on page 42. Two reports that were          from further harm, and assist the FDIC in recov-
based on Hotline allegations were issued by the      ery of its losses. Another consideration in dedi-
Office of Audits during the reporting period.        cating resources to these cases is the need to
Fourteen allegations were referred for further       pursue appropriate criminal penalties not only to
action.                                              punish the offender but to deter others from par-
                                                     ticipating in similar crimes.
OI Cases Target High-Risk Areas                      Currently, the majority of OI’s caseload is com-
OI concentrates its investigative efforts on those   prised of investigations involving major finan-
cases of most significance or potential impact to    cial institution fraud. OI’s work in this area
the FDIC and its programs. OI’s goal, in part, is    targets schemes that resulted in significant losses

                                                                            Management and Performance Challenges 31
                                                               tions of individuals who fraudulently attempt to
   Office of Investigations Case Distribution
                                                               avoid payment of court-ordered restitution to
           (as of September 30, 2004)
                                                               the FDIC, made up 23 percent of our caseload as
                                                               of September 30, 2004. These cases are of signifi-
                                                               cance to the FDIC, which was owed approxi-
                                                               mately $1.7 billion in criminal restitution as of
                                                               September 30, 2004. In most instances, the indi-
                           Restitution and                     viduals subject to these restitution orders do not
                             Other Debt                        have the means to pay. The focus of OIG investi-
                                 23%
                                                               gations in this area is on those individuals who
                                                               do have the means to pay, but hide their assets
        Bank/Thrift                      Other                 from and/or lie about their ability to pay. OI
        Operations                        5%
           60%
                                                               works closely with the Division of Resolutions
                                      Employee                 and Receiverships (DRR) and the Legal Division
                                      Activities               in aggressively pursuing investigations of these
                                         7%
                                                               individuals. A partnership approach and com-
                                                               mitment to these cases is critical to successfully
                                                               prosecute those who continue to defraud the
                                                               FDIC, and to ensure that the FDIC, as the victim,
                                       Asset Management        recovers as much of its loss as possible.
                                           and Sales
                                              5%
                                                               Although currently only about 7 percent of our
                                                               caseload, the OIG must be prepared to commit
                                                               resources when necessary to investigations of
       or vulnerabilities for the institution(s), and/or       criminal or serious misconduct on the part of
       involves institution officers or insiders, multiple     FDIC employees. These are among the most
       subjects and institutions, obstruction of bank          sensitive of OIG cases and are critical to ensure
       examiners, and/or misrepresentation of FDIC             the integrity of, and public confidence in, FDIC
       insurance or affiliation. It also includes investiga-   operations.
       tions of fraud resulting in institution failures.
       Cases in this area are highly complex and
       resource-intensive, often requiring teams of            Partnering for Success
       agents and years to complete. Despite the
       resource demands, the OIG’s commitment to               The OIG works closely with U.S. Attorneys’
       these investigations is imperative, in light of their   Offices throughout the country in attempting to
       significance and potential impact to the FDIC           bring to justice individuals who have defrauded
       and the banking industry. Additionally, from a          the FDIC. The prosecutorial skills and outstand-
       cost-benefit perspective, these cases have brought      ing direction provided by Assistant U.S. Attorneys
       results that make our investment in them well           with whom we work are critical to our success.
       worth the effort, as illustrated in some of the         The results we are reporting for the last 6 months
       cases reported for this period. Our investigations      reflect the efforts of U.S. Attorneys’ Offices in the
       of major financial institution fraud schemes have       Southern District of Florida, Western District of
       brought increased returns measured by success-          Missouri, District of Minnesota, Western District
       ful prosecutions resulting in incarceration, court-     of Louisiana, Northern District of Ohio (Western
       ordered fines, restitution to victims, and              Division), Eastern District of Texas, Southern
       administrative actions.                                 District of Iowa, Northern District of Mississippi,
                                                               Northern District of Georgia, Western District
       In addition to pursuing financial institution-          of Oklahoma, Eastern District of Michigan,
       related cases, the OIG commits significant              Northern District of Illinois, Southern District
       resources to investigations that target fraud by        of New York, and the Northern District of Texas.
       FDIC debtors seeking to conceal their assets from       In addition to local U.S. Attorneys’ Offices, the
       the FDIC. These cases, which include investiga-         OIG worked with Trial Attorneys from the Fraud

32 SEMIANNUAL REPORT TO THE CONGRESS
Section of the U.S. Department of Justice and          Over the last 6 months, OI opened 24 new cases
State prosecutors from the State of Missouri.          and closed 25 cases, leaving 111 cases underway
                                                       at the end of the period. Our work during the
Support and cooperation among other law                period led to indictments or criminal charges
enforcement agencies is also a key ingredient for      against 9 individuals and convictions of
success in the investigative                                             15 defendants. Criminal
community. We frequently                                                 charges remained pending
“partner” with the Federal            “This prosecution                  against 30 individuals as of the
Bureau of Investigation (FBI),                                           end of the reporting period.
                                      demonstrates our                   Fines, restitutions, and recover-
the Internal Revenue Service
Criminal Investigation (IRS-          vigorous    efforts  to            ies resulting from OI cases
                                                                         totaled almost $38.6 million.
CI), and other law enforcement        prosecute corporate
agencies in conducting investi-
                                      fraud schemes                      The following are highlights of
gations of joint interest.                                               some of the results from our
                                      designed to defraud the            investigative activity over the
Also vital to our success is our      investing public and               last 6 months.
partnership with FDIC pro-
gram offices. We coordinate           regulators regarding
closely with the FDIC’s Divi-         the financial condi-               Fraud Arising at or
sion of Supervision and Con-
sumer Protection (DSC) in
                                      tion of publicly traded            Impacting Financial
investigating fraud at financial      companies. Prosecut-               Institutions
institutions, and with DRR and        ing corporate frauds               Former Hamilton Bank
the Legal Division in investiga-                                         Senior Executives Indicted
tions involving failed institu-
                                      is one of this Office’s
                                                                         for Defrauding Investors and
tions and fraud by FDIC               highest priorities.                Bank and Securities
debtors. Our Electronic Crimes        Officers and directors             Regulators
Team coordinates closely with                                            On June 22, 2004, a federal
DIRM. The successes high-             of publicly traded                 grand jury in Miami, Florida,
lighted for the period would          companies have the                 returned a 42-count indictment
not have been possible without                                           for conspiracy, wire fraud, secu-
the collaboration of these
                                      duty to disclose truth-            rities fraud, false filings with the
offices.                              fully the financial                Securities and Exchange Com-
                                                                         mission, false statements to
                                      condition of their                 accountants, obstruction of an
In addition to carrying out its
direct investigative responsibili-    companies, and                     examination of a financial
                                                                         institution, and making false
ties, the OIG is committed to         if they fail to do that,
providing training and sharing                                           statements to the Office of the
information with FDIC com-
                                      they will be criminally            Comptroller of the Currency
ponents and other regulators          prosecuted.”                       (OCC) against three former sen-
                                                                         ior executive officers of Hamil-
based on “lessons learned”
                                              The U.S. Attorney          ton Bancorp and Hamilton
regarding red flags and fraud
                                               for the Southern          Bank, N.A. (Hamilton Bank).
schemes identified through
OIG investigations. OI agents                District of Florida       Named in the indictment are
provide training and frequently                                        the following: the former
give presentations to FDIC staff                                       Chairman of the Board and
during regional and field meetings. OI is also        Chief Executive Officer (CEO); the former Presi-
called upon by the Federal Financial Institutions     dent and Director; and the former Senior Vice
Examination Council, state banking regulatory         President and Chief Financial Officer. The for-
agencies, and law enforcement agencies to pres-       mer Chairman of the Board and CEO also was
ent case studies.                                     charged with insider trading.

                                                                                  Investigations—Making an Impact 33
                                                             reported the nature of the swap transactions to
                                                             the investing public and the regulators, the
                                                             indictment revealed recorded conversations in
                                                             which the defendants openly discussed the
                                                             transactions as swaps. In addition, the indict-
                                                             ment charges that while the fraud was concealed,
                                                             the former chairman of the board and CEO
                                                             engaged in illegal insider trading in Hamilton
                                                             Bancorp’s stock through the use of trust
                                                             accounts. During 1998, Hamilton Bancorp had a
                                                             market capitalization of more than $300 million.

                                                             If convicted of wire fraud, the defendants face a
                                                             statutory maximum term of imprisonment of
                                                             30 years and a fine of up to $1 million for each
                                                             wire fraud count. If convicted of securities fraud,
                                                             the defendants face a statutory maximum term
                                                             of 10 years’ imprisonment and a fine of $1 mil-
                                                             lion for each such count. If convicted of conspir-
        The indictment alleges that, in 1998 and 1999,       acy, obstruction of an examination of a financial
        the defendants fraudulently inflated the reported    institution, or making a false statement, the
        results of operations and financial condition of     defendants face a statutory maximum term of
        Hamilton Bancorp and defrauded the investing         5 years’ imprisonment and a fine of up to
        public and the bank and securities regulators, so    $250,000 for each such count.
        that the accused would unjustly enrich and ben-
        efit themselves through higher salaries, bonuses,    This case is being investigated by the FDIC OIG
        and stock options, and would facilitate an           and Treasury OIG. The case is being prosecuted
        upcoming registered securities offering to the       by the U.S. Attorney’s Office for the Southern
        investing public. The former Chairman of the         District of Florida.
        Board and CEO made nearly $2 million in
        bonuses, and the former President and Director
        and the former Senior Vice President and Chief       Guilty Verdicts Returned Following
        Financial Officer each made more than $100,000
                                                             Investigation into Failure of Sinclair
        in bonuses while the fraud was concealed.
                                                             National Bank
                                                             On August 4, 2004, after a 2-week trial in the
                                                             Western District of Missouri, Kansas City, a fed-
        The indictment further alleges that the defen-
                                                             eral jury returned guilty verdicts against a for-
        dants participated in a fraudulent scheme
                                                             mer owner and board member (the defendant)
        whereby they falsely inflated the results of oper-
                                                             of Sinclair National Bank (SNB) and the former
        ations and financial condition of Hamilton           CEO of Stevens Financial Group. The two were
        Bancorp in Securities and Exchange Commis-
        sion filings; obstructed the OCC’s examination
        of Hamilton Bank; and lied to the investing pub-     Sinclair National Bank
        lic, the bank and securities regulators, and their
        accountants regarding the true financial health
        of Hamilton Bancorp and Hamilton Bank. The
        indictment charges that, in 1998 and 1999, the
        three defendants engaged in swap transactions
        (or “adjusted price trades”) to hide Hamilton
        Bank’s losses, including more than $22 million
        in losses in 1998, and falsely accounted for the
        transactions to make it appear that no losses had
        been incurred. While the defendants falsely

34 SEMIANNUAL REPORT TO THE CONGRESS
earlier indicted based on evidence developed          regulations as enforced by the Securities and
during our investigation into the fraud scheme        Exchange Commission. Consequently, the securi-
that led to SNB’s failure in September 2001. The      ties were sold only within the State of Missouri,
defendant’s ex-husband, who co-owned the              and some of the funds raised from this scheme
bank, was also indicted, but he died in December      furnished the money used by one of the former
2003, while awaiting trial.                           owners to purchase SNB. The loans that secured
                                                      these securities were also utilized in the fraudu-
The jury found the defendant guilty of conspir-       lent activity involving SNB.
acy to submit a false statement and making a
material false statement to the OCC. In Decem-        The State case was investigated by the FDIC
ber 1999, the defendant and her ex-husband            OIG, Missouri Secretary of State’s Office, and
made an application to the OCC for the purchase       the FBI. The case was prosecuted by the Missouri
of Northwest National Bank. The defendant and         Attorney General’s Office.
her ex-husband failed to list substantial assets
and liabilities on their application to the OCC.      The federal case was brought to trial by the
The OCC relied on the fraudulent misrepresen-         Department of Justice, Main Justice Attorneys
tations and approved the change of control appli-     from the Fraud Section. The case was investigated
cation. After they acquired Northwest National        by the FDIC OIG, Treasury OIG, FBI, and IRS-CI.
Bank, the bank’s name was changed to SNB.

The former CEO of Stevens Financial Group was         Accountant Pleads Guilty to Bank Fraud
found guilty of conspiring to commit bank fraud.      On May 17, 2004, a certified public accountant
Through his company, Stevens Financial Group,         of North Mankato, Minnesota, pleaded guilty to
he sold over $15 million worth of sub-prime           bank fraud, mail fraud, and two counts of theft
loans to SNB. He was found guilty of conspiracy       from employee pension plans. The losses attrib-
with the defendant’s ex-husband to defraud SNB        uted to the defendant’s schemes totaled over
in the purchase of these sub-prime loans.             $3 million. On August 28, 2004, prior to sentenc-
                                                      ing, the defendant died.
On September 7, 2001, after only 18 months
under new ownership, the OCC closed SNB,              The indictment that led to the defendant’s even-
and the FDIC was named receiver. SNB’s failure        tual guilty plea charged him with 26 counts of
caused a loss of approximately $4.5 million to        mail fraud, bank fraud, making false statements,
the Bank Insurance Fund.                              counterfeiting a security, pension plan theft, falsi-
                                                      fication of pension plan records, and bankruptcy
On September 24, 2004, after a 2-week trial in a      fraud in connection with a $7 million Ponzi
State Court in Harrisonville, Missouri, a jury        scheme and a $1.6 million bank fraud scheme.
also found the former CEO of Stevens Financial
Group guilty on five felony counts of making          The defendant’s actions resulted in more than
false and misleading statements to the Missouri       $1 million in losses for individuals and busi-
Division of Securities. Stevens was found not         nesses and more than $980,000 in losses for three
guilty on six counts of Missouri securities fraud.    financial institutions. Those institutions include
                                                      Northern Star Bank in Mankato, of which he was
The State Court convictions arose from the            a founder; Merchants State Bank of Lewisville,
fraudulent submission of documents to the State       which the indictment claims was forced to sell its
of Missouri Secretary of State’s Office by the for-   assets to Farmers State Bank of Madelia because
mer Stevens Financial Group CEO. These fraud-         of the defendant’s unpaid loans; and Americana
ulent documents were used to artificially inflate     Community Bank in Chanhassen.
the true net worth of the company. In order to
accumulate cash, the defendant sold “time certifi-    The defendant started the Ponzi scheme some-
cates” that raised approximately $100 million         time before January 1, 1999, by enticing individ-
from investors in Missouri. The sales of the secu-    uals and organizations to invest millions of
rities were structured to avoid federal securities    dollars with him by promising their investments

                                                                                 Investigations—Making an Impact 35
        would be safe and claiming they would receive a        The sentence was a result of the defendant’s
        high rate of return. According to the indictment,      guilty plea to one count of making false state-
        the defendant invested only about 30 percent of        ments to a financial institution and one count of
        the money he received from the investors. The          making false entries in the books and records of
        majority of the funds were used by the defendant       a financial institution. The defendant was
        for his personal benefit in order to pay personal      indicted in August 2003 and charged with
        lines of credit and to make lulling payments to        defrauding the Farmers Bank & Trust.
        other investors. The defendant lulled investors
        into believing their investment funds had been         In his guilty plea, the defendant admitted that he
        invested by making payments to the defrauded           defrauded the bank by making false entries and
        investors from funds obtained from other               statements on at least 24 loans and financial state-
        investors and by providing the defrauded               ments. He also admitted to forging documenta-
        investors with statements that purported to show       tion that falsely represented that these loans were
        the status of their account and the purported rate     secured by Farm Service Agency guarantees. In
        of return the investor obtained.                       addition, he made false entries into records of the
                                                               bank that misrepresented borrowers’ total indebt-
        In addition to defrauding investors, the defen-        edness to the bank. To prevent this bank fraud
        dant also fraudulently obtained more than              and other illegal practices from being detected by
        $1.6 million from financial institutions, includ-      an audit conducted by the Louisiana Office of
        ing Northern Star Bank, where he was a director        Financial Institutions and the FDIC, the defen-
        and officer. He misstated his assets and liabilities   dant made additional false entries in the bank’s
        and substantially overstated his net worth in          records. He also falsely applied a portion of all of
        order to obtain loans, which he used to further        a borrower’s indebtedness to nominee loans.
        his Ponzi scheme. Financial institutions suffered      These and other actions were taken to conceal
        losses in excess of $980,000.                          both the borrowers’ total indebtedness and pay-
                                                               ment delinquencies from the bank board, the
        The defendant also pleaded guilty to stealing          FDIC, and the state bank examiner.
        from two pension plans. He admitted to steal-
        ing approximately $100,000 from Catalytic              As a result of the defendant’s actions, the bank
        Combustion Corporation, of Bloomer, Wiscon-            suffered a loss of over $6 million. On December
        sin, in which he was a 40 percent minority             17, 2002, Farmers Bank & Trust was closed by
        shareholder and chief financial officer, and           bank regulators.
        approximately $750,000 from a Mankato archi-
        tectural firm.                                         This case was investigated jointly by the FDIC
                                                               OIG and the FBI, and is being prosecuted by the
        This case was investigated jointly by the FDIC         U.S. Attorney’s Office for the Western District of
        OIG, the FBI, and the U.S. Department of               Louisiana.
        Labor’s Employee Benefits Security Administra-
        tion, and was prosecuted by the U.S. Attorney’s
        Office for the District of Minnesota.                  Two Former Car Dealers Ordered to Pay
                                                               $16 Million in Restitution to the FDIC
                                                               During this reporting period, two former car
        Former President of Farmers Bank & Trust               dealers from Ohio were sentenced for their role
        Sentenced for Bank Fraud                               in a check-kiting scheme that preceded the fail-
        On April 7, 2004, the former president of              ure of Oakwood Deposit Bank Company
        Farmers Bank & Trust, Cheneyville, Louisiana,          (Oakwood), Oakwood, Ohio. On September 10,
        was sentenced in the U.S. District Court for the       2004, one of the former car dealers was sentenced
        Western District of Louisiana to 78 months in          to 78 months’ incarceration with 3 years’ super-
        prison and 5 years’ supervised release; he was         vised release and ordered to pay more than
        also ordered to pay restitution in the amount of       $8 million in restitution to the FDIC. Following
        $12,970,555 to the FDIC.                               a 3-day trial in May 2004, the defendant was


36 SEMIANNUAL REPORT TO THE CONGRESS
convicted of conspiracy to commit bank fraud           to SouthTrust Bank, Beaumont, Texas. The sen-
and bank fraud.                                        tencing followed his prior plea agreement in
                                                       April 2004 to a one-count information charging
On August 23, 2004, the second former car              him with bank fraud while selling used cars at
dealer was sentenced to 60 months’ incarceration       several area locations.
with 3 years’ supervised release and was ordered
to pay more than $8 million in restitution to the      According to the plea agreement, the defendant
FDIC. His sentence was the result of his Decem-        acknowledged that his participation in a check-
ber 2003 guilty plea to conspiracy to commit           kiting scheme had caused over $3.37 million in
bank fraud and bank fraud.                             losses to Mauriceville National Bank. He also
                                                       defrauded SouthTrust Bank, with whom he had
The two former car dealers were earlier indicted       a line of credit and a wholesale floor plan agree-
for conspiracy and bank fraud. The charges             ment. Our investigation determined that he
arose as a result of the check-kiting scheme in        sold or otherwise disposed of vehicles without
which they engaged during calendar year 2001.          accounting to the bank for the proceeds, assign-
A check-kite is a fraudulent scheme in which a         ments, and endorsements resulting from the
bank customer uses the time it takes to clear          disposition of the vehicles. The defendant’s
checks to create artificially high balances of non-    fraudulent scheme caused a loss to SouthTrust
existent funds through a systemic exchange of          Bank of approximately $350,000, which he then
checks among accounts when, in reality, actual         converted to his personal benefit.
funds do not exist. The indictment charged that
the defendants kited checks between accounts           The defendant’s plea agreement was negotiated
maintained by one of the defendants at Liberty         by the U.S. Attorney’s Office in connection with
National Bank and the other defendant at the           our ongoing investigation into a scheme to
now defunct Oakwood. Losses to Oakwood due             defraud multiple FDIC-insured institutions.
to the kite were in excess of $11 million.
                                                       The case is being investigated jointly by the
It was the initial investigation into the check-kite   FDIC OIG and the FBI, and is being prosecuted
that led to the confession by Oakwood’s former         by the U.S. Attorney’s Office for the Eastern Dis-
president of embezzling over $40 million result-       trict of Texas.
ing in the subsequent failure of the 99-year old
Oakwood Deposit Bank Company. Oakwood’s
                                                       Commercial Contractor Sentenced for
former president pleaded guilty to embezzle-
                                                       Conspiring to Commit Bank Fraud
ment and money laundering in May 2003 and is           On August 17, 2004, a commercial contractor
currently serving a 14-year jail term.                 was sentenced in the District of Minnesota
                                                       to serve 24 months in prison, followed by
The kite investigation was conducted jointly by        36 months of supervised release after earlier
the FDIC OIG and the FBI. Prosecution was              pleading guilty to conspiracy to commit bank
handled by the U.S. Attorney’s Office for the          fraud. The defendant was also ordered to pay
Northern District of Ohio (Western Division).          $670,930 in restitution to the FDIC.

Former Used Car Salesman Ordered                       The defendant was a commercial contractor
to Pay $3.7 Million after Pleading Guilty              whose company, Riverwoods Development
to Bank Fraud                                          Corporation, was a customer of the former
On August 18, 2004, a former used car salesman         Town & Country Bank of Almelund, Almelund,
doing business as McDorman Motors in Vidor,            Minnesota. On April 8, 2003, a federal grand
Texas, was sentenced in the U.S. District Court        jury indicted the defendant and the bank’s for-
for the Eastern District of Texas to 33 months’        mer president on eight counts relating to bank
imprisonment and ordered to pay $3.37 million          fraud, money laundering, making false entries
in restitution to Mauriceville National Bank,          in the bank’s records, and conspiracy. On
Mauriceville, Texas, and $350,000 in restitution       August 11, 2003, the federal grand jury returned


                                                                                 Investigations—Making an Impact 37
        a superceding indictment that added two counts        the U.S. Attorney’s Office for the District of
        of false bank entries and one count of money          Minnesota.
        laundering.
                                                              Former Hawkeye State Bank Officer Pleads
        Specifically, the indictment alleged that the
                                                              Guilty to $4.9 Million Embezzlement
        defendants acted in close association with each
                                                              On August 4, 2004, the former president and
        other to:
                                                              CEO of Hawkeye State Bank, Iowa City, Iowa,
                                                              pleaded guilty in the U.S. District Court for the
        ■   Use the bank as a private source of money,
                                                              Southern District of Iowa to a two-count bill of
                                                              information charging him with misapplication
        ■   Make loans that exceeded legal lending limits,
                                                              of funds by a bank officer and with engaging in
                                                              monetary transactions in property derived from
        ■   Improperly use overdrawn accounts as a tem-
                                                              specified unlawful activity.
            porary extension of credit,
                                                              As a result of the investigation, the defendant
        ■   Conceal the true purpose of the loans by
                                                              paid over $508,000 in restitution to Hawkeye
            using nominee borrowers,
                                                                                State Bank. The funds included
                                                                                the proceeds from the sale of a
        ■   Forge signatures,
                                              “I think for the South-           lakefront vacation property in
                                                                                Lake of the Ozarks, Missouri, as
        ■   Prepare false loan docu-          ern District of Iowa,             well as proceeds from the sale of
            ments, and
                                              this is a significant             jet skis for $10,000. The bill of
                                                                                information specifically
        ■   Falsely report loans as being     white-collar crime                charged the activity of May 20,
            repaid.
                                              and a defendant that              2002, in which the defendant
                                                                                deposited a $525,000 cashier’s
        The above acts resulted in the        will serve a significant          check from a fraudulent loan
        failure of the bank in July 2000
        when the State of Minnesota           amount of time in                 into his personal savings
                                                                                account. On or about June 7,
        declared the bank insolvent and       prison for that crime.”           2002, a cashier’s check drawn
        appointed the FDIC as receiver.
                                                      The U.S. Attorney         on the defendant’s account was
        The failure of Town & Country
                                                       for the Southern         used to purchase the vacation
        resulted in an estimated loss of
                                                        District of Iowa        property and was the basis for
        $3.4 million to the FDIC Bank
                                                                                the money laundering charge.
        Insurance Fund.
                                                              The prosecution of the defendant was handled by
        A third subject, the former bookkeeper of River-
                                                              the U.S. Attorney’s Office for the Southern Dis-
        woods Development Corporation, was sen-
                                                              trict of Iowa and was based upon an investigation
        tenced on August 11, 2004, after earlier pleading
                                                              conducted jointly by the FDIC OIG and the FBI.
        guilty to bank fraud for his role in the scheme.
        He was sentenced to 5 years’ probation and
        ordered to pay $41,187 in restitution to the          Judicial Action Taken Against Two
        FDIC. The former bookkeeper received a                Customers of the Failed Bank of Falkner
        downward departure from the federal sentenc-          As part of an ongoing investigation into the
        ing guidelines as a result of his cooperation         September 2000 failure of the Bank of Falkner
        with federal law enforcement in the investiga-        (Falkner), Falkner, Mississippi, a Corinth,
        tion, which helped lead to the guilty pleas           Mississippi, businessman was indicted in the
        of the commercial contractor and the bank’s           U.S. District Court for the Northern District of
        former president.                                     Mississippi on June 24, 2004.

        This case was investigated by the FDIC OIG,           The indictment charged the defendant with
        the FBI, and the IRS-CI, and was prosecuted by        19 counts of making payments to the former

38 SEMIANNUAL REPORT TO THE CONGRESS
Falkner CEO in exchange for a loan to purchase a      The prosecution of this investigation is being
large parcel of land in Alcorn County, Mississippi.   handled by the U.S. Attorney’s Office for the
According to the terms of their agreement, the        Northern District of Mississippi and was based
defendant paid the former CEO one-half of the         on an investigation conducted jointly by the
proceeds from the sale of any tract of the subject    FDIC OIG and the FBI; this investigation was
parcel; the 19 payments totaled $224,500. All but     initiated to examine the circumstances leading
one of the payments were deposited into the           to the bank’s failure in September 2000.
bank account of the former CEO’s wife. The
alleged illegal activity occurred between October     Former Loan Officer Sentenced for
1996 and August 2000. This defendant was the          Misapplication of Bank Funds and False
fourth person charged to date in the case.            Statements and Barred from Working in an
                                                      FDIC-Insured Institution
Also during this reporting period, on June 17,        On April 30, 2004, a former loan officer of Citi-
2004, the owner of Blackton Equipment Com-            zens First Bank, Rome, Georgia, was sentenced in
pany (Blackton), Walnut, Mississippi, pleaded         the Northern District of Georgia to 37 months’
guilty to the indictment filed against him in the     incarceration with 5 years of supervised release
U. S. District Court for the Northern District of     and was ordered to pay $595,934 in restitution
Mississippi in April 2004. The indictment             to Citizens First Bank. The prosecutor also made
charged the defendant with one count of causing       it clear on the record that the defendant would
false entries to be made in the books and records     be barred from working in an FDIC-insured
of Falkner. The owner of Blackton was arrested        institution and that the defendant would agree
by agents of the FDIC OIG and FBI on May 6,           to execute any documents addressing that issue.
2004. The indictment to which this defendant
pleaded guilty alleged that he, aided and abetted     As previously reported, the defendant pleaded
by the former Falkner CEO, received a nominee         guilty on February 6, 2004, to a two-count infor-
loan in the name of one of his employees after        mation charging him with misapplication of
the former CEO had been prohibited by FDIC            bank funds and false statements. In late 1999,
examiners from advancing any more money to            while serving as a loan officer at Citizens First
the defendant or his business. The defendant          Bank, the defendant misapplied approximately
received advances totaling $86,531 on the loan.       $300,000 in funds from the line of credit of a
                                                      bank customer to the operating account of
As we previously reported, Falkner’s former CEO       another bank customer. During the same period,
was sentenced following his plea of guilty in         he made a false entry into the records of Citizens
October 2002 to two counts of making false            First Bank by creating a fictitious customer and a
entries in the books and records of the bank with     related $800,000 line of credit. The defendant
the “intent to deceive the FDIC and its agents and    continued his scheme of misapplying funds from
examiners” and one count of money laundering.         other customer accounts as well as from ficti-
One of the counts was based on a scheme               tious accounts to a specific bank customer and at
through which he issued $4,824,660 in nominee         one point exposed the bank to over $7 million in
loans to certain bank customers who were above        uncollateralized outstanding loans. Eventually
their legal lending limits. Another count involved    the customer, who claimed no knowledge of the
a scheme where he caused a bank employee to           defendant’s unauthorized actions, worked with
record advances of $3,642,686 on existing loans       bank officials to collateralize or otherwise pay off
and to misapply those advances to other cus-          his outstanding debt. The defendant made other
tomers’ accounts in order to conceal overdrafts       unauthorized loans that ultimately caused a loss
from the FDIC examiners. The money launder-           to the bank, resulting in the ordered restitution.
ing charge to which he pleaded guilty was based
on his helping a bank customer disguise the           The investigation was conducted jointly by the
nature, location, source, and ownership of            FDIC OIG and the FBI, and was prosecuted
$1,709,497 another customer had on deposit            by the U.S. Attorney’s Office for the Northern
with the bank.                                        District of Georgia.

                                                                                Investigations—Making an Impact 39
        Bank Customer at First State Bank of                  New York. The defendant’s brother, who was a
        Harrah Sentenced for Bank Fraud                       co-owner of the company, had also agreed to
        On September 9, 2004, a bank customer at the          plead guilty in the case but passed away prior to
        First State Bank of Harrah (FSBH), Harrah,            entering his plea. The two brothers had previ-
        Oklahoma, was sentenced in the United States          ously been indicted by a federal grand jury in the
        District Court for the Western District of Okla-      Southern District of New York on charges of
        homa. He was sentenced to 30 months’ incarcer-        defrauding and conspiring to defraud the former
        ation with 3 years’ supervised release. Restitution   First New York. The FDIC was appointed to act
        has not yet been ordered for the defendant.           as the receiver for the First New York following
                                                              its closure by the State of New York Banking
                                                              Department in November 1992.
        As previously reported, a jury found the defen-
        dant guilty in December 2003 on all counts of an
                                                              As alleged in the indictment, beginning in
        indictment charging him with aiding and abet-
                                                              March 1990 the defendants entered into a series
        ting, conspiracy, and bank fraud against FSBH.
                                                              of loan agreements, guarantees, and promissory
                                                              notes on behalf of their company with First New
        The indictment charged that from September            York. In 1992, the defendants acknowledged they
        1997 through December 1998 the defendant              had defaulted on the loans and entered into
        conspired with a former executive vice president      repayment agreements with First New York in
        of FSBH to defraud FSBH by creating a series of       which, among other things, they agreed to repay
        fraudulent nominee loans. The defendant               the loans by granting First New York the right to
        recruited nominee borrowers to obtain loans. The      clear all payments made by the company’s cus-
        loan proceeds from this scheme totaled $800,000       tomers. The defendants also agreed to direct all
        and were intended to benefit the defendant.           present and future customers to make their pay-
                                                              ments directly to First New York.
        In August 2002, the former executive vice presi-
        dent of FSBH, who participated in the scheme,         However, unbeknownst to First New York,
        was sentenced in the U.S. District Court for the      between July 1992 and August 1995, the defen-
        Western District of Oklahoma to 5 years’ proba-       dants deposited accounts-receivable payments
        tion, 180 days’ home incarceration, 208 hours of      owed to First New York pursuant to the agree-
        community service, and was ordered to pay             ments into an account they had set up at another
        restitution in the amount of $3,529,500.              bank. The indictment also alleged that, in fur-
                                                              therance of their scheme, they formed a series of
        The investigation of the activities involving         shell companies, which they used to falsely hide
        FSBH was conducted jointly by the FDIC OIG            business activities between the company and its
        and the FBI. The case was prosecuted by the U.S.      customers, thereby circumventing the repay-
        Attorney’s Office, Western District of Oklahoma.      ment agreement with First New York.

                                                              The OIG initiated this investigation based on a
        Fraud by FDIC Debtors                                 referral from the FDIC Legal Division, which
                                                              became aware of questionable transfers during
        Owner of Company that Owed Over                       the discovery phase of civil litigation with the
        $3 Million to the Former First New York               company over its debt.
        Bank for Business Pleads Guilty to
        Conspiracy to Commit Bank Fraud
        On April 21, 2004, one of the owners of a com-        Misrepresentations Regarding
        pany that had borrowed over $5 million from           FDIC Insurance or Affiliation
        the now-defunct First New York Bank for Busi-
        ness (First New York) pleaded guilty to conspir-      San Clemente Securities, Inc. Brokers
        acy to commit bank fraud in relation to his           Plead Guilty
        actions to divert money from the former First         During this semiannual reporting period, three
        New York and the FDIC as Receiver for First           former San Clemente Securities, Inc. (SCS) bro-


40 SEMIANNUAL REPORT TO THE CONGRESS
kers pleaded guilty in the U.S. District Court for   obstruction of an examination of a financial
the Northern District of Texas, Dallas, Texas.       institution. This defendant had been indicted in
                                                     March 2004, along with the two co-owners of
Two of the former SCS brokers each pleaded           SCS and UCC and the former president of Her-
guilty to one count of misprision of a felony for    itage Savings Bank (Heritage), Terrell, Texas.
their knowledge and concealment of the alleged
felonies committed by the other parties indicted     During July and August of 1998, the Office of
in this on-going investigation. In August 2003,      Thrift Supervision (OTS) conducted an exami-
an 80-count superseding indictment was               nation of Terrell Federal Savings and Loan, the
returned against the two defendants and against      name of which was later changed to Heritage.
the two co-owners of SCS and United Custodial        During the examination, the former president
Corporation (UCC), located in San Clemente,          was asked by the OTS to confirm liquidation val-
California. The 80-count superseding indict-         ues of the nine zero-coupon CDs he had pur-
ment charged all defendants with conspiracy,         chased from the defendant through SCS. The
false bank entries, false statements, mail fraud,    defendant prepared a spread-sheet purporting to
wire fraud, bank fraud, securities fraud, and        represent present liquidation values for the CDs.
investment advisor fraud.                            The defendant admitted he knew the values rep-
                                                     resented on the spread-sheet did not disclose or
As alleged in the indictment, the defendants         reflect the amounts of premiums that had been
schemed to defraud various financial institu-        deducted by SCS from the amounts paid for the
tions and individual investors by inducing them      assets by Heritage. The defendant admitted that
to enter into investment contracts in order to       he was aware that the former president intended
purchase certificates of deposit (CDs) and other     to communicate the stated values he was pro-
securities issued by the Federal Home Loan           vided to the OTS.
Mortgage Corporation and the Federal National
Mortgage Association, which would be held and        Sentencing for the three former SCS brokers
managed for investors by UCC.                        has been delayed pending their cooperation
                                                     with the prosecution of the co-owners of SCS
As part of their scheme, the defendants falsely      and UCC.
and fraudulently failed to advise investors that
SCS and UCC would subtract undisclosed fees          The case is being investigated by the FDIC OIG
and commissions from the amount invested.            and the FBI and is being prosecuted by the U.S.
The defendants also made false representations       Attorney’s Office for the Northern District of
regarding FDIC insurance coverage of the CDs.        Texas. The investigation was initiated based on a
The investment confirmations and statements          referral from DSC.
sent to investors were false and intentionally
misleading, and money paid to investors when
they liquidated an investment prior to maturity
was actually money funded by another invest-
                                                     Employee Activities
ment or by other persons. The investors had          Former DSC Examiner Sentenced
no ownership in any investment which would           On September 10, 2004, a former DSC examiner
be purchased in UCC’s name. In addition, in          was sentenced to 5 years’ supervised release and
1997, SCS, along with its co-owners, had been        was ordered to pay restitution in the amount of
banned by the National Credit Union Adminis-         $24,775. The restitution will be paid directly to
tration from doing business with federally           the Homecomings Financial Mortgage Com-
insured credit unions because of their deceptive     pany, Minneapolis, Minnesota. The sentencing
practices.                                           followed the defendant’s plea of guilty in June
                                                     2004 to a one-count bill of information charg-
On May 3, 2004, the third former SCS broker          ing her with wire fraud. The defendant filed a
pleaded guilty to aiding and abetting the            false application for a home mortgage, in which


                                                                              Investigations—Making an Impact 41
                                       Electronic Crimes Team Joins Other Law Enforcement Groups
                                                   to Investigate Identity Theft Schemes

                 The OIG Electronic Crimes Team investigates unauthorized computer intrusions and
                 computer-related fraud impacting FDIC operations and provides computer forensic sup-
                 port to OIG investigations nationwide. During the reporting period, the Electronic Crimes
                 Team dedicated substantial resources to a multi-agency task force comprised of FBI, U.S.
                 Secret Service, the U.S. Postal Inspection Service, and foreign law enforcement. The task
                                                                     force is investigating a global identity
                                                                     theft case involving an electronic
                 E-mail Allegedly Sent from the FDIC                 scheme known as phishing.
 To whom it may concern:
                                                                                        “Phishing” is pronounced “fishing” as
 In cooperation with the Department of Homeland Security, Federal, State and
 Local Governments your account has been denied insurance from the Federal              in “fishing for your credit card infor-
 Deposit Insurance Corporation due to suspected violations of the Patriot Act.          mation.” The term is a slang combina-
 While we have only a limited amount of evidence gathered on your account at this       tion of “phony” and “fishing.”
 time it is enough to suspect that currency violations may have occurred in your
                                                                                        Phishing involves sending an
 account and due to this activity we have withdrawn Federal Deposit Insurance on
 your account until we verify that your account has not been used in a violation of     e-mail to a user and falsely claiming to
 the Patriot Act.                                                                       be an established legitimate enterprise
 As a result Department Of Homeland Security Tom Ridge has advised the Federal
                                                                                        in an attempt to scam the user into sur-
 Deposit Insurance Corporation to suspend all deposit insurance on your account         rendering private information that will
 until such time as we can verify your identity and your account information.           be used for identity theft. The e-mail
 Please verify through our IDVerify below. This information will be checked             directs the user to visit a Web site
 against a federal government database for identity verification. This only takes up    where the user is asked to update per-
 to a minute and when we have verified your identity you will be notified of said       sonal information, such as passwords
 verification and all suspensions of insurance on your account will be lifted.          and credit card, social security, and
 http://www.fdic.gov/idverify/cqi-bin/index.htm                                         bank account numbers, that the legiti-
 Failure to use IDVerify below will cause all insurance for your accounts to be ter-    mate organization already has. The
 minated and all records of your account history will be sent to the Federal Bureau     Web site, however, is bogus and has
 of Investigation in Washington D.C. for analysis and verification. Failure to pro-     been set up only to steal the user’s
 vide proper identity may also result in a visit from Local, State or Federal Govern-   information.
 ment or Homeland Security Officials.

 Thank you for your time and consideration in this matter.          Phishing schemes often use a tech-
                                               Donald E. Powell     nique known as “spoofing” to fool the
                                               Chairman Emeritus FDIC
                                               John D. Hawke, Jr.
                                                                    recipients of the message into believ-
                                                                    ing that the message came from a legit-
                                               Comptroller of the Currency
                                               Michael E. Bartell
                                                                    imate source. Internet protocol
                                               Chief Information Officer
                                                                    spoofing involves trickery to make a
                                                                    message appear as if it came from an
                 authorized internet protocol address. E-mail spoofing is forging an e-mail header to make
                 it appear as if it came from somewhere or someone other than the actual source.

                 The OIG’s Electronic Crimes Team investigation into what has become a global identity
                 theft case was initiated after the FDIC’s external Web site was “spoofed” and the FDIC
                 name was fraudulently used in the e-mail above, designed to trick recipients into provid-
                 ing their personal data.

                 The Electronic Crimes Team is continuing to work with the joint task force in attempting to
                 identify and bring to justice those responsible for this and other related phishing scams
                 that continue to victimize innocent individuals.




42 SEMIANNUAL REPORT TO THE CONGRESS
she overstated her assets and income and failed
to reveal a federal and state tax liability of
approximately $150,000 on her application. The
mortgage company, not an insured institution,
subsequently foreclosed on the property at a loss
of $40,000.

The defendant was a certified bank examiner for
13 years with the FDIC in Albany, Georgia, and
resigned from her position in June 2004.

The case was investigated as a result of informa-
tion provided by the FDIC’s DSC. The case was
prosecuted by the U.S. Attorney’s Office for the
Middle District of Georgia.
                                                        L to R: Mick Randall, Detective Inspector, NHTCU; Lance Endy,
                                                        Special Agent, FDIC OIG; Gary Wilson, Data Recovery Officer,
FDIC Employee Receives 30-Day                           NHTCU; Jay Chappell, Assistant Special Agent in Charge, FDIC OIG.
Suspension for Inappropriate Use
of Computer
Based on a referral from the FDIC, the Electronic       Assistant Inspector General for
Crimes Team conducted an investigation into             Investigations Participates in Institute
allegations that an FDIC employee had utilized          of Internal Auditors Conference
his FDIC laptop computer to access and down-            Assistant Inspector General for Investigations
load pornographic images, including possible            Sam Holland participated in a panel at the
child pornographic images. The Electronic               2004 Conference on Fraud & Ethics sponsored
Crimes Team’s analysis of the employee’s com-           by the Institute of Internal Auditors in Chicago.
puter hard drive confirmed that the employee had        The topic of the panel discussion was “Govern-
downloaded numerous pornographic images.                ment Auditing: An Investigative Approach.”
None of the images were found to constitute child       Mr. Holland addressed approaches to investigat-
pornography. Analysis of the employee’s Internet        ing fraud and the impact of recent legislation on
history files indicated that the employee had           the investigative process. Other panelists included
made extensive visits to sexually oriented Web          the Chief of Investigation/Assistant Auditor for
sites. Based on the results of the investigation, the   Austin, Texas, and the Chief Internal Auditor of
FDIC suspended the employee for 30 days.                the Illinois Office of Internal Audit.


Other Highlights
OIG Special Agents of the Electronic
Crimes Team Travel to the United Kingdom
to Assist the National Hi-Tech Crime Unit
OIG Special Agents of the Electronic Crimes
Team were requested by the FBI to travel to the
United Kingdom to assist the National Hi-Tech
Crime Unit (NHTCU), a multi-agency United
Kingdom law enforcement organization pursuing
perpetrators of e-mail phishing criminal activity.

The following photo is taken from the 16th floor
terrace outside NHTCU headquarters in Lon-
don, England. The Millennium Dome can be
seen in the background.

                                                                                   Investigations—Making an Impact 43
            Office of Investigations’ Peer Review                  those who had contributed to the success of these
            Activities                                             prosecutions. Special Agent J. Kenneth Meyd
            The FDIC OIG was among 25 Offices of Inspector         from the OIG Office of Investigations was among
            General that were granted statutory law enforce-       the honorees at the ceremony. Special Agent
            ment authority with the passage of the Homeland        Meyd was commended for his great efforts and
            Security Act of 2002. The OIGs granted law             skillful detective work in proving that a Hartford,
            enforcement authority under that Act are required      Connecticut, businessman owed the FDIC
            to participate in a peer review program in which       $2.7 million in criminal restitution and had hid-
            the investigative operations of the covered OIGs       den his assets from the U.S. Probation Office and
            are subject to periodic qualitative assessment         the FDIC. It was noted at the presentation that
            reviews of one another. The overall objective of       Special Agent Meyd was able to prove that the
            these reviews is to determine whether internal         businessman was living the high life by conduct-
            control systems are in place and operating effec-      ing profitable business ventures in the name of
            tively to provide reasonable assurance that profes-    his girlfriend and was using closely-held business
            sional investigative standards are being followed.     entities to pay for his personal expenses. The girl-
            Following a schedule provided by the President’s       friend, who failed to cooperate with the investi-
            Council on Integrity and Efficiency, staff from OI’s   gation despite being given the opportunity to do
            Special Inquiries and Oversight Group conducted        so, was indicted along with the businessman and
            its first quality assessment review this period with   in December 2003 was sentenced to prison.
            a review of the General Services Administration’s
            (GSA) Office of Investigations. The results of the     Samuel Holland Named Service to America
            review were reported to the Inspector General of       Medal Finalist
            GSA and the Attorney General. The FDIC OIG is          Assistant Inspector General for Investigations
            scheduled for review by the Treasury OIG in the        Samuel Holland was named as a finalist in the
            second quarter of fiscal year 2006.

            OIG Special Agent Honored at U.S.
            Attorney’s Office Awards Ceremony
            On June 14, 2004, the U.S. Attorney’s Office,
            District of Connecticut, held its seventh annual
            awards presentation in New Haven, Connecticut.
            The purpose of the ceremony was to acknowl-
            edge a select number of significant prosecutions
            adjudicated during the past year and to honor




Ken Meyd (R) is honored for his work.                              © Sam Kittner/kittner.com


44 SEMIANNUAL REPORT TO THE CONGRESS
Justice and Law Enforcement category of the       and enhances the lives of over 2,000 local chil-
Service to America Medal Program. This            dren and adults with developmental disabili-
medal program is cosponsored by the Atlantic      ties. Funds generated from the project
Media Company and the Partnership for             underwrite the cost of the annual Special
Public Service. The program recognizes the        Olympics Summer Games.
outstanding accomplishments of America’s
public servants. Mr. Holland was nominated
for his pioneering efforts in holding financial
industry executives accountable and deterring
fraudulent activity that undermines public
confidence in the nation’s financial system.
Mr. Holland has given top priority to bring-
ing to justice bank executives and insiders
whose fraud schemes have significantly harmed
or brought about the collapse of financial
institutions. Mr. Holland’s efforts in leading
this initiative have resulted in major prose-
cutorial successes, with harsh sanctions
for the offenders, sending an important
message to others tempted to defraud our
nation’s banks.

OIG Special Agents Participate in
19th Annual Law Enforcement Torch Run
OI staff participated in the 19th annual Law
Enforcement Torch Run/Walk to benefit the
D.C. Special Olympics. The Law Enforcement
Torch Run for Special Olympics is organized
and conducted by over 40 federal and local law
enforcement agencies. This annual project         Back row, L to R: Karl Berberich, Michael Eaton,
                                                  Christine Griffin, Joan Dwyer. Front row, L to R, Matt
helps unify the law enforcement community         Alessandrino, Mike Rexrode, and Melisa Baca.




                                                                                Investigations—Making an Impact 45
                                                      OIG Organization—
                                                      Pursuing OIG Goals

        Our office continued to aggressively pursue our         ■   Conducted investigations that resulted in
        four main OIG goals and related objectives dur-             9 indictments/informations; 15 convictions;
        ing the reporting period. These goals and objec-            and approximately $38.6 million in total fines,
        tives form the blueprint for our work. While the            restitution, and other monetary recoveries.
        audit, evaluation, and investigative work described
        in the earlier sections of this report drives our       ■   Performed 29 policy analyses on proposed
        organization and contributes very fundamentally             FDIC directives or proposed revisions to
        to the accomplishment of our goals, a number of             directives. We raised two policy issues regard-
        other activities and initiatives complement and             ing security of leased space and the disposi-
        support these efforts and enhance the achieve-              tion of corporate-owned property, and the
        ment of our goals. Some examples follow.                    FDIC accepted our suggestions. We also
                                                                    offered suggestions to strengthen or clarify all
        Value and Impact: OIG products will add value by            the draft policies.
        achieving significant impact related to addressing
        issues of importance to the Chairman, the Congress,     ■   Testified at a hearing on Bank Secrecy Act
        and the public. This goal means that we contribute          (BSA) Compliance and Enforcement before
        to ensuring the protection of insured depositors,           the Senate Committee on Banking, Housing,
        safety and soundness of FDIC-supervised institu-            and Urban Affairs. IG Gianni presented a his-
        tions, protection of consumer rights, achievement           torical perspective on the BSA and discussed
        of recovery to creditors of receiverships, and effec-       the BSA-related work the FDIC OIG has con-
        tive management of agency resources. Efforts in             ducted over the past several years. He offered
        support of this goal and related objectives include         views on the challenges that the Congress and
        the following:                                              the financial regulators face going forward in
                                                                    anti-terrorist and anti-money laundering
        ■   Issued 31 audit and evaluation reports con-             activities.
            taining $52.1 million in potential monetary
            benefits and 86 nonmonetary recommenda-             ■   Participated in an advisory capacity at
            tions. As discussed earlier in this report, these       meetings of the Audit Committee’s Infor-
            reports address the management and per-                 mation Technology Security Subcommittee,
            formance challenges facing the Corporation.             Chief Information Officer Council, and
            We brought these reports before the FDIC                the Division of Information Resources
            Audit Committee to keep members informed                Management (DIRM) Transformation Advi-
            of OIG results and recommended actions.                 sory Group.

46 SEMIANNUAL REPORT TO THE CONGRESS
■   Provided a copy of our audit report entitled      ■   Coordinated with DIRM and agency officials
    Supervisory Actions Taken for Bank Secrecy Act        to establish appropriate processes in address-
    Violations to the Honorable Sue Kelly, Chair-         ing cyber crimes, including computer intru-
    woman, Subcommittee on Oversight and                  sion, phishing and spoofing schemes, as well
    Investigations, Committee on Financial Ser-           as investigations of computer misuse by FDIC
    vices, U.S. House of Representatives. We initi-       employees and contractors.
    ated our audit as a result of discussions with
    Subcommittee staff. The report presents the       ■   Entered into a joint memorandum of under-
    results of our audit of the process established       standing with the Division of Resolutions and
    by the Division of Supervision and Consumer           Receiverships and the Legal Division regarding
    Protection (DSC) for ensuring that corrective         post-indictment inter-agency communications.
    actions are taken by bank management to
    address violations of the BSA of 1970.            ■   Worked with FDIC officials on developing
                                                          procedures for preserving electronic media at
■   Participated in a panel at the Office of Enter-       bank closings.
    prise Risk Management conference, The Art
    of Project Management. One of our Deputy          ■   Attended and provided feedback to pilot pro-
    Assistant Inspectors General for Audits               grams of the Corporate University.
    shared our office’s perspective on themes and
    issues we have identified in evaluating key       ■   Met with members of the FDIC’s Labor and
    corporate projects. He also commented on              Employee Relations section to discuss emerg-
    the progress we have seen in the Corpora-             ing personnel issues.
    tion’s establishment of control structures for
    monitoring the cost, schedule, and outcomes
                                                      ■   Briefed Office of Management and Budget
    of such projects.
                                                          (OMB) representatives on BSA and USA
                                                          PATRIOT Act roles and responsibilities, related
■   Met with staff from the Senate Banking,
                                                          regulatory requirements, and prior OIG audits
    Housing, and Urban Affairs Committee to
                                                          and Congressional testimony. The OMB repre-
    discuss the OIG’s Assignment Plan for 2005
                                                          sentatives were interested in interaction
    and ongoing and recently completed work.
    The Congressional staff members expressed             between the FDIC and the Department of the
    particular interest in the BSA and related            Treasury’s Financial Crimes Enforcement Net-
    anti-money laundering and anti-terrorist              work on violations identified in the course of
    financing activities. We discussed our com-           examinations.
    pleted work related to BSA and the USA
    PATRIOT Act. The Committee also inquired          ■   Provided written comments to the Appraisal
    about the relationship between the Sarbanes-          Standards Board related to proposed revisions
    Oxley Act and other statutory and regulatory          to the Uniform Standards of Professional
    requirements related to BSA.                          Appraisal Practice.

■   Issued our Office of Audits Assignment Plan—      ■   Made presentations on government auditing
    Fiscal Year 2005 presenting 53 audit and eval-        standards to three different organizations.
    uation assignments that the OIG plans to              Ross Simms from our Office of Audits spoke
    pursue. Each assignment is linked to risk-based       at the Maryland Association of Certified
    management and performance challenges that            Public Accountants’ Government and Not-
    the OIG has identified. We received a number          for-Profit Conference. He also co-presented
    of constructive comments and suggestions for          sessions with the U.S. Government Account-
    the plan from FDIC management that we                 ability Office (GAO) for the Department of
    considered and addressed. Our cooperative             Interior OIG and for the American Institute
    efforts have resulted in a plan that provides         of Certified Public Accountants’ National
    comprehensive coverage of the Corporation’s           Governmental Accounting and Auditing
    key risk areas.                                       Update conference.

                                                                          OIG Organization—Pursuing OIG Goals 47
       ■   Testified before the Subcommittee on Govern-           impact of recent legislation on the investiga-
           ment Efficiency and Financial Management,              tive process.
           House Committee on Government Reform,
           regarding Proposed Legislation Affecting the       ■   Reviewed and commented on the Corpora-
           Inspector General Community—“Improving                 tion’s new security awareness Web site, at the
           Government Accountability Act,” (H.R.                  request of DIRM.
           3457)—introduced by Representative Jim
           Cooper. IG Gianni and several colleagues           ■   Coordinated with management during the
           from the IG community discussed IG func-               OIG’s updated assessment of the most signifi-
           tionality and independence and the impor-              cant management and performance challenges
           tance of the IG Act in improving the efficiency        facing the Corporation for 2005.
           and effectiveness of federal operations and
           eliminating fraud, waste, and abuse in federal     ■   Met with DSC and the Legal Division to dis-
           programs. The remarks reflected the group’s            cuss OIG comments on a proposed directive
           understanding of the views of the majority of          for post-failure analysis memoranda.
           the federal IGs who comprise the President’s
           Council on Integrity and Efficiency (PCIE)         ■   Attended the Federal Savings and Loan Insur-
           and the Executive Council on Integrity and             ance Corporation Resolution Fund Dissolu-
           Efficiency (ECIE).                                     tion Task Force meetings to explore possible
                                                                  options for dissolving the fund.
       ■   Provided a draft memorandum describing
                                                              Communication and Outreach: Communications
           the work that the OIG has performed since
                                                              between the OIG and the Chairman, the Congress,
           January 1, 2003 relating to the FDIC’s ability
                                                              employees, and other stakeholders will be effective.
           to respond to, and recover from, a major dis-
                                                              We seek to foster effective agency relations and
           ruption in its business operations. OMB
                                                              communications, congressional relations and com-
           requested that federal agencies prepare and
                                                              munications, OIG employee relations and commu-
           submit plans for protecting the physical and
                                                              nications, and relations and communications with
           cyber-based critical infrastructures for which
                                                              other OIG stakeholders. Efforts in support of this
           they have responsibility by July 31, 2004.
                                                              goal and related objectives include the following:
           These plans are required by Homeland
           Security Presidential Directive (HSPD)-7.          ■   Sent a summary of OIG actions taken to
           Although the FDIC has determined that it               address our Fifth Annual Client Survey to
           does not maintain critical infrastructure or           FDIC Executives to share our progress with
           key resources within the meaning of HSPD-7,            them. Summarized the actions under the fol-
           it is required to report to the OMB on its abil-       lowing six areas of concern:
           ity to ensure the continuity of its business
           operations in the event of a physical or cyber         • Enhancing communication and outreach to
           attack. Part of this requirement includes a              improve relations and understanding of the
           description of the processes for ensuring inde-          OIG mission
           pendent oversight of critical assets and opera-
           tions, including whether reviews by GAO or             • Clarifying the OIG’s evaluation function
           OIG have been performed.
                                                                  • Enhancing the audit process to ensure cor-
       ■   Participated in a panel at the 2004 Conference           porate priorities are addressed and OIG
           on Fraud & Ethics sponsored by the Institute             work is understood
           of Internal Auditors in Chicago. Assistant
           Inspector General for Investigations Sam               • Continuing to foster understanding of OIG
           Holland was a panel member addressing the                investigative work
           topic of “Government Auditing: An Investiga-
           tive Approach.” Mr. Holland addressed                  • Ensuring that the OIG’s human capital
           approaches to investigating fraud and the                strategies address subject matter expertise

48 SEMIANNUAL REPORT TO THE CONGRESS
    • Enhancing OIG performance metrics and           ■   Provided responses to questions posed by
      reporting                                           Honorable Sue W. Kelly, Chairwoman of the
                                                          Subcommittee on Oversight and Investiga-
■   Communicated/coordinated with FDIC                    tions, Committee on Financial Services, U.S.
    management and other stakeholders in                  House of Representatives. These questions
    April/June during development of FY 2005              were sent to us subsequent to IG Gianni’s
    Assignment Plan.                                      March 4, 2004 testimony at the hearing on
                                                          “Oversight of the Federal Deposit Insurance
■   Visited DSC offices to meet with management           Corporation.” The Chairwoman’s questions
    and discuss investigative cases and issues of         addressed matters related to safety and sound-
    mutual concern.                                       ness, downsizing and human capital, and
                                                          information security.
■   Participated in quarterly meetings with other
    OIGs to share common human resource               ■   Attended the Economic Growth and Regula-
    issues and topics.                                    tory Paperwork Reduction Act (EGRPRA)
                                                          Bankers Outreach Meeting in Seattle.
■   Provided a demonstration of our Investigative         IG Gianni participated at all of the sessions at
    Data System timekeeping functions to U.S.             the meeting, which provided an excellent
    Agency for International Development OIG.             opportunity to hear first-hand the various
                                                          concerns of the bankers in attendance and the
■   Provided advice to the Department of Com-             states’ views on EGRPRA-related issues. The
    merce OIG based on the implementation of              IG also accompanied the FDIC Vice Chairman
    our Training and Professional Development             to the Seattle field office for the Vice Chair-
    System.                                               man’s session with staff there.

■   Provided advice to the General Services           ■   Attended the DSC Dallas and DSC San
                                                          Francisco Regional Training conferences. By
    Administration OIG regarding its considera-
                                                          attending, we are provided useful perspectives
    tion of implementing Teammate automated
                                                          and a greater understanding of issues con-
    work papers through Citrix servers.
                                                          fronting regional banks and the FDIC’s super-
                                                          visory responsibilities with respect to those
■   Participated on the PCIE awards selection
                                                          banks. We also appreciate the opportunity to
    committee to acknowledge particularly note-
                                                          make presentations on our audit and inves-
    worthy accomplishments of members of the
                                                          tigative work addressing DSC programs and
    IG community and those with whom they
                                                          operations at such forums.
    partner in carrying out the OIG mission.
                                                      ■   Sponsored the annual conference of the Fed-
■   Made a presentation to the PCIE Legislative           eral Audit Executive Council (FAEC) in
    Committee concerning potential amendments             Williamsburg, Virginia. Assistant Inspector
    to the IG Act of 1978.                                General for Audits Russell Rau and Deputy
                                                          Assistant Inspector General for Audits Sharon
■   Attended a program for the Fellows of the             Smith spearheaded the conference planning
    Ethics Resource Center (ERC). IG Gianni               and sessions. The FAEC is a working group of
    visited the ERC, a nonprofit, nonpartisan edu-        the PCIE and ECIE and is comprised of the
    cational organization that assists individuals        heads of federal audit organizations. The con-
    and organizations to act with integrity. The          ference covered such topics as financial
    ERC seeks to strengthen ethical leadership            reporting, enterprise risk management, the
    worldwide by providing expertise and services         Federal Information Security Management
    through research, education, and partner-             Act (FISMA), contracting issues, Sarbanes-
    ships. The fellows attending the program also         Oxley Act, Government Auditing Standards
    shared the results of current research projects       update, and human capital. This forum helps
    they were conducting in their own institutions.       ensure that federal audit organizations keep

                                                                           OIG Organization—Pursuing OIG Goals 49
           current with auditing standards, practices,            on combating corruption, with a special
           priorities, and issues of concern.                     emphasis on strategies for improving trans-
                                                                  parency and accountability at the national,
       ■   Participated in two forums related to informa-         state, and local levels.
           tion technology (IT) security. In his capacity
           as Chairman of the FAEC IT Security Com-             • An official from the Embassy of the Russian
           mittee, Assistant Inspector General for Audits         Federation. Through the U.S. State Depart-
           Russell Rau gave a presentation to the PCIE IT         ment, Mr. Georgiy Borisenko, Counselor,
           Roundtable. Topics covered at that meeting             requested that we provide him information
           included Enterprise Architecture, IT Capital           related to the role of U.S. Inspectors General
           Planning and Investment Control, Certifica-            and other special law enforcement agencies
           tion and Accreditation, Contractor Security,           involved in anti-corruption activities.
           and the activities of the FAEC’s IT Security
           Committee. He also chaired a meeting of the          • Six representatives from the Indonesian
           IT Security Committee, where the group                 Ministry of Finance’s Office of Inspector
           focused on FY 2004 draft OMB guidance for              General who will make up the new OIG’s
           work under FISMA and the related criteria              investigative unit.
           driving that work.
                                                                We briefed the visitors on the organization
       ■   Met with GAO Advisory Committee on Yellow            and responsibilities of the federal Inspector
           Book Changes.                                        General community at-large and more specifi-
                                                                cally on how an OIG contributes to economy,
       ■   Coordinated with GAO and the Treasury and            efficiency, effectiveness, integrity, transparency,
           Federal Reserve OIGs on work related to BSA.         and accountability.

       ■   Developed informational brochure to explain      ■   Spoke at and/or participated in a number of
           the role, mission, and processes of the OIG’s        professional meetings and conferences, includ-
           Office of Audits: Get to Know Us!                    ing meetings of the Association of Inspectors
                                                                General; the Association of Government
       ■   Attended PCIE Roundtable meeting on the              Accountants’ 53rd Annual Professional Devel-
           Government Performance and Results Act and           opment Conference and Exposition: Technol-
           Program Assessment Rating Tool.                      ogy: Powering the Accountability Age; the
                                                                Intergovernmental Audit Forum’s 15th Bien-
       ■   Held multiple meetings with other federal            nial Forum of Government Auditors: Taking
           regulatory OIGs on FISMA and improve-                Accountability to New Heights; and a meeting
           ments to the FISMA process.                          of the Greater Washington Society of Certified
                                                                Public Accountants.
       ■   Hosted the following individuals or delega-
           tions of government officials:                   ■   Moderated a panel discussion at the Associa-
                                                                tion of Government Accountants’ 53rd
           • Mr. Jose Carlos Azevedo, a member of the           Annual Professional Development Confer-
             Public Ethics Committee of the Presidency          ence and Exposition on the topic of Perform-
             of the Republic of Brazil. Mr. Azevedo was         ing IT Security Audits: What’s Next? The
             invited to the United States under the aus-        IG moderated, and Mark Mulholland, Direc-
             pices of the State Department International        tor, Information Assurance Audits, who
             Visitor Program.                                   has played a key role in our FISMA work par-
                                                                ticipated on the panel to offer lessons learned
           • A delegation of representatives from               on what it takes to successfully accomplish
             Jamaica who were in the U.S. under a pro-          the requirements of the Act and what chal-
             gram sponsored by the Institute of Inter-          lenges lie ahead in conducting these annual
             national Education. The program focused            audits.


50 SEMIANNUAL REPORT TO THE CONGRESS
■   Continued ongoing meetings between the             Human Capital: The OIG will align its human
    Executives of the OIG and the FDIC’s Divi-         resources to support the OIG mission. We aim to
    sion and Office Heads in both headquarters         enhance our workforce analysis and planning,
    and regional offices to foster and sustain suc-    competency investments, leadership development,
    cessful cooperation and communication in all       and the development of a results-oriented, high-
    aspects of our audit, evaluation, and investiga-   performance culture. Efforts in support of this goal
    tive activities. The Office of Investigations      and related objectives include the following:
    continued presentations in lessons learned/
    red flags based on its experience with failed      ■   The OIG was presented with a Training
    institutions.                                          Recognition Award as a runner-up for the
                                                           W. Edwards Deming Outstanding Training
■   Participated in monthly meetings of the Inter-         Award at the U.S. Department of Agriculture
    agency Bank Fraud Working Group.                       Graduate School’s Annual Faculty Reception.
                                                           Dr. Jerry Ice, Executive Director of the Gradu-
■   Coordinated with IGs, Assistant Inspectors             ate School presented the award. The OIG has
    General for Audits, and Assistant Inspectors           worked over a 2-year period to identify core
    General for Investigations of federal financial        competencies for its staff that are aligned with
    institution regulatory agencies.                       OIG and corporate strategic goals and to link
                                                           training investments to the core competencies
■   Coordinated with the Corporation’s Office of           and identified skill gaps.
    Legislative Affairs with respect to the FDIC
    Chairman’s and IG’s testimony before the               The Graduate School presents the W. Edwards
    Senate Committee on Banking, Housing, and              Deming Outstanding Training Award to a fed-
    Urban Affairs on BSA. Coordinated with                 eral government organization or civilian
    GAO regarding its statement at the hearing             branch of the military that has completed an
    as well.                                               innovative and impressive employee develop-
                                                           ment and training initiative with measurable
■   Completed an external peer review of the               results. The award recognizes an overall train-
    investigative operations of the General                ing effort that had a significant impact within
    Services Administration OIG.                           an agency or a particular training initiative
                                                           that has benefited an organization. The OIG
■   Provided weekly highlights reports to the              was proud to be named a runner-up.
    FDIC Chairman to keep him informed of sig-
    nificant OIG events.                               ■   Developed a strategy for enhancing feedback
                                                           mechanisms in the OIG and a Web site with
■   Focused multiple efforts on OIG employees:             related information.
    planned a diversity activity, held meetings of
    the IG’s Employee Advisory Group to provide        ■   Continued to gather information from other
    feedback to the IG on the working conditions           government agencies with mentoring pro-
    and business processes of the office, and              grams and developed an OIG mentoring pro-
    worked with a consultant on finalizing and             gram proposal.
    issuing the results of an OIG employee survey.
                                                       ■   Continued to expand skill sets, knowledge,
■   Conducted the OIG’s sixth client survey to             and expertise of the FDIC OIG through hiring
    solicit feedback from corporate management,            efforts that supplement our audit and inves-
    issued the results of the survey for all OIG           tigative workforce in headquarters and
    staff, informed the Chairman and Vice Chair-           regional offices.
    man of results, and plan to share results and
    related action steps with FDIC senior manage-      ■   Hired Scholarship for Service student to assist
    ment officials at an Operating Committee               with IT-related assignments in the Office of
    meeting.                                               Audits.


                                                                            OIG Organization—Pursuing OIG Goals 51
       ■   Sponsored participation of two OIG employees           based on a peer review conducted by the
           in leadership training held for the PCIE by the        Department of Energy OIG. The review deter-
           Federal Executive Institute in Charlottesville,        mined that the Office of Audits’ system was
           Virginia.                                              properly designed and provided reasonable
                                                                  assurance of adherence to professional stan-
       ■   Published for FDIC OIG employees the OIG’s             dards in the conduct of OIG audits. Generally
           first comprehensive Employee Survey Report.            Accepted Government Auditing Standards
           The survey collected information on how                require audit organizations to undergo an
           employees who work for the OIG view and                independent peer review of their auditing
           appraise their work and workplace. The                 practices at least once every 3 years.
           Exceed Corporation conducted the survey for
           the OIG. All OIG employees had opportunity         ■   Completed developing an executive infor-
           to take the survey and 90 percent completed            mation system (OIG Dashboard) to improve
           it, considered an excellent overall response           the efficiency of OIG management oversight
           rate. The survey was designed to provide               of internal operations. The Dashboard pro-
           information comparable to certain major                vides timely information on key OIG per-
                                                                  formance measures, the budget and monthly
           benchmark surveys of other government
                                                                  spending reports, staffing, and annual per-
           employees and baseline information for future
                                                                  formance goals.
           FDIC OIG employee surveys.
                                                              ■   Completed a memorandum setting forth chal-
       Productivity: The OIG will effectively manage its
                                                                  lenges and strategies to ensure efficient and
       resources. We have taken steps to contain OIG costs        secure use of OIG IT resources for fiscal years
       and undertook several initiatives to ensure that our       2005 through 2007.
       processes are efficient and that our products meet
       quality standards. Efforts in support of this goal     ■   Continued a major records management
       and related objectives include the following:              effort wherein large quantities of the OIG’s
                                                                  audit and evaluation-related paper files were
       ■   Awaiting Congressional approval of FY 2005             replaced with electronic files in the interest of
           OIG budget of $29.9 million. The budget will           streamlining records and facilitating record
           support an authorized staffing level of 160, a         storage.
           further reduction of 8 authorized staff from
           FY 2004. FY 2005 will become the ninth con-        ■   Completed internal quality control reviews of
           secutive year OIG budgets have decreased               one audit/evaluation directorate, another of
           after adjusting for inflation.                         reports of all directorates, and a third analyz-
                                                                  ing trends for purposes of established assign-
       ■   The Office of Audits received an unqualified           ment baselines. All significant matters have
           opinion on its system of quality controls              been resolved.




52 SEMIANNUAL REPORT TO THE CONGRESS
                                                OIG Counsel Activities
                                            (April 2004–September 2004)
The Mission of the Office of Counsel
The Office of Counsel to the Inspector General provides independent legal advice and assistance to the Inspector General
and the staff of the OIG. The Office litigates personnel and other cases; provides advice and counsel on legal issues affecting
the OIG or that arise during the course of audits, investigations, and evaluations; manages the OIG ethics process; reviews,
analyzes, and comments on proposed or existing legislation or regulations; communicates and negotiates with other entities
on behalf of the OIG; responds to Freedom of Information Act and Privacy Act requests and appeals; prepares and enforces
subpoenas for issuance by the Inspector General; and coordinates activity with the Legal Division, the Department of Justice,
and other agency and governmental authorities:

 Litigation                   The Office of Counsel represented the OIG in hearings before the Equal Employment Opportu-
                              nity Commission and before the District Court for the District of Columbia. The Office was
                              involved in 24 litigation matters, one of which was decided during the reporting period, and
                              the remainder of which are awaiting further action by the parties or rulings by the court.
 Advice and Counseling        The Office of Counsel provided legal opinions and advice on issues involving OIG Hotline
                              complaints; regulatory matters, including the applicability of the Sarbanes-Oxley Act to FDIC-
                              supervised institutions, Bank Secrecy Act compliance and supervision of limited-charter
                              institutions; administrative and contract-related audits; investigative and personnel issues;
                              and various ethics-related matters. Additionally, the Office of Counsel provided ongoing legal
                              support for a number of audit products and reviewed the legal accuracy and sufficiency of
                              more than 15 audit and evaluation reports.
 Legislation/Regulation       During this reporting period, the Office of Counsel reviewed and commented upon two
 Review                       proposed formal FDIC regulations. The Office also reviewed and commented upon seven
                              proposed or final directives.
 Subpoenas                    The Office of Counsel prepared 4 subpoenas for issuance by the Inspector General during
                              the reporting period and reached a milestone of 500 subpoenas issued by the Office since its
                              inception.
 Freedom of Information       During this reporting period, the Office of Counsel responded to six requests and one appeal
 and/or Privacy Act           under the Freedom of Information Act or Privacy Act.




                                            OIG Organizational Chart


                                                 Inspector General
                                                Gaston L. Gianni, Jr.                      Counsel to the
                                                                                         Inspector General
                                            Deputy Inspector General
                                                                                          Fred W. Gibson
                                                Patricia M. Black




                        Office of Audits                                  Office of Investigations

                  Assistant Inspector General                           Assistant Inspector General
                          Russell Rau                                       Samuel M. Holland




                    Office of Management                                     Office of Quality
                 and Congressional Relations                             Assurance and Oversight
                  Assistant Inspector General                           Assistant Inspector General
                         Rex Simmons                                       Robert L. McGregor


                                                                                           OIG Organization—Pursuing OIG Goals 53
                                                       Points of Contact
                           Title                                              Name            Telephone Number

                           Inspector General                          Gaston L. Gianni, Jr.     202-416-2026
                           Deputy Inspector General                   Patricia M. Black         202-416-2474
                           Counsel to the Inspector General           Fred W. Gibson            202-416-2917
                           Assistant Inspector General for Audits     Russell Rau               202-416-2543
                             Deputy Asst. Inspector General             Stephen Beard           202-416-4217
                             for Audits
                             Deputy Asst. Inspector General             Sharon Smith            202-416-2430
                             for Audits
                           Assistant Inspector General for            Samuel Holland            202-416-2912
                             Investigations
                           Assistant Inspector General for            Rex Simmons               202-416-2483
                             Management and Congressional
                             Relations
                           Assistant Inspector General for Quality    Robert McGregor           202-416-2501
                             Assurance and Oversight




                           Table 1: Significant OIG Achievements
                                        (April 2004–September 2004)

                           Audit and Evaluation Reports Issued                                       31
                           Questioned Costs and Funds Put to Better Use                              $51.2 million
                           Investigations Opened                                                     24
                           Investigations Closed                                                     25
                           OIG Subpoenas Issued                                                       4
                           Convictions                                                               15
                           Fines, Restitution, and Monetary Recoveries                               $38.6 million
                           Hotline Allegations Referred                                              14
                           Proposed Regulations and Legislation Reviewed                              2
                           Proposed FDIC Policies Reviewed                                           29
                           Responses to Requests and Appeals under the
                              Freedom of Information Act and/or Privacy Act                           7




                           Table 2: Nonmonetary Recommendations

                           April 2002–September 2002                                                           73
                           October 2002–March 2003                                                             90
                           April 2003–September 2003                                                        103
                           October 2003–March 2004                                                             51
                           April 2004–September 2004                                                           86




54 SEMIANNUAL REPORT TO THE CONGRESS
 Figure 1: Products Issued and Investigations Closed
40
         4/02 – 9/02
         10/02 – 3/03                                        36
35       4/03 – 9/03
         10/03 – 3/04                     31                                      31
30       4/04 – 9/04
                     27
                                                                     26
                                                                                          25
25
          22
                          20
20
                                 17                                         17
15

10

 5

 0
               Audits & Evaluations                                   Investigations

 Figure 2: Questioned Costs/Funds Put to Better Use
                     (in millions)
55
                                                                                       51.2
50
45
40
35
30
25
20
15
10
 5                                                                    4.3
            2.1                1.26               1.3
 0
         4/02 – 9/02       10/02 – 3/03        4/03 – 9/03        10/03 – 3/04    4/04 – 9/04

 Figure 3: Fines, Restitution, and Monetary Recoveries
           Resulting from OIG Investigations (in millions)
900
               820
800

700

600

500

400

300

200

100                                               68.1
                               26.2                                                    38.6
                                                                      1.7
     0
          4/02 – 9/02       10/02 – 3/03       4/03 – 9/03        10/03 – 3/04    4/04 – 9/04


                                           OIG Organization—Pursuing OIG Goals 55
                                                                        Reporting Terms
                                                                        and Requirements

       Index of Reporting Requirements—Inspector General Act of 1978,
       as amended
       Reporting Requirement                                                                                                                                Page

       Section 4(a)(2): Review of legislation and regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53
       Section 5(a)(1): Significant problems, abuses, and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10–30
       Section 5(a)(2): Recommendations with respect to significant problems, abuses,
         and deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10–30
       Section 5(a)(3): Recommendations described in previous semiannual reports on which
         corrective action has not been completed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
       Section 5(a)(4): Matters referred to prosecutive authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
       Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused . . . . . . 63
       Section 5(a)(6): Listing of audit reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60
       Section 5(a)(7): Summary of particularly significant reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10–30
       Section 5(a)(8): Statistical table showing the total number of audit reports and the total
         dollar value of questioned costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62
       Section 5(a)(9): Statistical table showing the total number of audit reports and the total
         dollar value of recommendations that funds be put to better use . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62
       Section 5(a)(10): Audit recommendations more than 6 months old for which no
         management decision has been made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
       Section 5(a)(11): Significant revised management decisions during the current
         reporting period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
       Section 5(a)(12): Significant management decisions with which the OIG disagreed . . . . . . . . . . . . . . . 63




56 SEMIANNUAL REPORT TO THE CONGRESS
Reader’s Guide to Inspector                                necessary. In the case of questioned costs, this
                                                           management decision must specifically address
General Act Reporting Terms                                the questioned costs by either disallowing or not
What Happens When Auditors Identify                        disallowing these costs. A “disallowed cost,”
Monetary Benefits?                                         according to the Inspector General Act, is a ques-
Our experience has found that the reporting                tioned cost that management, in a management
terminology outlined in the Inspector General              decision, has sustained or agreed should not be
Act of 1978, as amended, often confuses people.            charged to the government.
To lessen such confusion and place these terms
in proper context, we present the following                Once management has disallowed a cost and, in
discussion:                                                effect, sustained the auditor’s questioned costs,
                                                           the last step in the process takes place which cul-
The Inspector General Act defines the terminol-            minates in the “final action.” As defined in the
ogy and establishes the reporting requirements             Inspector General Act, final action is the com-
for the identification and disposition of ques-            pletion of all actions that management has
tioned costs in audit reports. To understand how           determined, via the management decision
this process works, it is helpful to know the key          process, are necessary to resolve the findings and
terms and how they relate to each other.                   recommendations included in an audit report.
                                                           In the case of disallowed costs, management will
The first step in the process is when the audit            typically evaluate factors beyond the conditions
report identifying questioned costs1 is issued to          in the audit report, such as qualitative judgments
FDIC management. Auditors question costs                   of value received or the cost to litigate, and
because of an alleged violation of a provision of          decide whether it is in the Corporation’s best
a law, regulation, contract, grant, cooperative            interest to pursue recovery of the disallowed
agreement, or other agreement or document                  costs. The Corporation is responsible for report-
governing the expenditure of funds. In addition,           ing the disposition of the disallowed costs, the
a questioned cost may be a finding in which, at            amounts recovered, and amounts not recovered.
the time of the audit, a cost is not supported by
adequate documentation; or, a finding that the             Except for a few key differences, the process for
expenditure of funds for the intended purpose is           reports with recommendations that funds be
unnecessary or unreasonable.                               put to better use is generally the same as the
                                                           process for reports with questioned costs. The
The next step in the process is for FDIC manage-           audit report recommends an action that will
ment to make a decision about the questioned               result in funds to be used more efficiently rather
costs. The Inspector General Act describes a               than identifying amounts that may need to be
“management decision” as the final decision                eventually recovered. Consequently, the manage-
issued by management after evaluation of the               ment decisions and final actions address the
finding(s) and recommendation(s) included in               implementation of the recommended actions
an audit report, including actions deemed to be            and not the disallowance or recovery of costs.




1
    It is important to note that the OIG does not always
    expect 100 percent recovery of all costs questioned.

                                                                                    Reporting Terms and Requirements 57
                                                 Statistical Information
                                                 Required by the
                                                 Inspector General Act
                                                 of 1978, as amended

        Table I: Significant                               supplied by the FDIC’s Office of Enterprise Risk
                                                           Management (OERM) and (2) the OIG’s deter-
        Recommendations from                               mination of closed recommendations for
        Previous Semiannual Reports on                     reports issued after March 31, 2002. These
        Which Corrective Actions Have                      13 recommendations from 8 reports involve
                                                           improvements in operations and programs.
        Not Been Completed                                 OERM has categorized the status of these rec-
        This table shows the corrective actions manage-    ommendations as follows:
        ment has agreed to implement but has not
        completed, along with associated monetary          Management Action in Process:
        amounts. In some cases, these corrective actions   (13 recommendations from 8 reports)
        are different from the initial recommendations     Management is in the process of implementing
        made in the audit reports. However, the OIG has    the corrective action plan, which may include
        agreed that the planned actions meet the intent    modifications to policies, procedures, systems or
        of the initial recommendations. The informa-       controls; issues involving monetary collection;
        tion in this table is based on (1) information     and settlement negotiations in process.




58 SEMIANNUAL REPORT TO THE CONGRESS
 Table I: Significant Recommendations from Previous Semiannual Reports on
          Which Corrective Actions Have Not Been Completed
                                               Significant
 Report Number,                                Recommendation          Brief Summary of Planned Corrective Actions
 Title & Date                                  Number                  and Associated Monetary Amounts

Management Action In Process
 EVAL-01-002                                   3                       Re-designate position sensitivity levels for examiner
 FDIC’s Background Investigation                                       positions to reflect their public trust responsibilities.
 Process for Prospective and Current
 Employees
 August 17, 2001
 03-031                                        1                       Develop a human capital staffing plan to identify and
 FDIC’s Implementation of Its                                          address any shortfalls in staff resources or skill mix for the
 Information Security Plan                                             information technology security program identified in the
 July 18, 2003                                                         staffing and skill assessment.
 03-045                                        1*                      Conduct a senior management review of the NFE project
 New Financial Environment (NFE)                                       to establish metrics for measuring progress and project
 Scope Management Controls                                             re-evaluation criteria if the measures are not achieved.
 September 29, 2003
                                               2*                      Direct the NFE Steering Committee to ensure that the
                                                                       project scope is promptly finalized and that impacts to the
                                                                       schedule are adequately managed.
 EVAL-04-005                                   2                       Develop a coherent human capital blueprint that describes
 FDIC’s Strategic Alignment of                                         the FDIC’s human capital framework and establishes a
 Human Capital                                                         process for agency leaders to monitor the alignment and
 January 23, 2004                                                      success of the initiatives relative to the goals.
 04-008                                        1†                      Centralize Unix administration under one Division of
 Evaluation of FDIC’s Unix Systems                                     Information Resources Management organization.
 Security
                                               2†                      Independently validate that all Unix servers have the most
 February 13, 2004
                                                                       current security patches installed.
                                               4                       Ensure that all security settings for Unix production systems
                                                                       conform to the FDIC Unix policies and standards.
 04-009                                        4                       Research and investigate solutions and tools for
 Evaluation of FDIC’s Intrusion                                        aggregating event information from different security
 Detection and Incident Response                                       logging devices to better distinguish malicious activity from
 Capability                                                            normal network traffic to reduce false positives.
 February 13, 2004
 04-016                                        3                       Review all employees in moderate risk level positions to
 FDIC’s Personnel Security Program                                     ensure that appropriate background investigations have
 March 30, 2004                                                        been performed.
 04-017                                        1                       Re-evaluate and update examination guidance to
 Supervisory Actions Taken for Bank                                    strengthen monitoring and follow-up processes for BSA
 Secrecy Act (BSA) Violations                                          violations.
 March 31, 2004
                                               2                       Review Division of Supervision and Consumer Protection’s
                                                                       implementation of the process for referring institution
                                                                       violations of BSA to the Treasury Department.
                                               3                       Coordinate with state regulatory agencies to cover BSA
                                                                       compliance in state examinations of FDIC-supervised
                                                                       institutions and develop an alternative process to
                                                                       address BSA compliance when relying on alternating
                                                                       state examinations.

* The OIG has requested additional information to evaluate management’s actions in response to OIG recommendations. Also, additional
  audit work is being conducted in this area.
†
  The OIG has not evaluated management’s actions in response to OIG recommendations.

                                                                                                                       Statistical Information 59
         Table II: Audit Reports Issued by Subject Area
                                   Audit Report                                       Questioned Costs
                                                                                                          Funds Put to
        Number and Date                                  Title                    Total     Unsupported    Better Use

       Supervision and Insurance
        04-022                          FDIC’s Information Technology
        June 15, 2004                   Program
        04-033                          Division of Supervision and
        September 8, 2004               Consumer Protection’s Assessment
                                        of Bank Management
        04-036                          Supervision Appeals Review
        September 20, 2004              Committee Decision Regarding the
                                        Appeal of a Fair Lending Violation
        04-040                          Division of Supervision and Consumer
        September 28, 2004              Protection’s Regional Office Structure
        04-041                          Division of Supervision and Consumer
        September 28, 2004              Protection’s Processing of an Appeal of
                                        a Material Supervisory Determination
        04-042                          FDIC’s Implementation of the
        September 29, 2004              Sarbanes-Oxley Act of 2002
        EVAL-04-048                     Division of Supervision and Consumer
        September 30, 2004              Protection’s Approach for Supervising
                                        Limited-Charter Depository Institutions

       Resolution, Receivership,
       and Legal Affairs
        04-023                          FDIC’s Insured Depository Institution
        June 30, 2004                   Closing Procedures
        04-030                          Retention Strategies for Failed Insured
        August 20, 2004                 Depository Institution Employees
        04-034                          Proceeds From Terminated
        September 13, 2004              Securizations
        04-035                          Audit of Sales of Assets from a
        September 13, 2004              Failed Institution

       Information Assurance
         04-019                         Enhancements to the FDIC System
         April 30, 2004                 Development Life Cycle Methodology
        EVAL-04-020                     FDIC’s Software Management Program
        June 8, 2004
        04-024                          FDIC’s Public Key Infrastructure
        July 2, 2004                    Certificate Policy and Extranet
                                        Certification Practice Statement
        04-027                          FDIC’s Virtual Supervisory Information
        July 30, 2004                   on the Net Application
        04-028                          FDIC’s IT Security Risk Management
        July 30, 2004                   Program—Overall Program Policies
                                        and Procedures and the Risk
                                        Assessment Process
        04-037                          FDIC’s Mainframe Security
        September 21, 2004



60 SEMIANNUAL REPORT TO THE CONGRESS
 Table II (Continued)
                                      Audit Report                                                Questioned Costs
                                                                                                                                Funds Put to
 Number and Date                                                Title                         Total       Unsupported            Better Use

Information Assurance (continued)
  04-038                                     FDIC’s IT Contingency Planning
  September 22, 2004                         Program
 EVAL-04-039                                 FDIC’s Capital Investment
 September 23, 2004                          Management Review Process for
                                             Information Technology Investments
 04-046                                      Independent Evaluation of the FDIC’s
 September 30, 2004                          Information Security Program—2004
 04-047                                      Responses to Questions Raised in
 September 30, 2004                          OMB’s Fiscal Year 2004 FISMA
                                             Reporting Instructions

Resources Management
 04-018                                      Control Framework for the Virginia
 April 22, 2004                              Square Phase II Project
 04-021                                      Implementation of Physical Security
 June 15, 2004                               Policies
 04-025                                      Regional Contract Operations
 July 16, 2004
 EVAL-04-029                                 FDIC’s Business Continuity Plan
 August 9, 2004
 04-032                                      Strategies for Enhancing Corporate
 September 3, 2004                           Governance
 04-043                                      Acquisition Planning and Execution
 September 29, 2004                          Strategy
 04-044                                      FDIC’s Allocation of Records Storage                                               $45,932,765
 September 29, 2004                          Costs
 04-026                                      Records Management and Storage                                                      $5,151,822*
 September 30, 2004

Post-award Contract Audits
 04-003                                      Post-award Contract Audit                      $110,915
 July 29, 2004

Pre-award Contract Audits
 04-031                                      Pre-award Contract Audit
 September 2, 2004

 TOTALS FOR THE PERIOD                                                                      $110,915                            $51,084,587

* Funds put to better use range from $5,151,822–$5,573,881. We are using the lower amount for statistical reporting purposes.




                                                                                                                            Statistical Information 61
         Table III: Audit Reports Issued with Questioned Costs
                                                                                                                      Questioned Costs
                                                                                       Number                   Total             Unsupported

       A. For which no management decision has been made by the                            3                  $616,067                   $0
          commencement of the reporting period.
       B. Which were issued during the reporting period.                                   1                  $110,915                   $0
       Subtotals of A & B                                                                  4                  $726,982                   $0
       C. For which a management decision was made during the                              3                  $616,067                   $0
          reporting period.
          (i) dollar value of disallowed costs.                                            3                  $490,533†                  $0
          (ii) dollar value of costs not disallowed.                                       1*                 $290,151                   $0
       D. For which no management decision has been made by the                             1†                $110,915                   $0
          end of the reporting period.
          Reports for which no management decision was made                                0                      $0                     $0
          within 6 months of issuance.
       * In the audit report 04-006, the OIG identified questioned costs ranging from $175,027 (based on FDIC qualifications) to $339,644 (based on
         GSA qualifications). In the last semiannual report, the OIG reported the lower range of questioned costs, $175,027. FDIC management has
         decided to disallow the upper range of questioned costs, $339,644, a difference of $164,617.
       †
         The one report included on the line for costs not disallowed is also included on the line for costs disallowed, because management did not
         agree with some of the questioned costs.




         Table IV: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                                              Number               Dollar Value

       A. For which no management decision has been made by the commencement of                                   0                      0
          the reporting period.
       B. Which were issued during the reporting period.                                                          2                $51,084,587

       Subtotals of A & B                                                                                         2                $51,084,587
       C. For which a management decision was made during the reporting period.                                   0                      0
          (i) dollar value of recommendations that were agreed to by management.                                  0                      0
               • based on proposed management action.                                                             0                      0
               • based on proposed legislative action.                                                            0                      0
          (ii) dollar value of recommendations that were not agreed to by management.                             0                      0
       D. For which no management decision has been made by the end of the                                        2                $51,084,587
          reporting period.
          Reports for which no management decision was made within 6 months                                       0                      0
          of issuance.




62 SEMIANNUAL REPORT TO THE CONGRESS
 Table V: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations without management decisions.




 Table VI: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.




 Table VII: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.




 Table VIII: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




                                                                                                             Statistical Information 63
                                                        Congratulations to
                                                        Award Winners

        We are proud of the following three teams of individuals from the FDIC OIG who received the Presi-
        dent’s Council on Integrity and Efficiency (PCIE) and Executive Council on Integrity and Efficiency
        (ECIE) Awards for Excellence, bestowed annually by the Inspector General community. The following
        teams received awards on October 27, 2004:

        Members of the joint investigative/prosecutorial          The team responsible for outstanding work
        team investigating the failure of Hamilton                performed on the audit of Supervisory Actions
        Bank, N.A., for their efforts leading to the              Taken for Bank Secrecy Act Violations:
        indictment of individuals alleged to be respon-
                                                                  ■   Michael R. Lombardi, Director
        sible for the bank’s failure:
                                                                  ■   Joyce E. Cooper, Team Leader
        ■ Gary Sherrill, Special Agent                            ■   Rhoda L. Allen, Audit Specialist
        ■ Philip Robertson, Assistant Special Agent in            ■   DeGloria Hallman, Audit Specialist
          Charge                                                  ■   Larry Jones, Auditor
        ■ Stephen Murphy, Special Agent                           ■   Adriana R. Vosburg, Associate Counsel
        ■ Fred Gibson, Counsel to the Inspector General

        This award also recognized team members from
        the Department of the Treasury OIG and the
        U.S. Attorney’s Office of the Southern District of
        Florida.




        Front Row L to R: Stephen Murphy, Jennifer Duey, Gary     Front Row L to R: Adriana Vosburg, Joyce Cooper, Mike
        Sherrill. Back Row L to R: Phil Robertson, Sam Holland,   Lombardi. Back Row L to R: Rus Rau, Larry Jones,
        Fred Gibson, Gaston Gianni.                               Rhoda Allen, Gaston Gianni. (Missing from photo:
                                                                  DeGloria Hallman.)

64 SEMIANNUAL REPORT TO THE CONGRESS
Members of the joint PCIE and ECIE team
responsible for updating the Quality Standards
for Federal Offices of Inspector General, known
as the “Silver Book” in honor of the 25th
anniversary of the passage of the Inspector
General Act of 1978:
■ Chair: Robert L. McGregor, Assistant Inspec-
  tor General for Quality Assurance and
  Oversight
■ Scott D. Miller, Senior Quality Assurance
  Analyst
■ Nancy J. Spoor, Senior Audit Specialist         L to R: Robert McGregor, Nancy Spoor, Scott Miller,
  (Retired)                                       Gaston Gianni.

Joining the FDIC OIG staff on this project were
representatives from the Offices of Inspector
General at the Small Business Administration,
National Labor Relations Board, Department of
Defense, Department of Education, Department
of Health and Human Services, and Department
of Transportation.




                                                                              Congratulations to Award Winners 65
                                                   Farewell to OIG Retirees

        Monte Galvin Landis                                   Kay Atkins-Gipson
        In July 2004, Ms. Monte Galvin Landis retired after   Ms. Kay Atkins-Gipson, a Special Agent in the
        more than 23 years of federal service. Her career     OIG’s Dallas office retired from federal service
        included service for the U.S. Army, the General       in July 2004 after a distinguished 21-year career
        Services Administration, Department of Housing        in federal law enforcement. She worked in the
        and Urban Development, and finally the Resolu-        RTC OIG, and was an invaluable member of the
        tion Trust Corporation (RTC) and the FDIC.            FDIC OIG. Prior to joining the RTC, she served
        Some of the highlights of her work at the FDIC        at the Federal Bureau of Investigation and the
        OIG included efforts on Y2K-related audits and        Defense Criminal Investigative Service. Her
        serving on three teams doing audit work in            efforts in each of these organizations were
        accordance with the Government Information            deservedly praised by her colleagues throughout
        Security Reform Act and the Federal Information       the OIG and in the law enforcement commu-
        Security Management Act of 2002. Throughout           nity. While at the FDIC OIG, she distinguished
        her tenure at the RTC and FDIC, she displayed         herself by conducting many highly sensitive
        sincere concern for her colleagues and a commit-      investigations that were entrusted to her
        ment to the mission of the OIG.                       because of her skills as an investigator and abil-
        Ms. Landis received the Corporation’s Nancy K.        ity to effectively deal with highly charged and
        Rector Award for Public Service in March 2003         complex situations. Her contributions to con-
        at the FDIC’s Annual Awards Ceremony. This            cealment of asset cases and alleged bank fraud
        award recognized her admirable volunteer              cases are examples of her commitment to the
        involvement with Habitat for Humanity.                FDIC OIG mission.




        Monte Galvin Landis                                   Kay Atkins-Gipson

66 SEMIANNUAL REPORT TO THE CONGRESS
                                           Abbreviations
                                           and Acronyms

BCP      Business Continuity Plan          FSBH          First State Bank of Harrah
BIF      Bank Insurance Fund               GAO           Government Accountability
BSA      Bank Secrecy Act                                Office
CDs      Certificates of Deposit           HSPD          Homeland Security Presidential
CEO      Chief Executive Officer                         Directive
CIRC     Capital Investment Review         IBM           International Business Machines
         Committee                                       Business Consulting Services
CPIM     capital planning and investment   IG            Inspector General
         management                        ILC           industrial loan company
DOA      Division of Administration        IRS-CI        Internal Revenue Service
DIRM     Division of Information                         Criminal Investigation
         Resources Management              IT            Information Technology
DOF      Division of Finance               MERIT         Maximum Efficiency, Risk-
DRR      Division of Resolutions and                     Focused, Institution Targeted
         Receiverships
                                                         Examinations Program
DSC      Division of Supervision and
                                           MOU           Memorandum of
         Consumer Protection
                                                         Understanding
ECIE     Executive Council on Integrity
                                           NFE           New Financial Environment
         and Efficiency
                                           NHTCU         National Hi-Tech Crime Unit
EGRPRA   Economic Growth and
         Regulatory Paperwork              OCC           Office of the Comptroller of the
         Reduction Act                                   Currency
ERC      Ethics Resource Center            OERM          Office of Enterprise Risk
ERM      enterprise risk management                      Management
FAEC     Federal Audit Executive           OI            Office of Investigations
         Council                           OIG           Office of Inspector General
FBI      Federal Bureau of Investigation   OMB           Office of Management and
FDIC     Federal Deposit Insurance                       Budget
         Corporation                       OTS           Office of Thrift Supervision
FISMA    Federal Information Security      PCIE          President’s Council on Integrity
         Management Act of 2002                          and Efficiency
FRF      Federal Savings and Loan          Results Act   Government Performance and
         Insurance Corporation                           Results Act
         Resolution Fund                   RTC           Resolution Trust Corporation

                                                          Management and Performance Challenges 67
       SAIF         Savings Association Insurance   USA           United and Strengthening
                    Fund                            PATRIOT Act   America by Providing
       SARC         Supervision Appeals Review                    Appropriate Tools Required to
                    Committee                                     Intercept and Obstruct
       SCS          San Clemente Securities, Inc.                 Terrorism Act of 2001
       SNB          Sinclair National Bank          ViSION        Virtual Supervisory
       UCC          United Custodial Corporation                  Information on the Net




68 SEMIANNUAL REPORT TO THE CONGRESS
Office of
Inspector General
FY 2004 Performance Report
October 1, 2003-September 30, 2004
                            FDIC Office of Inspector General
                               Strategic Plan Framework
                                                  (2004-2008)


                                                   Vision
           The agency and Congress see us as a valuable part of the Corporation and we are viewed
                                  as one of the best OIGs in government.

                                                   Mission
             The Office of Inspector General promotes the economy, efficiency, and effectiveness of
            FDIC programs and operations, and protects against fraud, waste, and abuse, to assist
            and augment the FDIC’s contribution to stability and public confidence in the nation’s
                                               financial system.


                                                Strategic Goals

    Value and Impact                 Communication                  Human Capital                    Productivity
                                      and Outreach
OIG products will add                                               The OIG will align                 The OIG will
  value by achieving                 Communications                     its human                       effectively
  significant impact              between the OIG and                  resources to                    manage its
related to addressing               the Chairman, the                support the OIG                    resources
issues of importance                    Congress,                        mission
to the Chairman, the              employees, and other
  Congress, and the                stakeholders will be
         public                          effective



                                            Strategic Objectives

    OIG will contribute              OIG will foster            OIG will enhance:                OIG will ensure:
     to ensuring the:                  effective:
                                                                ■    Workforce                   ■     OIG processes
■    Protection of               ■   Agency relations                analysis and                      are efficient
     insured depositors              and                             planning
                                     communications                                              ■     OIG products
■    Safety & soundness                                         ■    Competency                        meet quality
     of FDIC-supervised          ■   Congressional                   investments                       standards
     institutions                    relations and
                                     communications             ■    Leadership
■    Protection of                                                   development
     consumer rights             ■   OIG employee
                                     relations and              ■    The
■    Achievement of                  communications                  development of
     recovery to                                                     a results-
     creditors of                ■   Relations and                   oriented high
     receiverships                   communications                  performance
                                     with other OIG                  culture
■    Effective                       stakeholders
     management of
     agency resources



                                                 Core Values


              C ommunication                                                             E xcellence
                                  Objectivity                R esponsibility
Contents



INSPECTOR GENERAL FOREWORD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73

STATISTICAL SUMMARY OF PERFORMANCE AGAINST
ANNUAL GOALS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

OIG RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 74

PERFORMANCE OVERVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75

PERFORMANCE BY STRATEGIC GOAL AREA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76

   OIG Products Add Value and Achieve Significant Impact . . . . . . . . . . . . . . . . . . . . . 76

   Communications Between the OIG and Stakeholders
   Will Be Effective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 80

   OIG Will Align Its Human Resources to Support the OIG Mission . . . . . . . . . . . . . 84

   OIG Will Effectively Manage Its Resources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86

DETAIL LISTING OF FY 2004 ANNUAL PERFORMANCE
GOAL ACCOMPLISHMENT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 92

STATISTICAL SUMMARY OF PERFORMANCE—
2003 ANNUAL PERFORMANCE GOALS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94




                                                                                                                                          71
     Inspector General Foreword


     Accountability and transparency are principles that the Federal Deposit Insurance
     Corporation (FDIC) Office of Inspector General (OIG) holds in high regard, and for
     this reason, for the fifth time, we publish our Performance Report as an integral part
     of the Semiannual Report to the Congress. In so doing, we convey not only the results of
     our audits and investigations of corporate programs and operations, but also examine
     our own performance and share with the Congress and the public the extent to which
     we have achieved the internal organizational goals that drive our work.

     The four overall strategic goals, each with a number of subgoals, that we have pursued
     during fiscal year (FY) 2004 can be summarized as follows:

     ■   OIG Products Add Value and Achieve Significant Results

     ■   The OIG Effectively Communicates with Stakeholders

     ■   The OIG Aligns Human Resources to Support the OIG Mission

     ■   The OIG Effectively Manages Resources

     I am pleased to report that we met or substantially met 31 of our 41 annual perform-
     ance goals, or 76 percent of our goals in the above areas. I would point out that per-
     formance cannot be evaluated based solely on a statistical summary of measures. It is,
     however, very constructive for us as an organization to consider each of our four
     strategic goals, examine how well we achieved them, and learn what we might do dif-
     ferently in the future to accomplish even more in those areas. These considerations are
     and will continue to be ongoing.

     I invite all readers to view our performance results and provide additional feedback to
     me or any other member of the OIG in the spirit of our continuing efforts to be the
     best OIG in government. I especially thank all OIG staff who worked in pursuit of our
     FY 2004 goals and all stakeholders who both challenged and supported us in carrying
     out our performance plan during the past fiscal year.

     Our FY 2005 goals will continue to inspire all members of the OIG to excel and pro-
     vide maximum value to the Corporation, the Congress, and the American people as
     we carry out the IG mission.
72
Background

Nature and Purpose of                           invest in their communities; and (4) Recov-
                                                ery to creditors of receiverships is achieved.
the OIG’s Annual                                We believe that accomplishing the OIG’s
Performance Report                              strategic and annual goals and objectives
                                                contributes to the Corporation’s achieve-
The Office of Inspector General develops its    ment of its mission and goals and objectives.
own independent strategic plan and annual
performance plan. These plans are designed      The requirement for an annual perform-
to establish goals to measure performance       ance report under the Results Act applies to
consistent with the principles of the Gov-      the agency as a whole rather than to the
ernment Performance and Results Act             OIG as a separate component. However,
(GPRA or Results Act). This report pre-         because of the unique mission and inde-
sents our performance against our FY 2004       pendent nature of Inspectors General
Performance Plan (October 1, 2003—              under the Inspector General Act, we pre-
September 30, 2004), focusing on the most       pare separate strategic and annual plans
meaningful annual measures related to           and reports, rather than integrating OIG
achieving our strategic goals and objectives.   goals and results into the Corporation’s
                                                plans and reports.

Relationship to the FDIC’s
Annual Report                                   Relationship to the OIG’s
To help streamline its reporting process, the   Semiannual Report to the
FDIC redesigned its Annual Report for 2002
by combining its GPRA Program Perfor-
                                                Congress
mance Report, Chief Financial Officers Act      Annual performance reports of OIGs pre-
Report, and traditional Annual Report. The      pared under the Results Act differ from
Performance Results section of the com-         semiannual reports of OIGs prepared
bined report presents and summarizes the        under the Inspector General Act. The two
Corporation’s performance against its           reports differ with respect to the time peri-
annual performance goals. The Corpora-          ods covered (12 months vs. 6 months) and
tion’s annual performance goals address its     the specific reporting requirements. How-
mission to “Contribute to the stability and     ever, because both types of reports present
public confidence in the nation’s financial     OIG accomplishments to the Congress, the
system” under four strategic goals:             annual performance report is included as a
(1) Insured depositors are protected from       separate but integral component of the
loss without recourse to taxpayer funding;      semiannual report. Our annual perform-
(2) FDIC-supervised institutions are safe       ance report is included with our semiannual
and sound; (3) Consumers’ rights are pro-       report to the Congress covering the period
tected and FDIC-supervised institutions         ending September 30.

                                                         Management and Performance Challenges 73
        Statistical Summary of
        Performance Against Annual Goals
        The following table summarizes our collective                             level of achievement of goals met or substan-
        performance against our annual performance                                tially met (see table on page 92). Performance
        goals for FY 2004. The table reflects whether the                         cannot be evaluated based solely on a statistical
        goals were Met, Substantially Met, or Not Met.                            summary of measures—given that all measures
                                                                                  are not equal in weight and the quality of the
        The table below indicates that we met or sub-                             measures is still evolving. A summary level dis-
        stantially met 31 of our 41 annual performance                            cussion of our performance by strategic goal
        goals for FY 2004 (76 percent). For the previous                          area is presented in the Performance Overview
        reporting period (FY 2003), we had a 79 percent                           section.

                                                                                                 FY 2004 Annual Goal Accomplishment1
                                                                                                           (Number of Goals)
                                                                                                      Substantially
                Strategic Goal Areas                                                          Met         Met2         Not Met     Total

        1. OIG Products Add Value and Achieve Significant Impact                               8                                 3               11
        2. Communication Between OIG and Stakeholders is Effective                             5                                 1                6
        3. Align Human Resources to Support the OIG Mission                                    3               2                 1                6
        4. OIG Resources are Managed Effectively                                              13                                 5               18
        Total                                                                                 29               2               10                41
        Percentage                                                                           71%             5%               24%             100%
        1 A detail listing showing goal accomplishment for each FY 2004 performance goal is provided beginning on page 92. If the FY 2004 goal had a
         “like” or similar goal in 2003, the detail listing also shows goal accomplishment for 2003.
        2 Unless otherwise noted, a quantitative goal was considered substantially met if actual performance came within 10 percent of the target
         level of performance. Twenty-seven (27) of our 41 goals are considered quantitative goals in that they set specific quantitative targets for
         performance.




        OIG Resources
        OIG Resources                                                                   Budget for         Outlays Through             Staffing at
                                                                                         FY 2004              9/30/2004                9/30/2004

        The table to the right              Office of Audits                           Unallocated            $13,261,718                   85
        summarizes FY 2004
                                            Office of Investigations                   Unallocated             $7,280,366                   45
        OIG funds, and outlays
        and staffing at year-               Other OIG Components1                      Unallocated             $5,395,600                   29
        end to accomplish the               OIG-wide Non-recurring &
        OIG’s strategic and                 Special Project Expenses2                  Unallocated                 $626,806                n/a
        annual goals.                       Total                                       $30,125,000           $26,564,490                  159
                                            1 Other OIG Components includes outlays and staffing for the Inspector General and his immediate office;
                                              OIG-wide support functions such as planning, budgeting, accounting, legal support, policy analysis,
                                              congressional relations, and independent quality assurance; and certain other outlays.
                                            2 Includes Division of Information Resources Management-provided equipment of $410,215.



74 OIG FY 2004 PERFORMANCE REPORT
Performance Overview

As indicated previously in the statistical
summary section, overall we met or substan-       STRATEGIC GOAL       2
tially met 31 of our 41 performance goals         Effective Communications
(76 percent) in FY 2004. Presented below is a
brief overview of our performance to date         with Stakeholders
for each of the four strategic goal areas. A      We met five of our six performance goals under
discussion of individual goal accomplish-         Strategic Goal 2, including our goal to conduct
ment is presented in the next section and a       an OIG-wide employee survey. The survey col-
detailed listing of goal accomplishment is        lected information on how employees who
presented beginning on page 92.                   work for the OIG view and appraise their work
                                                  and helped us to identify areas where our criti-
                                                  cal functions can be improved. The quanti-
STRATEGIC GOAL       1                            tative goal to increase the client survey
                                                  communication score was not met. Although
OIG Products Add Value and                        the survey report’s qualitative assessment noted
Achieve Significant Impact                        overall improved communication, a single per-
                                                  ceived communication breakdown appears to
We met 8 of our 11 performance goals under
                                                  have influenced the quantitative ranking.
Strategic Goal 1. Of particular note, we
achieved a return on investment (ROI) of
$3.86 for every dollar spent on our audit
                                                  STRATEGIC GOAL       3
operations. This return significantly exceeded    Align Human Resources
our goal to increase the ROI from the previ-
ous year.
                                                  to Support the OIG Mission
                                                  We met or substantially met five of our six
                                                  performance goals under Strategic Goal 3.
We also achieved mostly positive results on       Key results under this strategic goal included
three goals related to improving client satis-    issuing a guide for developing OIG core com-
faction with our core mission areas of audits,    petency skills and developing a proposal to
evaluations, and investigations. Based on the     establish an OIG mentoring program.
results of our 2004 client survey, senior exec-
utive satisfaction ratings increased by 11 per-
cent over the 2003 ratings for our evalua-
                                                  STRATEGIC GOAL       4
tion function, increased by 9 percent for our     Effectively Manage
investigation function, and decreased by          OIG Resources
5 percent for our audit function. The 2004        We met 13 of our 18 performance goals under
client survey showed areas of improvement         Strategic Goal 4. One of our more significant
from the prior survey as well as areas of         accomplishments during the year was the
concern raised by FDIC senior executives          development and implementation of the OIG
that we will need to address. We are develop-     Dashboard system. The Dashboard provides
ing action steps to address these issues          OIG executives with up-to-date information
and concerns as well as other opportunities       on key OIG performance measures, the
for improvement identified through the            budget and monthly spending reports,
survey.                                           staffing, and annual performance goals.


                                                         Management and Performance Challenges 75
        Performance by
        Strategic Goal Area

        STRATEGIC GOAL           1                                 ■           Management and Analysis of Risks to the
                                                                               Insurance Funds
        OIG Products Add Value and                                 ■           Effectiveness of Resolution and Receivership
        Achieve Significant Impact                                             Activities
        Overall, we met or substantially met 8 of our              ■           Management and Security of Information
        11 annual performance goals (APG) under                                Technology Resources
        Strategic Goal 1. These 11 goals are further dis-          ■           Security of Critical Infrastructure
        cussed below.                                              ■           Assessment of Corporate Performance
                                                                   ■           Organizational Leadership and Management
        APG 1.0.1—Complete audit and evaluation
                                                                               of Human Capital
        assignments and issue reports with useful infor-
        mation related to 9 of 10 OIG-identified risk-             ■           Cost Containment and Procurement Integrity
        based Management and Performance
        Challenges                                                 APG 1.0.2—90 percent of the total number of
        As shown in the accompanying graph, we met                 audit and evaluation projects targeted for com-
        this goal. We completed 48 audit and evaluation            pletion in FY 2004 will be completed and result
        reports with useful information related to 9 of            in reports issued containing useful information
        the 10 Management and Performance Chal-                    and recommendations
        lenges (MPCs) facing the Corporation as identi-            We met this goal. To fully meet the goal, we
        fied in our FY 2004 Assignment Plan. In                    needed to issue 41 audit and evaluation reports
        addition, an ongoing assignment related to the             (90 percent of the 46 reports targeted for comple-
        remaining MPC (Transition to a New Financial               tion). The Office of Audits (OA) issued 48 audit
        Environment) is estimated for completion in the            and evaluation reports containing useful infor-
        1st quarter of FY 2005.                                    mation or recommendations in FY 2004, or 17
                                                                   percent more than the 41 reports needed to meet
        We issued products covering the following                  the goal. As shown in the following graph, this
        MPCs.                                                      continues a 3-year upward trend in the number
                                                                   of reports issued. The 48 reports issued in FY
        ■ Adequacy of Corporate Governance in
          Insured Depository Institutions
                                                                   Audit and Evaluation Reports Issued
        ■ Protection of Consumer Interests
                                                                                                   Met                               1.0.2
        MPCs Covered by Reports                                                60
                                                                                    Number To Meet Goal
                                                                               50   Actual              47                      48
                                       Met                 1.0.1
                                                                                          39                             41
                    10                                                         40
                                                                   # Reports




                             9                   9                                                  34

                    8                                                          30   25
        # of MPCs




                                                                               20
                    6
                                                                               10
                    4
                                                                                0
                                                                                     TY 2002        FY 2003              FY 2004
                    2
                                                                   Note: In 2002, the OIG transitioned from calendar year to fiscal year
                    0                                              performance reporting. The transition year (TY 2002) spanned 9
                         2004 Target         2004 Actual           months from January 1, 2002 to September 30, 2002.




76 OIG FY 2004 PERFORMANCE REPORT
2004 represent 104 percent of the 46 reports tar-                         Recommendations Dispositioned Within 12 Months
geted for completion during the year.
                                                                                                                               Not Met                           1.0.4

APG 1.0.3—The ratio of monetary benefits to                                                            100
                                                                                                                80                              80            Target
Office of Audits operating costs will increase                                                          80                                                    Actual
over the ratio in the FY 2003 base period                                                                                                                   63




                                                                          Percentage
                                                                                                                           58
                                                                                                        60
As shown in the accompanying graph, we met
this goal. During FY 2004, monetary benefits                                                            40
resulting from audit and evaluation reports                                                             20
totaled $51,195,522 in relation to Office of
                                                                                                         0
Audits operating costs of $13,261,718 for a ratio                                                                    FY 2003                     FY 2004
of 3.86 to 1 (or a return of $3.86 for each dollar
spent.) This is significantly above the FY 2003
base period ratio of 0.195 to 1. (Note: For pur-                          issuance, (2) the OIG waiting for additional sup-
poses of this goal, Office of Audits operating                            port documentation from the FDIC offices and
costs are based on outlays during this period,                            divisions, and (3) the OIG waiting to receive cor-
and do not include an allocation of outlays of                            rective action closure forms and supporting doc-
other OIG components and certain OIG-wide                                 umentation from FDIC offices and divisions.
non-recurring and special projects expenses.)
                                                                          Of the 77 report recommendations not disposi-
Ratio of Monetary Benefits to OA Operating Costs                          tioned within 12 months of report issuance,
                                                                          34 were dispositioned by September 30, 2004.
                                 Met                              1.0.3
                                                                          We track disposition actions taken by manage-
5.00
           Target
                                                                          ment to help ensure that maximum value is
4.00       Actual                                            3.860        achieved from audit and evaluation reports.

3.00                                                                      APG 1.0.5—Achieve a level of FDIC senior
                                                                          executive client satisfaction with the audit
2.00
                                                                          function 10 percent above the level achieved in
1.00                                                                      the client survey for 2003
                 0.189         0.189 0.195           0.195                As shown in the accompanying graph, we did not
0.00                                                                      meet this goal. The 2004 senior executive client
            TY 2002              FY 2003               FY 2004
                                                                          satisfaction rating for the audit function was 2.51,
Note: In 2002, the OIG transitioned from calendar year to fiscal year
performance reporting. The transition year (TY 2002) spanned 9            which represents a 5.3 percent decrease from the
months from January 1, 2002 to September 30, 2002. Also, there were
no targets or goals related to monetary benefits prior to 2003. TY 2002
                                                                          2003 baseline rating of 2.65. The quantitative
is shown for baseline purposes.                                           assessment of senior executive responses indi-
                                                                          cated a slight decline from 2003 in how the audit
APG 1.0.4—80 percent of recommendations
will be dispositioned within 12 months of                                 Client Satisfaction–Audit
report issuance                                                                                                                Not Met                           1.0.5
We did not meet this goal. The total number of
                                                                                                       4.00
recommendations included in audit and evalua-
                                                                          Client Satisfaction Rating




tion reports issued from October 1, 2002 to                                                            3.00   2.60      2.67                         2.65
September 30, 2003 is 209. A total of 132 or                                                                                    2.50
                                                                                                                                         2.32
                                                                                                                                                             2.51
63 percent of these recommendations were dis-                                                          2.00
positioned within 12 months of report issuance.
As shown in the accompanying graph, this is                                                            1.00
below the target percentage of 80 percent but
above the level achieved in FY 2003. Conditions                                                        0.00
                                                                                                              1998     1999     2000   2001          2003    2004
contributing to not meeting the goal included: (1)
                                                                          Note: Due to the abbreviated transition year period, a client survey was
FDIC management revising the corrective action                            not conducted in 2002.
completion dates beyond 12 months of report

                                                                                                                                  Performance by Strategic Goal Area 77
        function was viewed due to concern with certain                                  received generally positive responses. How-
        aspects of the audit process. However, a qualita-                                ever, the evaluation function was, once again, the
        tive assessment of the responses indicated consid-                               least understood OIG function despite efforts on
        erable improvements from 2003. As noted in the                                   the part of the OIG to increase both the visibility
        client survey report, most executives interviewed                                of this group and the clarity of its mission.
        believe that the OIG audit function is a valuable
        one and that the mere presence of an OIG adds                                    APG 1.0.7—80 percent of closed cases will
        value. Perhaps more noteworthy than the specific                                 result in either reports to management, crimi-
        comments made regarding the audit function in                                    nal convictions, civil actions, administrative
        2004 was the general tone and tenor of these                                     actions, or a combination of these elements
        comments. With a few notable exceptions, com-                                    We met this goal. For FY 2004, 44 of 54 closed
        ments made by senior executives in 2004 about                                    cases, or 81 percent, resulted in either reports to
        the audit function were more positive than in                                    management, criminal convictions, civil actions,
        2003, with many executives reporting an easing of                                administrative actions, or a combination of these
        tensions and a more collegial relationship than                                  elements. As shown in the accompanying graph,
        was evident in 2003 and prior years. Eleven of 13                                this percentage is above the target level of
        senior executives described their relationship with                              80 percent as well as above the levels achieved
        the audit team as being “already good” or as one                                 in 2002 and 2003.
        that had improved during the past year and 9 of
        13 executives interviewed stated that they had
        observed changes for the better in the audit                                     Closed Investigative Cases with Significant Results
        process during the past year.
                                                                                                                              Met                          1.0.7

        APG 1.0.6—Achieve a level of FDIC senior                                                       85
                                                                                                             Target           80                      81
        executive client satisfaction with the evaluation                                              80    Actual
                                                                                                                                                80
        function 10 percent above the level achieved in
                                                                                          Percentage




                                                                                                       75          74
        the client survey for 2003
                                                                                                             70                     70
        As shown in the accompanying graph, we met                                                     70
        this goal. The 2004 senior executive client satis-                                             65
        faction rating for the evaluation function was
        3.03, which represents an 11.4 percent increase                                                60
                                                                                                             TY 2002          FY 2003           FY 2004
        from the 2003 baseline rating of 2.72. This
        exceeded our target for a 10-percent increase.
                                                                                         APG 1.0.8—70 percent of cases accepted for
        In keeping with this, the evaluation function
                                                                                         prosecution will result in convictions, pleas,
                                                                                         and/or settlements
                                                                                         As shown in the accompanying graph, we met
        Client Satisfaction–Evaluation
                                                                                         this goal. Sixteen of 23 cases (70 percent) that
                                                          Met                    1.0.6   had been accepted for prosecution and closed
                                     4.00
                                                                                         during the year resulted in convictions, pleas,
                                                            3.78
                                            3.50                                         and/or settlements.
        Client Satisfaction Rating




                                                   3.22
                                                                          3.03           Cases Resulting in Convictions, Pleas, Settlements
                                     3.00                          2.72
                                                                                                                              Met                          1.0.8
                                     2.00
                                                                                                       100
                                                                                                                                    Target
                                                                                                        80               76         Actual 70
                                                                                                                  70                                 70
                                                                                         Percentage




                                     1.00
                                                                                                        60
                                                                                                        40
                                     0.00
                                            1999   2000     2001   2003   2004                          20
        Note: Due to the abbreviated transition year period, a client survey was                         0
        not conducted in 2002.                                                                                     FY 2003                  FY 2004



78 OIG FY 2004 PERFORMANCE REPORT
APG 1.0.9—Attain a minimum ratio of 9 to 1                  APG 1.0.10—Achieve a level of FDIC senior
of financial benefits to investigative cost                 executive client satisfaction with the investiga-
dollars                                                     tion function 10 percent above the level
As shown in the accompanying graph, we did                  achieved in the client survey for 2003 up to a
not meet this goal. For the fiscal year ending              sustaining level of 80 percent of the maximum
September 30, 2004, investigative financial ben-            score
efits were $40,270,546 and investigative costs              As shown in the accompanying graph, we met
were $7,280,366 for a ratio of 5.53 to 1 (or a              this goal. The 2004 senior executive client satis-
return of $5.53 for each dollar spent). This                faction rating for the investigation function was
ratio is below the target ratio of 9 to 1. Our              3.25, which did not exceed our target for a
ability to conduct the number of investigations             10-percent increase above the 2003 rating of
necessary to accomplish certain quantitative                2.98, but did exceed the sustaining level of 80
goals is impacted by a number of factors                    percent of the maximum score (i.e., 3.20). The
beyond our control. These include Department                OI’s score was the highest received this year by
of Justice (DOJ) priorities and resource                    the OIG’s operating functions. Also, as shown,
restraints and our staffing level. During most of           the OI’s score was the highest received since the
FY 2004, we faced workload staffing challenges              client surveys were introduced in 1999.
in both experience and number of available
agents. We did not reach our current resource               Client Satisfaction–Investigation
level until the fourth quarter. With recent new                                                                Met                  1.0.10
hires, there will be a learning curve for the new
                                                                                         4.00
agents to adapt and become proficient in the
complex financial institution fraud cases that                                                                                   3.25
                                                            Client Satisfaction Rating




                                                                                                3.19             3.10
                                                                                                        3.00             2.98
make up the crux of our caseload. This goal will                                         3.00

continue to be a “stretch” goal, and outside fac-
tors controlled by DOJ could continue to affect                                          2.00
our ability to achieve the goal. However, we
believe that with our increased staffing level, we                                       1.00
will ultimately be in a better position to meet
the goal. (Note: For purposes of this goal, the
                                                                                         0.00
Office of Investigations (OI) operating costs are                                               1999    2000     2001    2003   2004
based on outlays during this period and do not              Note: Due to the abbreviated transition year period, a client survey was
include an allocation of outlays of other OIG               not conducted in 2002.

components and certain OIG-wide non-recur-
ring and special projects expenses).
                                                            APG 1.0.11—Provide useful information and
                                                            analysis on corporate risks, planning, perform-
Ratio of Financial Benefits to Investigative                ance, policies, and directives within timeframes
Operating Costs                                             that are responsive to corporate needs
                                                            We met this goal. OIG activities during FY 2004
                        Not Met                     1.0.9
                                                            in support of this goal include the following:
16.00
                   14.00                        Target
14.00
                                                Actual      ■                            In the spirit of the Reports Consolidation Act
12.00                                                                                    of 2000, provided an assessment of the most
10.00                               9.00                                                 significant management and performance
 8.00                                                                                    challenges facing the Corporation;
 6.00                                      5.53

 4.00       3.00                                            ■                            Met with Office of Enterprise Risk Manage-
 2.00
                                                                                         ment staff to offer suggestions for implement-
 0.00
              FY 2003                 FY 2004                                            ing an Enterprise Risk Management Program
                                                                                         at the FDIC;

                                                                                                                Performance by Strategic Goal Area 79
        ■   Met with the Internal Control Liaison Council        2004 Corporate Annual Performance Plan,
            and discussed the Office of Audits’ Corrective       and 2003 Annual Report;
            Action Resolution and Disposition Process;
                                                             ■   Entered into a joint Memorandum of
        ■   Monitored the Corporation’s New Financial            Understanding with the Division of Resolu-
            Environment (NFE) development efforts by             tions and Receiverships and the Legal Divi-
            attending NFE Steering Committee meetings            sion regarding post-indictment inter-agency
            and reviewing copies of NFE risk evaluation          communications;
            reports from the Office of Enterprise Risk
            Management;                                      ■   Worked with FDIC officials on developing
                                                                 procedures for preserving electronic media at
        ■   Met with the Division of Supervision and             bank closings;
            Consumer Protection and Legal Division
            to discuss OIG comments on the pro-              ■   Reviewed and commented on 43 proposed
            posed directive for Post-Failure Analysis            FDIC directives or proposed revisions to
            Memorandum;                                          directives;

        ■   Coordinated with FDIC management and             ■   Coordinated with the Legal Division on sev-
            other stakeholders in April and June during          eral parallel proceedings and in discovery and
            development of the FY 2005 Annual Assign-            related matters on numerous law suits; and
            ment Plan;
                                                             ■   Actively participated in task forces concerning
        ■   At the Division of Information Resources
                                                                 Electronic Evidence Preservation and Com-
            Management’s request, we reviewed and
                                                                 puter Incident Response Procedures.
            commented on the new security awareness
            Web site;

        ■   Issued a report on enterprise risk manage-       STRATEGIC GOAL        2
            ment to the Corporation that is also being
            distributed to the PCIE community;               Communications Between the
                                                             OIG and Stakeholders Will Be
        ■   Based on our experience in investigating
            major fraud at financial institutions, adapted
                                                             Effective
            and presented training modules discussing        Overall, we met five of our six performance goals
            lessons learned and “Red Flags of Fraud” at      under Strategic Goal 2. These six goals are fur-
            Division of Supervision and Consumer Pro-        ther discussed below.
            tection Commissioned Examiner Seminars,
            Federal Financial Institutions Examination       APG 2.1.1—Promote effective corporate com-
            Council seminars, and the joint DOJ/FDIC-        munications and relations by sponsoring or
            sponsored annual financial fraud conference;     actively participating in various activities,
                                                             including quarterly meetings, conferences, sem-
        ■   Coordinated with the Division of Information     inars, task forces, and training
            Resources Management and other agency offi-      We met this goal. OIG executives and staff were
            cials to establish appropriate processes in      involved in the following activities during the
            addressing cyber crimes, including computer      year in support of this goal:
            intrusion, phishing and spoofing schemes, as
            well as investigations of computer misuse by     ■   Participated with the Division of Supervision
            FDIC employees and contractors;                      and Consumer Protection in the following
                                                                 activities related to audit work: quarterly
        ■   Provided advisory comments to management             meetings with Field Office Supervisors and
            on the FDIC’s Strategic Plan (2004-2008),            division heads to discuss current and planned


80 OIG FY 2004 PERFORMANCE REPORT
    audits and work toward resolving open issues;          fer issues; and coordinated drafting of Memo-
    gave periodic presentations at regional Field          randa of Understanding with the Legal Divi-
    Office Supervisor meetings and at Commis-              sion and DRR regarding Post Indictment
    sioned Examiner Seminars to foster a better            Inter-Agency Communications.
    understanding of OIG audit work; Chicago
    Regional Office briefing on problem banks;         ■   Conducted a number of investigative out-
    Dallas and San Francisco Regional Training             reach and other activities as follows: visited
    Conferences.                                           regional DSC offices on six occasions during
                                                           the year to meet with management and dis-
■   Made information technology presentations              cuss investigative cases and issues of mutual
    (IT) to the: Washington Chapter of the Infor-          concern; OI field agents have also made regu-
    mation Systems Audits and Controls Associa-            lar visits to DSC field offices to provide an
    tion on the impact and future effect of the            overview of OI operations; gave case-study
    Federal Information Security Management                presentations at DSC regional training con-
    Act; Institute for Defense and Government              ferences, Federal Financial Institutions Exam-
    Advancement on the role of information                 ination Council seminars; and at the joint
    assurance auditing within the FDIC; Institute          DOJ/FDIC-sponsored annual financial fraud
    of Internal Auditors’ Auditing in Government           conference; and participated on the Elec-
    Conference on IT Security.                             tronic Evidence Preservation Task Force with
                                                           the Office of Enterprise Risk Management
■   Participated in several activities related to          and the Division of Information Resources
    information technology and resources: Divi-            Management.
    sion of Information Resources Management’s
    (DIRM) “Getting to Green” meetings; DIRM           ■   Participated in activities with other financial
    Transformation Task Force meetings; steering           regulatory agency staff: quarterly meetings
    committees for the Corporate Human                     with the Assistant Inspectors General for
    Resources Information System (CHRIS) and               Audits of other financial regulators; FSLIC
    the FDIC’s laptop computer replacement                 Resolution Fund’s Dissolution Task Force
    project; and in an advisory capacity at meet-          Meeting; and an FDIC Symposium that
    ings of the Audit Committee’s IT Security              explored the question of “Why Banks Fail.”
    Subcommittee, Chief Information Officer
    Council meetings, and the DIRM Transfor-           ■   Engaged in a number of communications and
    mation Advisory Group.                                 other initiatives around the Corporation: pro-
                                                           vided OIG Weekly Highlights Reports to the
■   Engaged in a number of activities related to           Chairman; attended the Corporation’s Man-
    our investigative work: issued quarterly               agers and Supervisors Leadership Training;
    reports to Division of Supervision and Con-            participated in orientation for the FDIC’s
    sumer Protection (DSC), Division of Resolu-            leadership development programs; attended
    tions and Receiverships (DRR), Legal                   and provided feedback to pilot programs of
    Division, and the Chairman’s Office on activ-          the FDIC’s Corporate University; met with
    ity and results of our investigations involving        members of the FDIC’s Labor and Employee
    closed and open banks, assets, and debt cases;         Relations Section to discuss emerging person-
    met quarterly with DRR and the Legal Divi-             nel issues; participated in the Groundhog Job
    sion’s Financial Crimes Unit to review ongo-           Shadow Day program, sponsored jointly by
    ing cases of interest and coordinated routinely        the FDIC and Junior Achievement, where
    with these offices with respect to bank clos-          participating students learned about careers
    ings, concealment of assets cases, and restitu-        at the FDIC and how their studies relate to
    tion orders; met quarterly with the DSC’s              the workings of the FDIC and the banking
    Special Activities Section to coordinate closely       industry; and attended the FDIC senior man-
    on cases involving fraud at open or closed             agement leadership conference in February
    institutions and with regard to records trans-         2004.


                                                                                 Performance by Strategic Goal Area 81
         APG 2.1.2—Achieve a level of FDIC senior exec-                                      Investigations, and in March testified before the
         utive client satisfaction with OIG communica-                                       Subcommittee. In May 2004, the Inspector Gen-
         tion efforts 10 percent above the level achieved in                                 eral met with the staff of the Senate Banking
         the client survey for 2003 up to a sustaining level                                 Committee and in June testified before the
         of 80 percent of the maximum score                                                  Committee. Another briefing was provided to
         As shown in the accompanying graph, we did not                                      the Senate Banking Committee staff in Septem-
         meet this goal. The 2004 senior executive client                                    ber 2004.
         satisfaction rating for OIG communications was
         2.70, which represents a 10.6 percent decrease                                      APG 2.3.1—An OIG Employee Advisory Group
         from the 2003 baseline rating of 3.02. The survey                                   will meet three times a year to serve as facilita-
         report’s quantitative assessment of senior execu-                                   tor of communications among OIG staff and as
         tive responses indicated a decline in OIG com-                                      a channel to advise OIG management regard-
         munications efforts from the previous year due                                      ing employee relations
         primarily to a single instance of a communica-                                      We met this goal. The OIG Employee Advisory
         tion breakdown. However, the survey report’s                                        Group (EAG) met on four occasions during the
         qualitative assessment of the responses noted                                       fiscal year. In March 2004, the EAG met with the
         overall improved quality of communication                                           Exceed Corporation prior to the start of the OIG
         between the OIG and the FDIC. Most FDIC exec-                                       employee survey to discuss the purpose and
         utives remarked on the improvement they had                                         scope of the survey (see related APG 2.3.2). In
         seen in OIG communications during the year—                                         June, the Inspector General met with the EAG
         not only their own communications with the IG,                                      and requested the group’s assistance in identify-
         but also between the Inspector General’s staff and                                  ing potential issues and concerns related to the
         the FDIC senior executives’ staffs. Several FDIC                                    employee survey report. Members of the EAG
         executives cited examples where the OIG had                                         met in August and September to discuss their
         dedicated specific staff members to serve as
                                                                                             observations on the report and plan to meet
         liaisons with the FDIC, and stated that this had
                                                                                             again with the Inspector General to go over the
         greatly improved communication with their
                                                                                             results.
         offices. FDIC executives also emphasized the
         value of OIG work and increased visibility of sen-
         ior OIG executives, noting that this had improved                                   APG 2.3.2—Conduct an employee survey to
         working relationships across-the-board.                                             establish a baseline for employee satisfaction
                                                                                             and to develop strategies to address survey
         Client Satisfaction–OIG Communication                                               results
                                                                                             We met this goal. An independent consultant,
                                                          Not Met                    2.1.2   the Exceed Corporation, conducted an employee
                                     4.00                                                    survey in April and issued a final report in July.
        Client Satisfaction Rating




                                                                           3.02
                                                                                             The survey collected information on how OIG
                                     3.00          2.62    2.69                   2.70       employees view and appraise their job and their
                                                                    2.19                     workplace, including their views on manage-
                                     2.00
                                                                                             ment. All OIG employees had an opportunity to
                                            1.26
                                     1.00
                                                                                             take the survey, and 90 percent completed it,
                                                                                             which is considered an excellent overall response
                                     0.00                                                    rate. The survey was designed to provide infor-
                                            1998   1999    2000   2001     2003   2004
                                                                                             mation comparable to certain major benchmark
        Note: Due to the abbreviated transition year period, a client survey was
        not conducted in 2002.
                                                                                             surveys of other government employees and to
                                                                                             provide baseline information for future FDIC
                                                                                             OIG employee surveys. Overall, the survey
         APG 2.2.1—Meet with House and Senate Over-                                          found that over two-thirds of OIG employees
         sight Committees twice a year                                                       (68 percent) were either satisfied or very satisfied
         We met this goal. In February 2004, the Inspec-                                     with the OIG as a place to work. Approaches
         tor General met with staff of the House Finan-                                      have been developed to prioritize and address
         cial Services Subcommittee on Oversight and                                         issues identified by employees during the survey.

82 OIG FY 2004 PERFORMANCE REPORT
APG 2.4.1—Promote effective communications            ■   OIG staff were involved in a number of addi-
and relations with other OIG stakeholders to              tional activities and events related to the
include participating in PCIE activities and              PCIE: participated in monthly PCIE Govern-
meeting quarterly with other federal regulators           ment Performance and Results Act (GPRA)
and representatives of the U.S. General                   Roundtable Meetings regarding current
Accounting Office (now the U.S. Government                GPRA-related issues; participated on the
Accountability Office (GAO))                              PCIE awards selection committee; partici-
We met this goal. As the PCIE Vice Chair, the             pated in the PCIE meetings of the Assistant
Inspector General chaired monthly Council                 Inspectors General for Investigations; made a
meetings and welcomed guest speakers from the             presentation to the PCIE Information Tech-
Office of Management and Budget, GAO, the                 nology Roundtable on “An IG Perspective of
Administration, and individual OIGs to discuss            the Federal Information Security Manage-
issues related to the IG community. During the            ment Act;” gave a presentation of the OIG
fall of 2003, the IG was actively involved in the         Client Survey Process before the PCIE GPRA
community’s initiatives to commemorate the                Roundtable; participated in the PCIE GPRA
25th anniversary of the IG Act. Specifically, he          Performance Measures Fair; and gave a pres-
(1) testified before the House Government                 entation to the PCIE Legislative Committee
Reform Subcommittee on Government Effi-                   concerning potential amendments to the
ciency and Financial Management on the IG Act             Inspector General Act of 1978.
and possible legislative changes; (2) participated
in an IG community meeting with President
                                                      ■   We provided advice, assistance, and coordina-
George W. Bush; (3) was interviewed on C-
                                                          tion to other Offices of Inspector General and
Span’s Washington Journal; (4) led the IG com-
                                                          organizations related to the IG community by:
munity’s update of the Quality Standards for
                                                          continued participation in the Federal Audit
Federal Inspectors General (Silver Book); (5) pre-
pared an opening message for the fall/winter              Executive Council, including acting as organ-
commemorative edition of the IG publication,              izer for the 2004 annual conference, chairing
Journal of Public Inquiry; and (6) hosted a 25th          the Information Technology Security Commit-
anniversary open house for FDIC featuring the             tee, and participating on the Audit Issues
IG Act history and commemorative poster. The              Committee; providing our audit and evalua-
IG also continued a variety of initiatives, includ-       tion policies and procedures manual to the
ing (1) preparing the PCIE and ECIE annual                Treasury and State Department OIGs; pro-
progress report to the President;                         viding a briefing and tour to Department of
(2) assisting with the annual PCIE/ECIE confer-           Housing and Urban Development OIG repre-
ence and awards program; and (3) representing             sentatives of our audit computer lab; chairing
the PCIE by speaking at various conferences,              the Executive Resources Board for the Depart-
meetings, and foreign visitor programs. Routine           ment of Agriculture OIG to select a new assis-
activities included preparing agendas, minutes,           tant IG; advising the Tennessee Valley
and issues for monthly PCIE and quarterly Exec-           Authority’s OIG on obtaining its first appro-
utive Council meetings, circulating correspon-            priation; providing a demonstration of our
dence to members to facilitate communications,            Investigative Data System timekeeping func-
and monitoring the activities of the various              tions to the U.S. Agency for International
PCIE committees and related organizations. As             Development OIG; advising the Department
FDIC IG, he met quarterly with other federal              of Commerce OIG on the implementation of
regulatory IGs to address matters of mutual con-          our Training and Professional Development
cern. He also met and discussed with GAO rep-             System; and providing advice to the General
resentatives the various issues and projects              Services Administration OIG regarding its
affecting the FDIC as well as the OIG.                    consideration of implementing Teammate
                                                          automated work papers through Citrix servers.
Other OIG activities during FY 2004 in support
of this goal include myriad activities across the     ■   Participated in activities with GAO related
government.                                               to GAO’s Yellow Book audit standards,

                                                                               Performance by Strategic Goal Area 83
            including: meeting with the GAO Advisory             Structure assignment; participating in the
            Committee on Yellow Book changes and                 monthly meetings of the interagency Bank
            co-presenting at different venues the new            Fraud Working Group; and participating in
            Yellow Book standards along with an Assis-           various panels and giving several presenta-
            tant Director of GAO.                                tions at the annual DOJ/FDIC-sponsored
                                                                 financial fraud conference.
        ■   We were involved in work relating to the Bank
            Secrecy Act (BSA) through: coordinating with
            GAO and the Federal Reserve on work related
            to the BSA; meeting with Federal Reserve OIG
                                                              STRATEGIC GOAL       3
            on work related to the BSA; and attending a       OIG Will Align Its Human
            Senate hearing on terrorism risk insurance.       Resources to Support the
        ■   We interacted with other OIGs and the fed-        OIG Mission
            eral community in a number of ways, includ-       Overall, we met or substantially met five of our
            ing: holding multiple meetings with other         six performance goals under Strategic Goal 3.
            federal agencies on the Federal Information       These six goals are further discussed below.
            Security Management Act (FISMA) and
            improvements to the FISMA process; partici-       APG 3.2.1—Explore the feasibility of establish-
            pating in quarterly meetings with other OIGs      ing a mentoring program within the OIG to
            to share common human resource issues and         meet its unique professional development needs
            topics; addressing a request from the Small       We met this goal. Meetings were held with the
            Business Administration OIG on electronic         FDIC Mentoring Program Coordinator to
            bank documentation; addressing a request          obtain background information on the Corpo-
            from the National Credit Union Administra-        ration’s existing program. In addition, we gath-
            tion OIG on examiner encryption of bank           ered information from other government
            customer data; attending the Federal Finan-       agencies that have mentoring programs. A pro-
            cial Institutions Examination Council infor-      posal for an OIG mentoring program was pre-
            mation technology symposium; attending a          sented to the IG and Deputy IG in July 2004, and
            meeting of Assistant Inspectors General for       a decision from the Inspector General on how
            Investigations at the IG Academy; attending       the OIG will implement a mentoring program is
            meetings of the Council of Counsels to the        anticipated.
            Inspectors General and providing input to
            questions raised by members; and attending        APG 3.2.2—Develop guidance for OIG training
            meetings of the Interagency Ethics Council        and professional development initiatives that
            and a conference sponsored by the U.S. Office     complement core competencies and business
            of Government Ethics.                             knowledge needs
                                                              We met this goal. A Guide for Developing OIG
        ■   We worked on additional issues of mutual          Core Competency Skills was prepared and issued
            interest with financial regulatory agencies       in December 2003. The guide is on the OIG Web
            and other federal agencies by: holding quar-      site for employees’ reference and comments and
            terly meetings with Assistant Inspectors          it will be updated as needed.
            General for Audits from the financial insti-
            tution regulatory agencies; meeting with          APG 3.2.3– All OIG staff will complete at least
            representatives of the Treasury OIG to dis-       16 hours/CPEs of training related to the OIG
            cuss issues relating to investigations arising    non-technical core competencies
            at failed institutions; meeting with staff from   We did not meet this goal. Eighty-eight of
            the Office of the Comptroller of the Cur-         144 OIG staff (61 percent) met the goal of hav-
            rency related to the Division of Supervision      ing at least 16 hours of non-technical core com-
            and Consumer Protection Regional Office           petency training.


84 OIG FY 2004 PERFORMANCE REPORT
APG 3.2.4—All OIG staff will enhance their           APG 3.3.1—Develop guidance for leadership
business knowledge/technical competence in           development and training to complement the
one or more areas through training or profes-        OIG leadership competency
sional development                                   We substantially met this goal. The exposure
This goal was substantially met. We completed a      draft Guide for Developing OIG Core Competency
study of the trends in OIG training, and this        Skills addresses leadership development and
study was provided to the OIG executives for         training. In addition, we are pursuing leadership
their review. Most training taken in fiscal year     development training opportunities offered by
2003 was technical in nature, according to the       the National Leadership Institute, an institute
study results. At this time, the OIG has not         where the U.S. Government Accountability
agreed upon a strategy for accomplishing the         Office sends its managers for development. We
goal of enhancing business knowledge/technical       also encourage our managers to attend leader-
competence.                                          ship training opportunities through PCIE-spon-
                                                     sored training and the Federal Executive
                                                     Institute. Also, the Office of Audits has provided
Our Office of Audits staff successfully enhanced     leadership development opportunities for some
their business knowledge and technical compe-        of its staff. At this time, the OIG has not agreed
tence through methods including targeted and         upon a comprehensive strategy for leadership
general training in subject matter expertise         development and training.
from the Corporate University, Federal Finan-
cial Institutions Examination Council, com-          In addition, the OIG Human Resources Branch
mercial vendors, in-house courses, and               announced 13 Treasury Executive Institute semi-
on-the-job training for new hires. All Office of     nars this year. These seminars are made available
Audits staff are on-target to meet the continu-      through the FDIC Corporate University’s School
ing professional education hours required by         of Leadership Development, and provide
the Government Auditing Standards for the            employees at the CG-15 and above level the
biennial period concluding on December 31,           opportunity to develop their leadership skills by
2004.                                                attending and hearing presentations on various
                                                     leadership topics. The OIG sent staff to about 25
                                                     percent of these sessions. The OIG also had four
To keep abreast of the ever changing computer        employees express interest in the PCIE Leadership
field, OI has provided technical computer train-     Development Workshop. Two attended in May
ing for all Electronic Crimes Team staff. Also,      2004 and two will attend in November 2004.
over the year OI has enhanced its law enforce-
ment firearms program for agents by qualifying       APG 3.4.1—Measure staff satisfaction with
additional agents, via training, as firearms         performance feedback and develop options for
instructors and armorers as well as training         enhancing as appropriate
firearms instructors to provide training to agents   We met this goal. The OIG conducted an
regarding “Flying Armed.”                            employee survey that included questions relat-
                                                     ing to feedback, and offices are looking at ways
                                                     to address issues in this area. In addition, we
Other OIG employees have pursued targeted            prepared a strategy for enhancing feedback
training in their specialty areas. As examples,      mechanisms in the OIG that includes (1) devel-
Office of Management and Congressional Rela-         oping a message about the importance of feed-
tions employees are pursuing a certificate in        back and roles and responsibilities of the
human capital management; cross-training for         supervisor and staff in feedback that will be
a certificate in financial management and            conveyed by the IG and (2) developing a Web
budget issues; meeting the requirements for          site (Feedback Forum) that will be used to peri-
Certified Government Financial Manager; and          odically provide information on feedback for
enhancing their knowledge of a software pack-        staff, such as useful articles and tips on giving
age that will be used in upcoming revisions to       and receiving feedback. We have begun con-
the OIG’s principal information systems.             structing the Web site.


                                                                              Performance by Strategic Goal Area 85
        STRATEGIC GOAL       4                              Days to Issue Audit and Evaluation Reports

                                                                                            Met                             4.1.2
        OIG Will Effectively Manage Its                     300                             273
                                                                      267 273                                          Target
        Resources                                                                                 223                  Actual
        Overall, we met or substantially met 13 of our      200
                                                                                                                 200 189
        18 performance goals under Strategic Goal 4.
        These 18 goals are further discussed below.
                                                            100
        APG 4.1.1—Develop an enterprise risk man-
        agement framework for the OIG that will pro-
                                                              0
        vide an integrated organization-wide, strategic                TY 2002              FY 2003              FY 2004
        approach to measuring and managing the              Note: In 2002, the OIG transitioned from calendar year to fiscal year
        OIG’s risks in order to maximize the OIG’s          performance reporting. The transition year (TY 2002) spanned 9
                                                            months from January 1, 2002 to September 30, 2002.
        value and help ensure strategic goals are
        achieved
        We did not meet this goal. Although substantial
                                                            taken to issue audit and evaluation reports over
        progress has been made on the framework as
                                                            the last 3 years.
        discussed below, workload priorities during the
        year and other factors prevented us from com-
                                                            APG 4.1.3—Reduce the ratio of Office of Audits’
        pleting this initiative. Key staff attended up-     operating costs to reports issued so that the
        to-date enterprise risk management (ERM)            FY 2004 operating cost ratio is 10 percent less
        training sponsored by leading organizations in      than the 2003 baseline cost ratio
        February and March. Research and analysis has       We did not meet this goal. The average cost of
        been underway building on the draft Enterprise      audit and evaluation reports issued in FY 2004
        Risk Management Framework issued by the             was $276,286, based on 48 reports issued and
        Committee of Sponsoring Organizations of the        operating costs of $13,261,718. This average
        Treadway Commission (COSO) for public               exceeded the performance target ceiling of
        comment in 2003, the COSO Internal Control          $250,940 per report. The OIG set a stretch goal
        Framework, and professional literature relating     for efficiency recognizing that it may be achieved
        to existing approaches to ERM as well as imple-     through a multi-year emphasis on cost reduc-
        mentation of the Sarbanes-Oxley Act, but            tion. While this goal was not met in FY 2004, as
        additional analysis needs to be accomplished.       shown in the accompanying graph, the average
        The final COSO ERM Integrated Framework             cost per assignment continued a favorable 3-year
        was released on September 29, several months’       trend by dropping from $310,666 in TY 2002
        delay from the original schedule. Also, a new       (January 1, 2002—September 30, 2002) to
        accompanying document, Application Tech-            $276,286 in FY 2004, or an 11-percent reduc-
        niques, illustrates how effective enterprise risk   tion. The reduction was achieved even though
        management concepts and principles may be           annual and merit pay increases in January 2003
        successfully applied, and will need to be           and 2004 totaled approximately 8.6 percent.
        reviewed and considered in developing the
        OIG’s ERM framework.                                Note: For assessing this goal, the ratio (average
                                                            cost) is determined by comparing reports issued
        APG 4.1.2—Achieve an average of 200 calendar        (i.e., completed assignments) during FY 2004 to
        days to produce final audit and evaluation          Office of Audits operating costs reported during
        reports                                             the same period. For this purpose, assignment
        We met this goal. The average elapsed time to       costs are not accumulated and matched to com-
        issue audit and evaluation reports in FY 2004       pleted assignments. Office of Audits operating
        was 189 days, or 11 fewer days than the target of   costs are defined as those direct and indirect
        200 days. As shown in the following graph, this     costs, including contract costs, within the control
        continues a favorable trend in the average time     of Office of Audits and exclude an allocation of

86 OIG FY 2004 PERFORMANCE REPORT
Operating Costs per Audit Report (in thousands)                               Employee Cases Completed in Less than 6 Months

                                    Not Met                           4.1.3                                      Not Met                       4.1.5

$400                                                                                       100
                                                               Target                                       100               100        Target
$350                                                           Actual                                                                    Actual
                         $311        $311                                                   95




                                                                              Percentage
$300                                        $279               $276
                                                                                                    90
                                                        $251                                90                                        88
$250
$200                                                                                        85
$150
                                                                                            80
$100                                                                                                   FY 2003                 FY 2004
     $50
             $0
                      TY 2002         FY 2003           FY 2004               is below the FY 2004 target percentage as well as
                                                                              the rate achieved in FY 2003. The eighth case
                                                                              took longer than 6 months to complete because
outlays of other OIG components and certain                                   OI had to wait for the receipt of documentation
OIG-wide non-recurring and special projects                                   necessary to complete its analysis and issue its
expenses.                                                                     report.

APG 4.1.4—70 percent of active cases that have                                APG 4.1.6—90 percent of investigative reports
been open over 1 year will be referred and                                    will be issued within 30 days, and 100 percent
accepted for prosecution                                                      of investigative reports will be issued within
We met this goal. Of 57 active cases that have                                60 working days, after completion of the case
been open over 1 year as of the end of the fiscal                             As shown in the accompanying graph, we met
year, 43 cases or 75 percent have been referred                               this goal. During the year, 38 Reports of Investi-
and accepted for prosecution. As shown in the                                 gation were issued. All 38 reports, or 100 per-
accompanying graph, this percentage is above                                  cent, were issued within 30 working days, and
the FY 2004 target percentage as well as the rate                             subsequently within 60 days, of case completion.
achieved in FY 2003.
                                                                              Investigation Reports Issued within Established
                                                                              Timeframes
Cases Over 1 Year Old Referred and Accepted
for Prosecution                                                                                                   Met                          4.1.6

                                     Met                              4.1.4                100
                                                                                                           100       Target    100       100
             100                                                                            80    90
                                                                                                                     Actual
                                        Target
                                                                              Percentage




              80                        Actual             75                               60
                         70     70                 70
Percentage




              60                                                                            40

              40                                                                            20

              20                                                                             0
                                                                                                 Within 30 Days               Within 60 Days
                  0
                          FY 2003                   FY 2004

                                                                              APG 4.1.7—140 investigative actions will result
APG 4.1.5—100 percent of employee cases that                                  from OI cases during the year
have either no criminal prosecution potential                                 As shown in the accompanying graph, we did
or have been declined for prosecution will be                                 not meet this goal. For FY 2004, 98 actions
completed in less than 6 months                                               resulted from investigative cases. This is below
We did not meet this goal. During FY 2004,                                    the fiscal year target of 140 actions for this
eight employee cases were completed. Seven                                    stretch goal. The cases under investigation are
cases, or 88 percent, were completed in less than                             major cases, and actions occur over a protracted
6 months. As shown in the following graph, this                               period. Our ability to conduct the number of

                                                                                                                    Performance by Strategic Goal Area 87
        Investigative Actions                                                       Privacy Act requests, and reviews of legislation,
                                                                                    regulations, FDIC and OIG procedures) were
                                           Not Met                          4.1.7
                                                                                    provided by the Counsel’s Office on 32 occa-
        200                                                                         sions. As shown in the accompanying graph,
                                     160                                 Target
        150                                               140            Actual     legal services were provided within applicable
                                                                                    timeframes 100 percent of the time, the same
                              100                                   98
        100                                                                         rate as achieved in FY 2003.
             50
                                                                                    APG 4.1.9—The Electronic Crimes Team will
                     0                                                              provide preliminary/final analysis of computer
                               FY 2003                    FY 2004
                                                                                    media examined within 30 days of initial
                                                                                    request for computer forensic support
                                                                                    We met this goal. During the fiscal year, the Elec-
        investigations necessary to accomplish certain                              tronic Crimes Team provided nine
        quantitative goals is impacted by a number of                               preliminary/final analyses of computer media
        factors beyond our control. These include DOJ                               examined within 30 days of initial request for
        priorities and resource restraints and the staffing                         computer forensic support. Improvements were
        level of our OI. During most of FY 2004, we                                 made to the Investigative Data System to better
        faced workload staffing challenges in both expe-                            track data for the requirements for this goal.
        rience and number of available agents. We did
        not reach our current resource level until the                              APG 4.1.10—The Electronic Crimes Team will
        fourth quarter. With recent new hires, there will                           respond to 100 percent of bank closings where
        be a learning curve for the new agents to adapt                             fraud is suspected and OI special agents are
        and become proficient in the complex financial                              participating
        institution fraud cases that make up the crux of                            We met this goal. During the fiscal year, the Elec-
        our caseload. This goal will continue to be a                               tronic Crimes Team responded to three bank
        “stretch” goal, and outside factors controlled by                           closings where fraud was suspected and special
        DOJ could continue to affect our ability to                                 agents were participating.
        achieve the goal. However, we believe that with
        our increased staffing level, we will ultimately be                         APG 4.1.11—OIG Hotline information will be
        in a better position to meet the goal.                                      reviewed and a determination made as to a
                                                                                    course of action within 7 business days
        APG 4.1.8—Legal services are provided within                                As shown in the graph below, we met this goal.
        applicable timeframes 100 percent of the time                               During the fiscal year, 150 Hotline cases were
        We met this goal. During the year, legal services                           reviewed and a determination made as to a
        (subpoenas, Freedom of Information Act and                                  course of action on an average of 2.3 business


        Legal Services Provided within Applicable                                   Average Days to Process OIG Hotline Information
        Timeframes
                                                                                                                     Met                 4.1.11
                                               Met                          4.1.8
                                                                                                   8
                                                                                                           7
                     100                                                                           7
                                         100     Target     100      100
                                                                                    Elapsed Days




                               90                                                                  6
                         80                      Actual
                                                                                                   5
        Percentage




                         60                                                                        4
                         40                                                                        3                           2.3
                                                                                                   2
                         20
                                                                                                   1
                          0                                                                        0
                                FY 2003                         FY 2004                                2004 Target         2004 Actual




88 OIG FY 2004 PERFORMANCE REPORT
days. This is significantly below the target of      APG 4.2.2—Perform at least four (4) internal
7 business days.                                     quality control reviews (QCR) that, collectively,
                                                     cover reports issued by all 5 line directorates
APG 4.1.12—Develop an executive information          every 12 months and resolve any significant
system that improves the efficiency of OIG           matters identified
management oversight of internal operations          We met this goal. Six QCRs were issued in FY
We met this goal. The OIG Dashboard system           2004. Three QCRs included reports issued at the
was completed and implemented during the last        directorate-specific level, a fourth covered the
part of August and early September 2004. The         Office of Audits’ Continuing Professional Educa-
Dashboard provides OIG executives and a few          tion efforts, a fifth covered reports from all five
designated staff with up-to-date information on      line directorates, including those not previously
key OIG performance measures, the budget and         reviewed in FY 2004, and a sixth analyzed trends
monthly spending reports, staffing, and annual       for the purposes of established assignment phase
performance goals. The Dashboard also provides       baselines. All significant matters have been
a new approach for reporting and consolidating       resolved.
status information on the OIG’s annual per-
formance goals.                                      Further, the Department of Energy OIG com-
                                                     pleted a peer review on September 1, 2004, of
                                                     FDIC OIG Office of Audits’ operations that
APG 4.1.13—Develop an OIG Information
                                                     included reports issued by each of the five line
Technology Strategic Plan to guide internal IT
                                                     directorates. Their report concluded as follows:
priorities and ensure efficient and secure uses of
                                                     “In our opinion, the system of quality control for
IT resources within the OIG
                                                     the audit function of the FDIC OIG in effect for
We met this goal. The OIG completed a memo-
                                                     the year ended March 31, 2004, has been designed
randum in September 2004 setting forth chal-
                                                     in accordance with the quality standards estab-
lenges and strategies for the OIG’s information
                                                     lished by the PCIE and was being complied with
technology needs for fiscal years 2005 through       for the year then ended to provide the OIG with
2007.                                                reasonable assurance of material compliance with
                                                     professional auditing standards in the conduct of
APG 4.2.1—Develop an OIG-wide Quality                its audits. Therefore, we are issuing an unqualified
Assurance Framework to document the process          opinion on your system of audit quality control.”
in place to ensure that OIG work meets the
highest standards of quality                         APG 4.2.3—Achieve a result of zero (0) mate-
We did not meet this goal. Although significant      rial instances of noncompliance with Govern-
progress has been made towards developing a          ment Auditing Standards as identified in
quality assurance framework as discussed below,      internal quality control reviews
due to other priorities, we were unable to com-      We met this goal. No material instances of non-
plete the framework by the end of the fiscal year.   compliance with Government Auditing Stan-
Research and analysis is in progress to build a      dards were identified in the six quality control
framework based on best practices, with consid-      reviews issued in FY 2004. Further, no material
eration of the Quality Standards for IGs (“Silver    instances of noncompliance with Government
Book”) and GAO’s quality assurance framework.        Auditing Standards were identified in the peer
Preliminary crosswalk analyses of the Silver Book    review of the Office of Audits completed in Sep-
versus GAO’s framework and the Silver Book ver-      tember 2004 by the Department of Energy OIG.
sus the FDIC OIG’s policies and procedures have
been completed as a basis for further framework      APG 4.2.4—Conduct internal operational
development. Other analyses in progress include      reviews of the three major investigative offices
a comparison of the requirements of the Sar-         every 12 months and resolve significant matters
banes-Oxley Act and the FDIC Improvement Act         identified
to develop a basis for assessing the FDIC’s con-     We met this goal. As part of the review process,
trols related to financial reporting.                in order to update and keep current with PCIE


                                                                               Performance by Strategic Goal Area 89
        guidelines and recent DOJ guidance for law           APG 4.2.5—Conduct an independent quality
        enforcement officers, all Office of Investiga-       review of the operations of another IG office
        tions policies were reviewed and updated as          under the auspices of the PCIE community
        appropriate. Internal field office operational       We met this goal. An external peer review of the
        reviews were conducted of the three major            Department of Commerce OIG audit operations
        investigative offices as well as the Chicago Field   was completed in December 2003. This entailed
        Office. The reviews targeted those areas identi-     a comprehensive review on a 3-year cycle as
        fied as most critical for compliance with the        required by the Inspector General Act and Gov-
        new DOJ law enforcement guidelines and peer          ernment Auditing Standards carried out under
        review requirements.                                 guidelines issued by the PCIE. The review team
                                                             was led by the Office of Quality Assurance and
                                                             Oversight and included team members from the
                                                             Office of Audits.




90 OIG FY 2004 PERFORMANCE REPORT
                                                    Detail Listing of
                                       Annual Performance Goal Accomplishment
                           FY 2004 Annual Performance Goal                            FY 2004 Goal           FY 2003 Goal
                                  (By Strategic Goal)                               Accomplishment         Accomplishment

         Strategic Goal 1: OIG Products Will Add Value by Achieving Significant Impact

        APG 1.0.1—Complete audit and evaluation assignments and issue               Met              Met
        reports with useful information related to 9 of 10 OIG-identified
        risk-based Management and Performance Challenges
        APG 1.0.2—90 percent of the total number of audit and evaluation            Met              Met (FY 2003 target was
        projects targeted for completion in FY 2004 will be completed and result                     80 percent)
        in reports issued containing useful information and recommendations
        APG 1.0.3—The ratio of monetary benefits to Office of Audits operating      Met              Met
        costs will increase over the ratio in the FY 2003 base period
        APG 1.0.4—80 percent of recommendations will be dispositioned within        Not Met          Not Met
        12 months of report issuance
        APG 1.0.5—Achieve a level of FDIC senior executive client satisfaction      Not Met          Met
        with the audit function 10 percent above the level achieved in the client
        survey for 2003
        APG 1.0.6—Achieve a level of FDIC senior executive client satisfaction      Met              Not Met
        with the evaluation function 10 percent above the level achieved in the
        client survey for 2003
        APG 1.0.7—80 percent of closed cases will result in either reports to       Met              Not Met
        management, criminal convictions, civil actions, administrative actions,
        or a combination of these elements
        APG 1.0.8—70 percent of cases accepted for prosecution will result in       Met              Met
        convictions, pleas, and/or settlements
        APG 1.0.9—Attain a minimum ratio of 9 to 1 of financial benefits to         Not Met          Met (FY 2003 target ratio
        investigative cost dollars                                                                   was 3 to 1)
        APG 1.0.10—Achieve a level of FDIC senior executive client satisfaction     Met              Not Met
        with the investigation function 10 percent above the level achieved in
        the client survey for 2003 up to a sustaining level of 80 percent of the
        maximum score
        APG 1.0.11—Provide useful information and analysis on corporate risks,      Met              Met
        planning, performance, policies, and directives within timeframes that
        are responsive to corporate needs

         Strategic Goal 2: Communications between the OIG and the Chairman, the Congress, employees, and other stakeholders
         will be effective

        APG 2.1.1—Promote effective corporate communications and relations          Met              Met
        by sponsoring or actively participating in various activities, including
        quarterly meetings, conferences, seminars, task forces, and training
        APG 2.1.2—Achieve a level of FDIC senior executive client satisfaction      Not Met          Met
        with OIG communication efforts 10 percent above the level achieved in
        the client survey for 2003 up to a sustaining level of 80 percent of the
        maximum score
        APG 2.2.1—Meet with House and Senate Oversight Committees twice             Met              N/A
        a year
        APG 2.3.1—An OIG Employee Advisory Group will meet three times a            Met              Met
        year to serve as facilitator of communications among OIG staff and as
        a channel to advise OIG management regarding employee relations


92 OIG FY 2004 PERFORMANCE REPORT
                                        Detail Listing of
                      Annual Performance Goal Accomplishment (Continued)
                   FY 2004 Annual Performance Goal                           FY 2004 Goal           FY 2003 Goal
                          (By Strategic Goal)                              Accomplishment         Accomplishment

APG 2.3.2—Conduct an employee survey to establish a baseline for           Met              Not Met
employee satisfaction and to develop strategies to address survey
results
APG 2.4.1—Promote effective communications and relations with other        Met              Met
OIG stakeholders to include participating in PCIE activities and meeting
quarterly with other federal regulators and representatives of the U.S.
Government Accountability Office

 Strategic Goal 3: The OIG will align its human resources to support the OIG mission

APG 3.2.1—Explore the feasibility of establishing a mentoring program      Met              N/A
within the OIG to meet its unique professional development needs
APG 3.2.2—Develop guidance for OIG training and professional               Met              N/A
development initiatives that complement core competencies and
business knowledge needs
APG 3.2.3—All OIG staff will complete at least 16 hours/CPEs of training   Not Met          N/A
related to the OIG non-technical core competencies
APG 3.2.4—All OIG staff will enhance their business knowledge/             Substantially    N/A
technical competence in one or more areas through training or              Met
professional development
APG 3.3.1—Develop guidance for leadership development and training         Substantially    N/A
to complement the OIG leadership competency                                Met
APG 3.4.1—Measure staff satisfaction with performance feedback and         Met              N/A
develop options for enhancing as appropriate
Strategic
 StrategicGoal
           Goal4: 4:
                  TheThe
                      OIGOIG
                          willwill
                               effectively manage
                                   effectively     its resources
                                               manage   its resources

APG 4.1.1—Develop an enterprise risk management framework for the          Not Met          N/A
OIG that will provide an integrated organization-wide, strategic
approach to measuring and managing the OIG’s risks in order to
maximize the OIG’s value and help ensure strategic goals are achieved
APG 4.1.2—Achieve an average of 200 calendar days to produce final         Met              Met (FY 2003 target was
audit and evaluation reports                                                                273 days)
APG 4.1.3—Reduce the ratio of Office of Audits’ operating costs to         Not Met          Met
reports issued so that the FY 2004 operating cost ratio is 10 percent
less than the 2003 baseline cost ratio
APG 4.1.4—70 percent of active cases that have been open over 1 year       Met              Met
will be referred and accepted for prosecution
APG 4.1.5—100 percent of employee cases that have either no criminal       Not Met          Met (FY 2003 target was
prosecution potential or have been declined for prosecution will be                         90 percent)
completed in less than 6 months
APG 4.1.6—90 percent of investigative reports will be issued within        Met              Met
30 days, and 100 percent of investigative reports will be issued within
60 working days, after completion of the case
APG 4.1.7—140 investigative actions will result from OI cases during       Not Met          Met (FY 2003 target was
the year                                                                                    100 actions)
APG 4.1.8—Legal services are provided within applicable timeframes         Met              Met (FY 2003 target was
100 percent of the time                                                                     90 percent)



                                                                                            Performance by Strategic Goal Area 93
                                                 Detail Listing of
                               Annual Performance Goal Accomplishment (Continued)
                            FY 2004 Annual Performance Goal                               FY 2004 Goal                 FY 2003 Goal
                                   (By Strategic Goal)                                  Accomplishment               Accomplishment

        APG 4.1.9—The Electronic Crimes Team will provide preliminary/final              Met                   N/A
        analysis of computer media examined within 30 days of initial request
        for computer forensic support
        APG 4.1.10—The Electronic Crimes Team will respond to 100 percent                Met                   N/A
        of bank closings where fraud is suspected and OI special agents are
        participating
        APG 4.1.11—OIG Hotline information will be reviewed and a                        Met                   N/A
        determination made as to a course of action within 7 business days
        APG 4.1.12—Develop an executive information system that improves                 Met                   N/A
        the efficiency of OIG management oversight of internal operations
        APG 4.1.13—Develop an OIG Information Technology Strategic Plan to               Met                   N/A
        guide internal IT priorities and ensure efficient and secure uses of IT
        resources within the OIG
        APG 4.2.1—Develop an OIG-wide Quality Assurance Framework to                     Not Met               N/A
        document the process in place to ensure that OIG work meets the
        highest standards of quality
        APG 4.2.2—Perform at least four (4) internal quality control reviews             Met                   Met
        (QCR) that, collectively, cover reports issued by all 5 line directorates
        every 12 months and resolve any significant matters identified
        APG 4.2.3—Achieve a result of zero (0) material instances of                     Met                   Met
        noncompliance with Government Auditing Standards as identified in
        internal quality control reviews
        APG 4.2.4—Conduct internal operational reviews of the three major                Met                   Met
        investigative offices every 12 months and resolve significant matters
        identified
        APG 4.2.5—Conduct an independent quality review of the operations                Met                   Not Met
        of another IG office under the auspices of the PCIE community




                                              Statistical Summary of Performance
                                              Fiscal Year 2003 Performance Goals
                                                                                        Annual Goal Accomplishment
                                                                                             (Number of Goals)
                                                                                               Substantially
                       Strategic Goals                                          Met                Met               Not Met     Total

        1. OIG Products Add Value and Achieve Significant Impact                    7                                    4        11
        2. Communications Between OIG and Stakeholders is Effective                 5                                    1            6
        3. Align Human Resources to Support the OIG Mission                         1                3                   1            5
        4. OIG Resources are Managed Effectively                                11                                       1        12
        Total                                                                   24                   3                   7        34
        Percentage                                                             70%                  9%                21%        100%



94 OIG FY 2004 PERFORMANCE REPORT
                                                    Emerging Issues in
                                                    Banking Symposium

Along with the Federal Reserve Board and
Department of the Treasury Offices of Inspector
General, our office cosponsored a third Emerging
Issues in Banking Symposium. This forum brought
together representatives from the financial reg-
ulatory agency Offices of Inspector General, Gov-
ernment Accountability Office, Securities and
Exchange Commission, Pension Benefit Guaranty
Corporation, Federal Housing Finance Board,
and others to hear from leading experts about
emerging issues that impact our collective and
individual work and responsibilities.
                                                    L to R: Dennis Schindel, Acting IG at Treasury; Barry
Speakers at the symposium included representa-      Snyder, FRB IG, Gaston Gianni, FDIC IG.
tives from the Division of Supervision and Con-
sumer Protection and Division of Insurance and
Research at the FDIC, each of whom presented
valuable information related to the work of their
respective Divisions and the financial services
industry at-large. Other speakers included Gov-
ernor Susan Bies from the Federal Reserve Board
who spoke of Corporate Governance; a senior
advisor from the Compliance Division of the
Office of the Comptroller of the Currency
(OCC) who addressed consumer protection
matters at the OCC; a panel consisting of Coun-
sel and a staff member from the Senate Commit-
tee on Banking, Housing, and Urban Affairs and
House Committee on Financial Services who
shared perspectives on issues of Congressional
concern; the Director of the Financial Crimes
Enforcement Network; and representatives from
the Office of Foreign Assets Control and the Fed-
eral Financial Institutions Examination Council.    L to R: Russell Rau, Barry Snyder, Dennis Schindel, Gaston Gianni.
The Office of Inspector General (OIG) Hotline is a convenient mechanism
 employees, contractors, and others can use to report instances of suspected fraud,
waste, abuse, and mismanagement within the FDIC and its contractor operations.
The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
designed to make it easy for employees and contractors to join with the OIG in its
efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
success of FDIC programs or operations.




To learn more about the FDIC OIG and for complete copies of audit
and evaluation reports discussed in this Semiannual Report, visit our
 homepage: http://www.fdicig.gov




Federal Deposit Insurance Corporation
Office of Inspector General
801 17th St., NW Washington, D.C. 20434
